<html>
<title> - FEDERAL LANDS RECREATION ENHANCEMENT ACT</title>
<body><pre>[Senate Hearing 109-321]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-321
 
                FEDERAL LANDS RECREATION ENHANCEMENT ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE IMPLEMENTATION OF THE FEDERAL LANDS RECREATION 
ENHANCEMENT ACT, P.L. 108-447, BY THE FOREST SERVICE AND THE DEPARTMENT 
                            OF THE INTERIOR

                               __________

                            OCTOBER 26, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-620                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Benzar, Kitty, Western Slope No-Fee Coalition, Norwood, CO.......    38
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
King, Aubrey C., King & Gorin, Representing Western States 
  Tourism Policy Council, Southeast Tourism Society, National 
  Alliance of Gateway Communities, and National Association of RV 
  Parks and Campgrounds, Bowie, MD...............................    45
Rey, Mark, Under Secretary for Natural Resources and Environment, 
  Department of Agriculture......................................     4
Salazar, Hon. Ken, U.S. Senator From Colorado....................     3
Scarlett, P. Lynn, Assistant Secretary for Policy, Management and 
  Budget, Department of the Interior.............................    10
Stalcup, Marvel C., Arizona No-Fee Coalition, Sedona, AZ.........    27
Thomas, Hon. Craig, U.S. Senator From Wyoming....................     2
Young, Lance, Director, One World Outing Club, Seattle, WA.......    30

                                APPENDIX

Responses to additional questions................................    57


                FEDERAL LANDS RECREATION ENHANCEMENT ACT

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2005

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommittee 
on Public Lands and Forests will come to order. You are welcome 
to look, for the first time since its enactment, at the 
implementation of the new Federal Lands Recreation Enhancement 
Act and the fees.
    I want to welcome Assistant Secretary of the Interior Lynn 
Scarlett--Lynn, thank you for being here--along with the Deputy 
Under Secretary of Agriculture, Mark Rey. Mark, thank you for 
being here. I also want to welcome our four public witnesses 
from Arizona, Colorado, the State of Washington, and 
Washington, D.C., to the hearing. I appreciate your willingness 
to travel here to testify on what many of us believe is a very 
important issue.
    In March 2003, at a joint Forest Service and Department of 
the Interior briefing on lessons learned from recreational fee 
demonstration program, the agency said: ``The Forest Service 
creatively tested a wide variety of the fees programs to best 
learn what worked and what did not work. We did not always get 
it right, but we have listened, learned, and adjusted. What did 
not work? Charging per-person access fees for undeveloped areas 
with no or few services.''
    When we last visited on the subject of recreational fees in 
April 2004, I said: ``I want all to know that I will not 
support a basic entrance fee to national forests, BLM 
districts, U.S. Fish and Wildlife refuges, or Bureau of 
Reclamation lands, whether or not it is called an entrance fee 
or by any other name.'' I closed by saying: ``I do want to work 
with you to see if we can find a way to develop a reasonable 
recreation fee program, but I hope you understand that we are 
not going to start managing national forests, BLM lands, or 
wildlife refuges like national parks.''
    Today I want the administration to tell me what steps you 
have taken to implement the law, and I want the public 
witnesses to tell me what they are seeing in the implementation 
of the law. When I see you charging for an entrance to a 
205,000-acre area like Mirror Lake Scenic Byway of Utah or 
396,000 acres of land in 31 high-intensity recreation areas in 
the southern California forest or the 400,000-acre Cedar Mesa 
area in the BLM Monticello office of Utah, I have to suspect 
that implementation of the standard amenity recreation fee may 
have gotten off on the wrong foot.
    I am concerned with agencies' interpretation of section 
803(h), special recreation permit fees. I see a list that said, 
and I quote, ``such as group activities, recreation events, 
motorized recreational vehicle use.'' But I hear the Forest 
Service thinks that this should include permits to enter 
wilderness areas and to use rivers. This causes me concern.
    When it comes to recreation resource advisory committees, I 
need to understand why the agencies feel compelled to attempt 
to find ways to implement this through sub-groups of existing 
resource advisory committees or for multiple State areas. I am 
troubled by this approach.
    Finally, I want the Bureau of Land Management to help us 
understand the legislative underpinnings of the BLM's drive to 
recover cost at its recreation fee sites and what the Forest 
Service position is on cost recovery at their sites.
    I want to remind everyone to keep their statements to 5 
minutes so that we can get to the questions. All of your 
testimonies will become a full part of the record.
    So before I turn to our first panel, let me ask Senator 
Thomas if he has any opening comments.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Thank you for 
having this hearing. I have been anxious too to talk about what 
we are doing here. As you all know, when we went into the fee 
demonstration thing, as chairman of the Parks Subcommittee, my 
position was to do it for parks and not for the other public 
lands. That is not the way it turned out. So I am still hopeful 
that what we can do is come up with reasonable criteria for the 
kinds of areas in which fees can be charged. I assume they 
ought to be where there are resources for the guests and these 
kinds of things.
    In any event, thank you for being here. I think it is a 
difficult issue. I think it is going to be important how we 
define and set the criteria for these funds.
    Thank you.
    [The prepared statement of Senator Thomas follows:]
   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming
    Mr. Chairman, I appreciate you holding this hearing. This is an 
important issue to me, and remains important to the people of my state 
and to everyone who utilizes our public lands.
    The Federal Lands Recreation Enhancement Act of 2004 made permanent 
the Recreation Fee Demonstration Program, which allowed the U.S. Forest 
Service, Bureau of Land Management, Fish and Wildlife Service, and 
National Park Service to collect and expend funds for visitor services, 
maintenance, and repair facilities, as well as cultural natural-
resource management. I supported making the authority permanent for the 
National Park Service, but opposed it for other the Federal land 
management agencies.
    Recreation fees are simply not appropriate for the vast majority of 
Bureau of Land Management and U.S. Forest Service lands. I continue to 
have concerns about the collection of fees on Bureau of Land Management 
and U.S. Forest Service land, and especially how these agencies are 
implementing their new authority. It appears that many of my earlier 
concerns with the recreation fee demonstration program were well 
founded.
    It is important that fees not be charged for everything in sight. 
There are limits to what we can fairly demand and what our constituents 
are willing to pay. It is important that we provide adequate funding 
for the management of our public lands. However, we must ensure that 
the public is allowed reasonable access to public lands, and that the 
public is not charged unreasonable fees to access public lands.
    With respect to recreation fees on federal lands, the following 
concerns must be taken into consideration: fees should be charged for 
legitimate, improved visitor services; market analysis should be done 
prior to implementation or increase of any fee; no fee or increase in 
fee should take place without advanced notice to the general public; 
accountability of fees collected and distributed along with advanced 
notice to the Congress of specific projects that will be in the 
pipeline; and expedite the obligation and expenditure of the funds.
    I look forward to the proceedings today and listening to the 
testimony of the witnesses. Thank you.

    Senator Craig. Craig, thank you.
    Joining us is Senator Salazar from the State of Colorado. 
Ken, do you have any opening comment?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Very briefly, Mr. Chairman. Thank you very 
much for holding this hearing. It is on a very important issue. 
I am always reminded that at the Roosevelt Arch at Yellowstone, 
the statement is made ``For the benefit and enjoyment of the 
people.'' When you think about ``For the benefit and enjoyment 
of the people,'' obviously also we have to look at the economic 
issue with respect to whether or not people can access these 
public lands that we are talking about today.
    So I very much look forward to the testimony, and I also 
look forward to having Lynn Scarlett confirmed in her new 
position at some point in the not too distant future. We are 
working with her on that.
    Finally, I want to say welcome to Kitty Benzar, who is with 
the Western Slope No-Fee Coalition from Durango, Colorado. 
Thank you for traveling all the way from Durango here.
    Senator Craig. We are going to allow you to introduce Kitty 
officially before the committee in our next panel. I see she is 
a Durangoite.
    Senator Salazar. A Durangoite.
    Senator Craig. Okay. That is really not a new disease or an 
infectious kind of virus. It is in fact--I may have coined it 
just now. Are there Durangoites?
    Senator Salazar. There are at least 10,000 Durangoites, and 
as far as I know they are all healthy.
    Senator Craig. That is good to know.
    Thank you again for being with us. Let us turn to our first 
panel, as I have already previously introduced them. Let me 
start with Mark Rey, the Deputy Under Secretary for Natural 
Resources and the Environment, Department of Agriculture. Mark, 
welcome back to the committee.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
           AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, and thank you for the opportunity to 
appear before you to discuss the implementation of the Federal 
Lands Recreation Enhancement Act on National Forest System 
lands. With the enactment of that statute, Congress has 
provided us with a valuable tool to enhance recreation 
opportunities. Fees collected under the statute are one part of 
a comprehensive recreation business model which identifies 
revenue and other resources based on congressionally-
appropriated funds, volunteer assistance, interagency 
cooperation, partnerships, and commercial operations.
    With the passage of the statute, fee authorities that we 
previously operated under other authorities, such as the 
recreation fee demonstration program and the provisions of the 
Land and Water Conservation Fund, were repealed. The passage of 
the statute prompted a major reexamination and retooling of our 
existing recreation fee program to bring facilities and 
programs into compliance with the new act, and today I would 
like to bring you up to date on our efforts.
    Five days after the passage of the statute, the Deputy 
Chief of the Forest Service directed all fee increases and 
designation of new fee areas to be frozen pending the 
development of further policy. Following the letter, teams of 
Forest Service managers from across the country met to develop 
policy, draft implementation guidelines and an implementation 
schedule to guide field units in applying the provisions of the 
new act on the ground.
    At the Department level, 9 days after the act was signed 
into law the Inter-Agency Executive Fee Council, comprised of 
officials of both Departments, convened and approved a draft 
implementation work plan that outlined the organizational 
issues and the medium-term and long-term actions needed.
    On April 25, 2005, field units were sent the interim 
implementation guidelines and directed to review all their 
recreation sites and services to determine if they met the 
criteria for charging fees described under the act. Units were 
given until June 3 to provide the Forest Service Washington 
office a list of all the sites and areas that comply with the 
new criteria.
    This effort was a large undertaking within the Forest 
Service. Over 17,000 individual sites were evaluated in 
developing the first nationwide data base, which describes the 
amenities and attributes of those sites to help ensure that 
they meet the intent of the law. Of the 4,505 sites on National 
Forest System lands that were previously charging fees under 
the land and water conservation and fee demo authority, 
approximately 435 recreation sites, such as trailheads and 
picnic areas, were removed from the program because they did 
not meet the new criteria described under the act. For example, 
19 trailheads on the Sawtooth National Recreation Area and 21 
sites on the Olympic National Forest were removed from the 
recreation fee program.
    Our direction to the field units specifically prohibited 
them from assessing fees solely for general access to national 
forests and grasslands in BLM areas, horseback riding, walking, 
riding, driving, or boating through areas where no recreation 
facilities or services are used, access to overlooks or scenic 
pullouts on designated parking areas where no recreational 
facilities are provided, and picnicking along roads and trails. 
In other words, those areas no longer charged fees.
    The act specifically prohibits the Forest Service and the 
Bureau of Land Management and the Bureau of Reclamation from 
assessing entrance fees for Federal recreation lands and 
waters. The act authorizes agencies to charge a standard 
amenity fee for areas that provide a specific level of 
recreation development or services. The Forest Service and 
Department of the Interior agencies have identified areas that 
have a concentration of recreation sites that collectively meet 
the definition of a standard amenity fee as high-impact 
recreation areas.
    High-impact recreation areas are areas that receive a high 
amount of recreation use and which require additional 
expenditures to manage the use in facilities contained within 
the area. These expenditures range from facility maintenance to 
costs that are often invisible to visitors, such as graffiti 
and litter removal. High-impact recreation areas are 
specifically delineated areas that usually contain a multitude 
of recreation sites and services that have a common thread 
connecting them, such as a road or a corridor. To avoid 
multiple fees and to provide more efficient fee collection, the 
fee is charged for the recreation use of the entire area rather 
than the individual amenities or activities.
    In evaluating or identifying the high-impact recreation 
areas, we carefully evaluated each recreation area to determine 
locations where significant public use is occurring and where 
significant investment is needed to manage recreation impacts.
    We have put forward for the committee's review some 
pictures of typical high-impact recreation areas.
    Public participation, notification, and communication are 
also vital to successfully implementing the statute. Over the 
last 6 months, the Forest Service and the Department of the 
Interior have conducted 11 listening sessions across the Nation 
to gather public input on the formation and configuration of 
recreation RACs, which are designed to provide recommendations 
for the public and interest groups on the recreation fee 
program.
    We plan to use--to make efficient use of existing 
committees where it makes sense, by establishing joint 
recreation resource advisory committees, using existing 
resource advisory committees. We will build on successful 
models already in use, such as the BLM Boise District RAC. This 
RAC makes recommendations on the Payette River recreation fee 
area, which is jointly managed by the BLM and the Forest 
Service. In the Boise RAC case, an inter-agency agreement was 
developed between the Forest Service and the BLM to establish 
the general objectives and respective responsibilities of each 
agency and to clarify their relationship in working with the 
RAC. We have attached a copy of the inter-agency agreement and 
charter documents to our testimony*, and that is how we would 
propose to proceed using the existing recreation resource 
advisory committees by and large developed by BLM.
---------------------------------------------------------------------------
    * The attachments have been retained in the subcommittee files.
---------------------------------------------------------------------------
    The act also authorizes the Secretary to issue a special 
recreation permit and charge a fee in connection with the 
issuance of a permit for specialized recreation uses of Federal 
lands. This authority is used to issue special recreation 
permits to individuals for such activities as whitewater raft 
trips, off-highway vehicle use, and in a limited number of 
cases wilderness use.
    We currently require a wilderness permit and a permit fee 
for eight out of our 406 congressionally-designated wilderness 
areas. These eight areas had a permit prior to the enactment of 
the fee legislation that was authorized under the Land and 
Water Conservation Fund. Each of these areas has special 
circumstances, such as an allocated visitor use system, 
reserved and designated campsites, and in a few areas an aerial 
sewage removal program, that entail costs beyond those incurred 
in our normal wilderness management program.
    We are developing criteria to guide our field managers in 
determining when and where such a fee is appropriate, but we do 
not anticipate a large number of such additional fee areas.
    That covers some of the areas of concern that you 
mentioned, as well as our general program for implementing the 
statute to date. With that, I would be happy to respond to 
questions when appropriate.
    [The prepared statement of Mr. Rey follows:]

 Prepared Statement of Mark Rey, Under Secretary for Natural Resources 
               and Environment, Department of Agriculture
    Mr. Chairman and members of the subcommittee:

                              INTRODUCTION

    Thank you for the opportunity to appear before you to discuss the 
implementation of the Federal Lands Recreation Enhancement Act (REA) on 
National Forest System Lands. The Department appreciates the 
subcommittee's interest in how the Departments of Agriculture and the 
Interior are implementing this important program to enhance recreation 
opportunities and experiences for visitors to their public lands.
    Visitors to the National Forests seek a broad and diverse range of 
recreation experiences ranging from highly developed resorts to remote 
wilderness settings. Annually we receive over 205 million recreation 
visits to the National Forests. The National Forests' share of outdoor 
recreation's economic contribution to the nation's total economy is 
over $11.2 billion. Recreation is a major component of the overall 
contribution of all Forest Service programs to national GDP.
    Congress has provided us with a valuable tool to enhance recreation 
opportunities in the form of the REA. Fees collected under REA are one 
part of a comprehensive recreation business model which identifies 
revenue and other resources based on congressionally appropriated 
funds, volunteer assistance, interagency cooperation, partnerships, 
commercial operations and funds leveraged from other sources.
    The vast majority of National Forest System lands, and many 
recreation activities and sites on those lands, continue to be 
available without a fee. Over 60 percent of our developed recreation 
sites do not have a charge. Of the 5,654 developed trailheads on 
National Forest System lands, 85% of them do not have a fee. We 
understand that National Forests are the backyard to many of our 
communities, and access to the back country that is not associated with 
developed facilities or services is and will remain free and available 
for the public to use and enjoy.
    While the idea of charging fees for recreational use on the 
National Forests has been controversial in some cases, taxpayers 
benefit when the cost of public services is at least partially borne by 
the direct users of these services. We are implementing the provisions 
of REA in a careful manner and in coordination with those who enjoy 
recreational activities to achieve the greatest degree of public 
satisfaction possible.

                  RECREATION ENHANCEMENT ACT OVERVIEW

    The Federal Lands Recreation Enhancement Act (REA), a part of the 
2005 Consolidated Appropriations Act (P.L. 108-447), permits Federal 
land management agencies to continue to reinvest in recreation 
facilities and services by charging modest fees at campgrounds, rental 
cabins, recreation sites, and high-impact recreation areas.
    The new Act provides for a nationally consistent interagency 
program, additional on-the-ground funding to enhance visitor services 
and reduce facility maintenance backlog at recreation sites across the 
nation, a new national pass for use across interagency Federal 
recreation sites and services, and more public involvement in the 
program. I will defer to the Department of the Interior to describe our 
plans for the new America the Beautiful Pass.
    Public concerns over where recreation fees can or should be charged 
on Federal land are addressed in the new authority, which limits fees 
to recreation sites that have a certain level of development and that 
meet specific criteria. Additional safeguards include provisions that 
require the use of Recreation Resource Advisory Committees to provide 
recommendations for fee areas and fee amounts and to offer another 
opportunity for the public to participate in the recreation fee 
program.
    The Act also provides agencies with recreation fee authority for 10 
years, which will allow the agencies to improve the efficiency of the 
program, provide better facilities and services to visitors, employ 
greater use of technology, and enter into more fee management 
agreements with counties and other entities to provide additional 
services to visitors.

              IMPLEMENTATION OF RECREATION ENHANCEMENT ACT

    With the passage of REA, fee authorities that we previously 
operated under, such as Recreational Fee Demonstration Program statute 
(Fee Demo) and provisions of the Land and Water Conservation Fund Act 
(LWCFA), were repealed. The passage of the REA prompted a major 
reexamination and retooling of our existing recreation fee program to 
bring facilities and programs into compliance with the new Act, and 
today I would like to bring you up to date on those efforts.
    Five days after passage of the REA, the Deputy Chief of the Forest 
Service directed all fee increases and designation of new fee areas to 
be frozen pending policy development. Following the letter, teams of 
Forest Service managers from across the country met to develop policy, 
draft implementation guidelines and an implementation schedule to guide 
field units in applying the provisions of the new REA on the ground.
    At the Departmental level, nine days after the Act was signed into 
law, the Interagency Executive Fee Council, comprised of officials from 
both Departments, convened and approved a draft implementation work 
plan that outlined the organizational issues and immediate, medium-
term, and long-term actions needed.
    On April 25, 2005, field units were sent the interim implementation 
guidelines and directed to review all their recreation sites and 
services to determine if they meet the criteria for charging fees 
described under REA. Units were given until June 3, 2005, to provide to 
the Forest Service Washington Office a list of all the sites and areas 
that comply with the new criteria. This effort was a massive 
undertaking within the Forest Service: over 17,000 individual sites 
were evaluated in developing the first nationwide database, which 
describes the amenities and attributes of those sites to help us insure 
that they meet the intent of the law.
    Of the 4,505 sites on National Forest System lands that were 
previously charging fees under the LWCFA and Fee Demo authority, 
approximately 435 recreation sites (such as trailheads and picnic 
areas) were removed from the program because they did not meet the new 
criteria described under REA. For example, 19 trailheads on the 
Sawtooth National Recreation Area in Idaho and 21 sites on the Olympic 
National Forest were removed from the recreation fee program.
    Our direction to the field units specifically prohibits them from 
assessing fees solely for:

  <bullet> General access to national forests and grasslands and Bureau 
        of Land Management areas;
  <bullet> Horseback riding, walking, driving, or boating through areas 
        where no recreational facilities or services are used;
  <bullet> Access to overlooks or scenic pullouts;
  <bullet> Undesignated parking areas where no recreational facilities 
        are provided; and
  <bullet> Picnicking along roads or trails.

    Our direction to the field units prohibits them from charging an 
entrance or standard amenity fee to individuals under 16 years of age.
    We are developing final Rule for Changes to 36 CFR 251, 261, and 
291 to reflect new REA authority. We are also writing an Interim 
Directive to the Forest Service Manual which will provide a template 
for the field to use when publishing notice of new recreation fee areas 
in the Federal Register 6 months in advance of fees being charged as 
required by REA.

                      HIGH IMPACT RECREATION AREAS

    REA specifically prohibits the Forest Service, the Bureau of Land 
Management and the Bureau of Reclamation from assessing entrance fees 
for Federal recreational lands and waters. REA authorizes the agencies 
to charge a standard amenity fee for areas that provide a specific 
level of recreational development or services. We used the standard 
amenity recreation fee provisions in REA to provide direction in our 
implementation guidelines for designation of standard amenity 
recreation fees. The term standard amenity fee applies to both 
individual day-use facilities and areas that provide significant 
opportunities for outdoor recreation and that have substantial Federal 
investments. The Forest Service and the Department of the Interior 
agencies have identified areas that have a concentration of recreation 
sites that collectively meet the definition of a Standard Amenity Fee 
as ``high impact recreation areas''.
    High impact recreation areas are areas that receive a high amount 
of recreation use and which require additional expenditures to manage 
the use and facilities contained within the area. These expenditures 
range from facility maintenance to costs that often is invisible to 
visitors such as graffiti and litter removal and hiring additional 
personnel to provide security and information to visitors. High impact 
recreation areas are specifically delineated areas that usually contain 
a multitude of recreation sites and services that have a common thread 
connecting them, such as a road corridor. A visitor will find within a 
high impact recreation area, all the required amenities within 
reasonable access in accordance with REA. To avoid multiple fees and to 
provide for more efficient fee collection, the fee charged is for the 
recreation use of the entire area, rather than for individual amenities 
or activities.
    In identifying the high impact recreation areas, we carefully 
evaluated each recreation area to determine locations where significant 
public use is occurring and where significant investment is needed to 
manage recreation impacts. Each location is further evaluated to ensure 
that it offers the six amenities required by REA and that it has 
clearly defined boundaries and access points. Signing is critical to 
inform visitors where fees are required and where pass through travel 
or stopping at overlooks is allowed without a fee.
    Implementing new recreation fee direction for over 17,000 sites is 
still a work in progress. While we gave our field managers until 
September 30, 2005, to implement the program, we continue to work on 
providing consistent signing for the public to enhance understanding of 
the fee program and on identifying areas that may not meet the criteria 
for charging fees. We will adjust size configuration and season of use 
of these areas, as needed, while we work with our local communities in 
addressing their concerns.
    Differing local conditions and characteristics make it difficult to 
develop criteria for high impact recreation areas that fit all 
circumstances. We are planning on having our Recreation Resource 
Advisory Committees comment on the application of the criteria to each 
high impact recreation area we have identified. Building community and 
visitor support for these areas is an important component in developing 
the fee program for High Impact Recreation Areas.

                RECREATION RESOURCE ADVISORY COMMITTEES

    Public participation, notification, and communication are vital to 
successfully implementing REA. Over the last six months, the Forest 
Service and the Department of the Interior have conducted 11 listening 
sessions across the nation to gather public input on the formation and 
configuration of Recreation RACs which are designed to provide 
recommendations from the public and interest groups on the recreation 
fee program. Based on what the public told us at these sessions, we 
developed a basic framework for establishing recreation fee advisory 
committees as required under REA. The Interagency Executive Fee Council 
approved this proposal on September 22, 2005.
    Our proposal focuses on creating opportunities for the public to 
become involved through Recreation RACs at several different levels. 
The BLM has successfully utilized RACs established under the Federal 
Land Policy and Management Act, to guide the agency achieving a broad 
range of resource objectives. Interagency coordination is extremely 
important to provide seamless service to the public across lands 
managed by multiple agencies.
    We plan to enhance this coordination and make efficient use of 
existing committees where it makes sense by establishing joint 
Recreation RACs, using BLM RACs. BLM RACs are established in most 
western States. We intend to expand the purview of these committees to 
incorporate the recreation fee review duties for both the BLM and the 
Forest Service, as enumerated in REA. To allow for local 
representation, we will work with the committees to establish 
recreation-focused subgroups where necessary.
    We will build on successful models already in use such as the BLM 
Boise District RAC. This RAC makes recommendations on the Payette River 
recreation fee area which is jointly managed by the BLM and the Forest 
Service. In the Boise RAC case, an interagency agreement was developed 
between the Forest Service and the BLM to establish the general 
objectives and respective responsibilities of each agency and to 
clarify their relationship in working with the RAC. The RAC developed a 
charter to establish an advisory subgroup to identify issues and needs 
along the Payette River and to work with the agencies involved to 
review and provide recommendations on fee issues. We have attached a 
copy of the interagency agreement and charter documents to our 
testimony.
    In areas or states where the BLM does not have RACs, such as in the 
Eastern United States, or in the State of Wyoming, we will work with 
state and local officials and interested publics to determine the need 
and appropriate scope for interagency Recreation RACs, as needed, in 
accordance with REA.
    Going beyond the requirements of REA, we have agreed that the 
existing RACs and new Recreation RACs should be encouraged to provide 
recommendations on aspects of the BLM's and Forest Service's recreation 
fee programs related to establishing new fee areas, abolishing fees, 
major adjustments in fee levels or rates, and expenditure of revenues. 
RACs could, for example, provide input on the method used to set fee 
levels and significant changes to fee levels. While the Interagency 
Executive Fee Council supports this general framework, several details 
still need to be resolved before publishing the BLM's and Forest 
Service's notice of intent to form Recreation RACs in the Federal 
Register. A Forest Service and BLM team is working to address these 
issues.

                     ADDITIONAL PUBLIC INVOLVEMENT

    While Recreation RAC's will be used as a formal barometer of public 
opinion on establishing new recreation fee areas, we intend to use a 
variety of other public involvement processes in determining where 
recreation fees should be implemented. On September 28, 2005, the 
Departments issued a Federal Register notice, which established 
guidelines on public participation and public notice as required in the 
REA. The goals of the public involvement guidelines are to provide the 
public with opportunities to be actively engaged in establishment of 
any new recreation fee areas and to provide for effective ways to 
demonstrate annually how the public has been informed of how recreation 
fee revenues are spent. In addition, each local unit manager will 
continue to work with their local communities on issues and concerns 
related to the fee program.

                       SPECIAL RECREATION PERMITS

    REA authorizes the Secretary to issue a special recreation permit 
and charge a fee in connection with the issuance of a permit for 
specialized recreation uses of Federal lands, such as group activities, 
recreation events, and motor vehicle use. The Forest Service issues 
special use permits under this authority for short-term commercial 
recreation uses, such as outfitting and guiding, and recreation events. 
The permit fee revenue collected and expended on the ground will be of 
great benefit to recreation visitors as well as to the permit holder. 
Facilities used by commercial outfitters such as trails and trailheads 
will be better maintained which will improve the ability of permit 
holders to provide high quality recreation services to the public.
    This authority is also used to issue special recreation permits to 
individuals for activities such as, white water river trips, off-
highway vehicle (OHV) use and, in a limited number of cases, wilderness 
use. These permits are issued when we provide additional services 
beyond normal operation and maintenance, including constructing and 
maintaining specialized trails for OHVs and providing wilderness 
experiences in areas that receive high use.
    We currently require a wilderness permit and permit fee for 8 of 
our 406 Congressionally designated wilderness areas that are within the 
National Forest System. These 8 areas had a permit prior to the 
enactment of REA that was authorized under the LWCFA. They include 
areas such as the Boundary Waters Canoe Area Wilderness on the Superior 
National Forest in Minnesota and the Desolation Wilderness Area on the 
Eldorado National Forest in California. Each of these areas has special 
circumstances such as an allocated visitor use system, reserved and 
designated campsites, and, in a few areas, an aerial sewage removal 
program that entail costs beyond those incurred in our normal 
wilderness management program.
    We are developing criteria to guide to our field managers in 
determining when such a fee is appropriate. We do not anticipate a 
large number of additional fee areas. We have no intention to use the 
fee authority as a tool to reduce recreation visitor use. Any decision 
to implement a permit system to allocate use in wilderness areas to 
meet management objectives will be made through our land use management 
planning process and associated recreation capacity analysis.

                          REVENUE/EXPENDITURES

    In Fiscal Year 2004 approximately $47 million was collected from 
recreation sites on National Forest System lands under the previous 
recreation fee authorities. Of this total, approximately $40 million 
(85%) was reinvested directly back into the recreation program for such 
things as visitor services, resource protection, deferred and ongoing 
maintenance, and capital improvement of recreational facilities. A 
little less than 15% of that revenue was used for costs associated with 
the collection of fees. These data show that we are making tangible and 
effective use of our fee receipts for recreation improvements and 
services on Federal lands.
    As a result of implementing REA, we anticipate a slight reduction 
in total revenue. Increased revenue from the authority to retain 
recreation special use permit fees for activities such as outfitting 
and guiding will more than likely be offset by the reduced revenue from 
developed and dispersed recreation sites due to the reduction in the 
number of sites and areas that meet the requirements of REA. Based on 
FY 2004 expenditures, recreation use fees represent approximately 25% 
of our total recreation operation budget. Recreation use fees are an 
important component of our total program and enable us to maintain many 
sites at a standard that would otherwise not be possible. Development 
or large expansion of recreational facilities is not the focus of our 
recreation fee program. Annually only about 5% of the total revenue 
goes towards capital improvement projects. Recreation use fees 
collected on National Forest recreation sites and areas are primarily 
used to keep the site open, safe and clean.

                               CONCLUSION

    REA is less than a year old. The Forest Service manages 
approximately 193 million acres, including 122,000 campsites, 11,000 
picnic sites, and 133,000 miles of trails, as well as many cabin 
rentals, boat launches and other facilities. Time will be needed to 
fully implement REA in a consistent manner that allows our visitors and 
partners to be fully involved in the process, Recreation RACs to be 
established, and signing and publications to be updated.
    We are committed to implementing REA in a way that continues to 
reflect broad support of the public and Congress for enhancement of 
recreation on public lands, and we will work with the public and 
Congress to address concerns that may arise. We appreciate your support 
in allowing us this time to apply and adjust our plans where necessary 
to implement REA.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer nay questions that you may have for me at this time.

    Senator Craig. Mark, thank you very much.
    Now let us turn to Assistant Secretary Lynn Scarlett, 
Policy, Management and Budget, Department of the Interior. 
Lynn, again, welcome.

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman, and thank you, 
members of the committee, for this opportunity to discuss our 
implementation of the Federal Lands Recreation Enhancement Act.
    As we are all aware, recreation fees are not a new concept. 
Indeed, all the participating agencies except the Bureau of 
Reclamation have had broad recreation fee authority for some 40 
years. The difference is that the new act allows fees to be 
reinvested at the collecting site and, second, the new act 
differs from the fee demo program in that it provides a 
narrower and more prescribed authority to ensure that we are 
expending the funds on appropriate purposes and that we are 
applying fees only in appropriate places.
    We are well aware of ongoing concerns about how Federal 
agencies implement recreation fees. These concerns center on 
ensuring that fees are charged only in areas that have 
infrastructure, services, and other amenities that directly 
serve the recreating public, ensuring that fee revenues are 
spent only on recreation infrastructure and services and 
maintaining high public involvement in decisionmaking.
    To address these concerns, we have, I believe, vigorously 
followed the provisions of the new act. Before I turn directly 
to those efforts, let me offer a summary of the current 
program. Public lands managed by the Department of the Interior 
hosted some 370 million recreation visits in 2005. Revenues for 
the Interior agencies from the recreation program reached over 
$166 million. The cost of collection for the agencies over the 
2000 to 2004 period has remained relatively constant at about 
20 percent of gross fee revenue, though there are some 
variations among our different bureaus.
    In 2004, the Departments of the Interior and Agriculture 
obligated a total of $202 million for a variety of projects 
that enhance facilities and services for visitors. Just one 
example: In 2005 in New Mexico, BLM used recreation fees to 
complete a new restroom and shower complex and expand the 
visitor information center at the Valley of Fires Recreation 
Area. These are improvements that visitors themselves actually 
requested.
    The Recreation Fee Leadership Council, whose members 
include officials of both Departments, has provided overall 
guidance on implementation of the program. Our first task, as 
Mark noted, was to inventory our fee sites to ensure that we 
maintain sites only at those that met the criteria of the act.
    Under the fee demo program, the Bureau of Land Management 
maintains the vast majority of BLM recreation areas, over 95 
percent, as fee-free to the visiting public. For this reason, 
most of BLM's fee demo sites already met the new criteria. 
Nonetheless, BLM has made some changes to comply with the act. 
For example, we did eliminate, upon looking at the inventory, 
fees for overlooks at Imperial Sand Dunes in California. We 
eliminated fees at undeveloped sites at Orilla Verde Recreation 
Area in New Mexico. We eliminated several youth fees, which are 
no longer applicable under the act, and several other changes.
    Let me focus for a moment on special recreation permits and 
that program, about which some questions have surfaced. The 
Recreation Enhancement Act does authorize agencies to issue 
special recreation permits and charge associated fees. Using a 
land use planning process, BLM determines whether a permit 
system is necessary to help us minimize user conflicts and 
resource impacts, particularly for example on canyon trails, 
narrow canyon trails, or in narrow river corridors, where 
unlimited use could create safety and other problems.
    Of the individual permits issued to date, most were issued 
in 22 recreation areas. At some of these sites, BLM uses these 
permits to provide timed entry into popular whitewater rafting 
areas and again, as I mentioned, for narrow canyon trails. The 
fees associated with these permits provide visitors with 
emergency response services, safety compliance and education, 
litter cleanup, basic road, parking, trail, and facility 
maintenance, interpretive brochures, other information and trip 
planning services.
    Given the long history BLM has had in issuing these 
permits, we do not expect changes in the program under the new 
act.
    The visiting public is key to our implementation of both of 
those permits and the program in general. As Mark said, to 
implement the RAC provisions of the act the Forest Service and 
BLM have held 11 listening sessions in locations across the 
country. Based on these sessions, the fee council that I 
mentioned has approved a basic framework to implement the 
provisions of the act.
    Under the basic framework, BLM and the Forest Service will 
use existing resource advisory councils where possible. For 
areas that do not have existing resource advisory councils, 
such as the State of Wyoming and the Eastern United States, new 
recreation RACs would be established. We would also create 
focused sub-groups where necessary.
    While we have established the basic framework to implement 
this provision of the Recreation Enhancement Act, we have many 
additional implementation steps that we are undertaking and 
will address over the next several months. We look forward to 
your continued input as we do so.
    The new act also provides general authority to establish 
fee management agreements with governmental or nongovernmental 
entities. We see tremendous potential to develop mutually 
beneficial partnerships through the program. One example of 
such a partnership is at the Deschute River between BLM and the 
State of Oregon. BLM and the State have worked cooperatively to 
build the Deschute River Reservation website, which will now be 
operated by the State.
    The act also does establish a new multi-agency pass to 
cover entrance fees for the Park Service and Fish and Wildlife 
Service and standard amenities for BLM, Forest Service, and 
BOR. The target rollout for the new pass is scheduled for 
January 2007. We have held four listening sessions to get input 
on the pass. To determine a price that is reasonable and fair, 
the agencies have entered into a cooperative agreement with the 
University of Wyoming to conduct pricing analysis.
    In closing, we believe the new Recreation Enhancement Act 
offers an important opportunity to create sensible, visitor-
friendly, efficient recreation fee programs. Mr. Chairman and 
members of the committee, I would be pleased to answer any 
questions you might have. Thank you.
    [The prepared statement of Ms. Scarlett follows:]

Prepared Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
           Management and Budget, Department of the Interior

    Mr. Chairman, thank you for the opportunity to discuss the 
Department of the Interior's implementation of the Federal Lands 
Recreation Enhancement Act (Public Law 108-447) (REA). Implementation 
of a well-run and streamlined recreation fee program that maximizes 
benefits to the visiting public is a top priority for the Department of 
the Interior, the U.S. Department of Agriculture, and the participating 
agencies--the National Park Service (NPS), the Bureau of Land 
Management (BLM), the U.S. Fish and Wildlife Service (FWS), the Bureau 
of Reclamation (BOR), and the Forest Service. Throughout the 
implementation process, the participating agencies are working 
cooperatively to ensure outstanding recreation opportunities for public 
lands visitors and are engaging the public to ensure the establishment 
of a transparent and effective recreation fee program. Today, we will 
discuss implementation issues that impact all the participating 
agencies, with a greater focus on BLM due to the Subcommittee's 
interest and jurisdiction.
    Our federal lands provide Americans and visitors from around the 
world special places for recreation, education, reflection, and solace. 
Public lands managed by the Department of the Interior hosted over 370 
million recreation visits in 2005. Ensuring that the federal lands 
continue to play this important role in American life and culture 
requires that we maintain visitor facilities and services and enhance 
visitor opportunities. Such efforts require a source of funding with 
which we can quickly respond to increases in visitor demand. Recreation 
fee revenues are a critical source of such supplemental funding that 
significantly enhance our efforts to address the deferred maintenance 
backlog at our National Parks and better manage other federal lands.
    In FY 2004, total Recreation Fee Demonstration (Fee Demo) revenue 
was $192 million, compared to total revenue of $177 million in FY 2003. 
In 2005, revenues for the Interior agencies reached over $166 million 
(including NPS Passport sales revenue). The cost of collection for the 
agencies over the FY 2000 FY 2004 period has remained relatively 
constant at about 20 percent of gross fee revenue. In FY 2004, the 
Departments obligated a total of $202.2 million for a variety of 
projects to address maintenance needs, visitor services, and resource 
protection and preservation.
    In FY 2004 and FY 2005, recreation fee revenues were used to 
enhance facilities and services for visitors to BLM, NPS, and FWS 
lands. For example, in FY 2005, in New Mexico, BLM used recreation fees 
to improve visitor services by completing a new rest-room and shower 
complex and expanding the Visitor Information Center at the Valley of 
Fires Recreation Area. These were improvements that visitors requested 
most frequently from feedback cards. In Washington, on the Yakima River 
and Canyon, BLM used recreation fee revenues to remove tree hazards at 
the campground and install Visitor Information Kiosks. In FY 2004, BLM 
used recreation fee revenues in Colorado to construct accessible 
restrooms, rehabilitate an access road, and install soil erosion 
prevention measures along the Upper Colorado River.
    NPS also funded many high-priority projects in FY 2005, obligating 
$141.03 million in recreation fee revenues (including National Park 
Pass revenues). At Rocky Mountain National Park in Colorado, NPS 
continued work on the $425,000 project to rehabilitate Glacier Basin 
Campground, including the reconstruction of tent pads, replacement of 
fire rings, replacement of picnic tables, improvements to parking 
areas, erosion control work, and improvements to access trails. NPS 
allocated $209,000 in recreation fees to rehabilitate approximately 45 
miles of Southeast Utah Group Trails at Arches National Park.
    In FY 2004, at Mid-Columbia River National Wildlife Refuge Complex, 
FWS partnered with members of a local hunting and fishing club to build 
a waterfowl hunting blind with materials purchased with recreation fee 
funds. In FY 2005, at Chincoteague National Wildlife Refuge in 
Virginia, FWS used approximately $250,000 of recreation fee revenues 
for new interpretive signs along trails, and $72,000 to replace old fee 
collection booths--a backlog maintenance project.
    While fee revenues are exceedingly important to the agencies' 
ability to provide quality visitor services and facilities, we 
recognize that choices on fee levels and at what sites and locations 
fees are appropriate also are elements of our relationship with the 
visiting public. For this reason, we invite the public and members of 
Congress to engage in a continual dialogue as we move forward on 
overall policy guidance and as we implement REA on the ground. We view 
the recreation fee program as dynamic and open to new ideas, changes, 
and suggestions. In this light, we have held periodic briefings for 
Congressional staff on key implementation issues and incorporated the 
ideas provided into our process, including suggestions to hold 
additional listening sessions and conduct marketing surveys on pricing. 
We are fully committed to meeting congressional expectations in 
managing the fee program to ensure that fees are applied only in 
appropriate locations, revenues are used for purposes intended by the 
Congress, and that decisions are open and transparent.

          HISTORY OF RECREATION FEES AND IMPLEMENTATION OF REA

    Recreation fees are not a new concept established under REA. All of 
the participating agencies have had broad recreation fee authority for 
forty years under the Land and Water Conservation Fund (LWCF) Act of 
1965 as well as under the Fee Demo program launched in 1996, with the 
exception of BOR which was not an authorized participant of the Fee 
Demo program. REA differs from LWCF in that it allows fees to be 
reinvested at the collecting site to benefit the visitor through 
enhanced facilities and services. REA differs from the Fee Demo program 
in that it provides narrower and more prescribed authority, limiting 
fees to locations with specific kinds of infrastructure and services. 
For example, under REA, BLM, Forest Service, and BOR may only charge 
fees at sites and for activities that meet certain specified criteria. 
For these agencies, certain fees may not be charged for general access, 
dispersed areas with low or no investment, undesignated parking, or 
picnicking along roadsides or trails. REA also requires that the 
Departments create a Recreation Resource Advisory Committee (Recreation 
RACs) in every State or region or use similar existing entities so that 
the public, including local communities, can provide input into fees 
established by BLM and Forest Service.
    The Recreation Fee Leadership Council (Fee Council), whose members 
include key officials of both Departments, and on which I serve as co-
chair along with Mark Rey, USDA's Under Secretary for Natural Resources 
and Environment, has provided overall guidance on the implementation of 
the fee program, convening on a quarterly basis since REA was enacted. 
An interagency Steering Committee and several technical working groups, 
made up of agency experts, are leading day-to-day implementation 
efforts. We will provide implementation updates for the key technical 
working groups: the Fee Collection and Fee Expenditure Working Group, 
the Recreation RACs/Public Participation Working Group, and the Pass 
Working Group.

                    FEE COLLECTIONS AND EXPENDITURES

    The Fee Collection and Fee Expenditure Committee (Collection and 
Expenditure Committee) began meeting in January 2005 and focused on 
organizational concerns, short-term and long-term implementation 
issues, and coordination among the various agencies as they relate to 
fee collections and expenditures. All participating agencies took 
immediate steps to assess which existing recreation fee sites 
established under the Fee Demo program complied with REA and which 
would drop out. The exception is BOR, which was not authorized to 
participate in the Fee Demo program and, thus, is focusing its efforts 
to determine at which sites recreation fees under REA may be 
appropriate.
    While Congress had encouraged agencies to experiment with 
recreation fees under the Fee Demo program, BLM took a more 
conservative implementation approach, establishing a total of 
approximately 390 recreation fee sites and leaving a vast majority of 
BLM-managed recreation areas, over 85 percent, fee-free to the visiting 
public. For this reason, most of BLM's existing Fee Demo sites meet the 
new criteria. The sites where BLM made changes to comply with REA 
include: the elimination of fees for overlooks at the Imperial Sand 
Dunes in California; the elimination of fees at undeveloped sites at 
Orilla Verde Recreation Area in New Mexico; an increase of the number 
of sites that accept national passes from 12 to 28; the elimination of 
the youth fee at Piedras Blancas visitor center in California; and the 
elimination of the youth fee at Cape Blanco Lighthouse in Oregon. 
During the review of all its recreation sites, BLM also is taking the 
opportunity to align like fees into like categories. This may result in 
an increase in the total number of fees in certain categories, but 
these changes do not represent new fees and are not a result of REA. 
BLM does not expect substantial change in the overall amount of fee-
free recreation opportunities provided to our visitors.
    At the Exit Glacier site in Kenai Fjords National Park, NPS 
eliminated a day-use fee because it might be perceived to be an 
entrance fee, prohibited under the Alaska National Interest Lands 
Conservation Act, and thus, under REA. FWS eliminated entrance fees at 
Gavin's Point National Fish Hatchery. The Forest Service, which used a 
much more experimental approach under the Fee Demo program than BLM, 
had large-scale changes as a result of REA, removing fees from 
approximately 435 sites.
    The Collection and Expenditure Committee worked on reaching 
consensus with all agencies to establish a policy concerning 
appropriate fee collections and expenditures. The Collection and 
Expenditure Committee also is developing an Inter-Department Handbook 
to provide for consistency in implementation of REA. Among other 
things, the Inter-Department Handbook defines terms of the Act relating 
to collections and expenditures of revenues and clarifies the 
definitions of ``Standard'' and ``Expanded'' amenity recreation fees. 
We view the Handbook as a dynamic document that will require 
adjustments and clarification as new issues and questions arise. In 
addition to general policies, each agency also has developed more 
specific field guidance, where necessary. For example, BLM issued 
guidance on January 26, 2005 to set forth interim procedures to 
implement REA, and another guidance on June 14, 2005 to provide 
direction on new fee areas, new fees, and special recreation permits.
    We would like provide some additional information to address recent 
inquiries concerning our Special Recreation Permits (SRPs) program. REA 
authorizes the agencies to issue SRPs and charge associated fees. 
However, this authority is not new. The language is very similar to the 
authority provided under LWCF (1965) and under the Federal Land Policy 
Management Act (FLPMA) (1976). To determine how BLM will implement this 
provision, we look to BLM's 35-year history of assessing, through a 
public process, the appropriateness of SRPs for a particular activity 
or at a particular site.
    The authority for SRPs is not used merely in cases where the agency 
would like to charge a fee. It is used in situations where the agency 
has determined through a land use planning process that a permit system 
is necessary to ensure a quality recreation experience for all 
visitors. Historically, BLM has issued SRPs for commercial, vendor, 
competitive, and organized group events and activities, and for 
individual use of Special Areas (private or non-commercial use). SRPs 
are issued in an effort to satisfy recreational demand within allowable 
use levels in an equitable, safe and enjoyable manner, while minimizing 
adverse user conflicts and resource impacts.
    In FY 2004, BLM issued nearly 4,000 commercial, competitive and 
organized group permits and 105,700 non-commercial individual SRPs. Of 
the individual SRPs, approximately 105,200 SRPs were issued in 21 
recreation areas, located in 5 States (AZ, CA, NV, UT, NM), and 
approximately 500 SRPs were issued, without associated fees, for the 
lower Salmon River in Idaho. Of the 22 areas, ten areas are river 
segments, four are canyon trails, and eight are off highway vehicle 
(OHV) areas. At some of these sites, BLM uses SRPs to provide timed 
entry into popular whitewater rafting areas and for narrow canyon 
trails; this not only prevents overcrowding and creates an enjoyable 
visitor experience, but also enhances safety and minimizes the impact 
to the resources that the visitors come to enjoy. We should reiterate 
that BLM also has countless numbers of other recreational rivers, 
trails and OHV areas that make up the vast majority of BLM-managed 
lands and that are and will remain fee-free.
    The fees associated with SRPs are used to administer the permit 
program, so that the direct beneficiaries of the permit bear the cost 
rather than the general taxpayers. Fees also are used to provide the 
benefited visitors with enhanced facilities and services, such as 
emergency response services, safety compliance and education, litter 
cleanup, basic road, parking, trail and facility maintenance, 
interpretative brochures, information centers, trip planning services, 
and maps.
    Given the long history BLM has had in issuing SRPs, we do not 
expect substantial changes in the program under REA. Three years ago, 
BLM re-issued regulations (43 CFR 2930 and Manual/Handbook H-2930-1, 
October 1, 2002) that updated and provided clarification of the 
permitting system under LWCF and FLPMA. The regulations went through an 
extensive public process and received input from the recreation 
community. BLM will be issuing a revised edition of the Handbook that 
incorporates Inter-Departmental clarification and policy for 
implementing REA requirements.

  RECREATION RESOURCE ADVISORY COMMITTEES, PUBLIC PARTICIPATION, AND 
                         COMMUNITY INVOLVEMENT

    We view the visiting public as our partners and implementation of 
the recreation fee program as a continuing dialogue. The Recreation 
Resource Advisory Committees, the public participation provisions, and 
the fee management agreement provisions established under REA provide 
important opportunities to engage the public, interested stakeholders, 
and local communities in discussions on a wide variety of fee-related 
issues and to think creatively about the program.
    In this spirit, the Fee Council recently clarified the Departments' 
view of the duties of the Recreation RACs. The Council agreed that the 
Recreation RACs should be encouraged to discuss, in an advisory 
capacity, all aspects of BLM and the Forest Service's recreation fee 
programs, including establishing new fee areas, abolishing fees, fee 
levels or rates, and expenditure of revenues.
    For BLM and the Forest Service, REA requires the creation of 
Recreation RACs in every State or region and authorizes the use of 
similar existing entities in lieu of establishing new Recreation RACs. 
In an effort to thoughtfully implement this provision, the Forest 
Service and BLM held ii listening sessions in locations across the 
country to gather public input on the formation and configuration of 
the Recreation RACs. Based on the input we received at these listening 
sessions, on September 22, 2005, the Fee Council approved a basic 
framework to implement the provision in REA.
    Under the basic framework, BLM and the Forest Service would use 
existing Resource Advisory Councils established under FLPMA and, for 
areas that do not have existing Resource Advisory Councils, such as the 
state of Wyoming and the eastern United States, new Recreation RACs 
would be established under REA. BLM, for many years, has used Resource 
Advisory Councils to receive public input on a wide range of resource 
and land management issues, including recreation: These existing 
Resource Advisory Councils work effectively and efficiently and are 
well-received by the public. The basic framework would take advantage 
of these existing Resource Advisory Councils by expanding them to 
engage in more specific and additional recreation fee review duties for 
both BLM and Forest Service. To allow for local representation, more 
focused subgroups may be created where necessary.
    We can build on successful models already in use such as BLM Boise 
District Resource Advisory Council in Idaho, which reviews and makes 
recommendations on recreation fees for the Payette River recreation 
area. Because the area is jointly managed by BLM and the Forest 
Service, an interagency agreement was developed to establish the 
general objectives and respective responsibilities of each agency. The 
Resource Advisory Council developed a charter to establish an advisory 
subgroup to review and provide recommendations on fee issues for both 
agencies.
    While we have established the basic framework to implement this 
provision of REA, we have many additional implementation issues to 
address over the next several months. We will be looking more carefully 
at each local situation to determine what subgroups may be appropriate 
using the existing Resource Advisory Councils, based on need and 
interest, at the relationship of the subgroups, funding sources, and 
other issues that may arise. We also will work with state and local 
officials and the public to determine the need and area of scope for 
the establishment of the new Recreation RACs under REA.
    In addition to the Recreation RACs, the agencies are establishing 
other processes to better communicate with the public. On September 28, 
2005, the Departments jointly issued a federal register notice that 
established guidelines on public participation and public notice as 
required in REA. The agencies also are working on additional agency-
specific guidelines. The goals of the guidelines are to provide the 
public with opportunities to participate in the recreation fee program 
and also better inform the public about how fee revenues are being 
spent to enhance the visitor experience.
    REA also provides general authority to establish fee management 
agreements with governmental or non-governmental entities. We believe 
tremendous potential exists to develop mutually beneficial partnerships 
through the recreation fee program. One example of such a partnership 
is at the Deschutes River between BLM and the State of Oregon. BLM and 
the State have worked cooperatively to build the Deschutes River 
reservation website, which will now be operated by the State. Another 
example is at Sand Flats, a highly popular 7,000-acre recreational area 
made up of BLM and Utah state lands. To manage the increase in 
visitation in the 1990s, BLM and Grand County entered into a 
cooperative agreement under which the county would collect recreation 
fees and use them to manage and patrol the highly popular recreational 
area. The county and its citizens have benefited from a more vigorous 
tourist trade; BLM now has a signature recreation area; and visitors 
can safely enjoy the Sand Flats area. Every agency has developed a 
number of successful partnerships like these, and we look forward to 
working with governmental and non-governmental entities to explore 
other opportunities to expand such mutually beneficial agreements.

             THE AMERICA THE BEAUTIFUL--NATIONAL PARKS AND 
                    FEDERAL RECREATIONAL LANDS PASS

    REA establishes the new multi-agency America the Beautiful-National 
Parks and Federal Recreational Lands Pass (the new Pass) to cover 
entrance fees for NPS and FWS and standard amenity recreation fees for 
BLM, Forest Service, and BOR, generally for a period of 12 months. The 
target rollout of the new Pass is scheduled for January 2007, and the 
Pass Working Group has worked diligently to ensure we meet that goal 
through a transparent and thoughtful implementation process.
    Our vision for the new Pass is one of a pass that is convenient for 
visitors to purchase and use, is marketed in a sophisticated manner, 
incorporates policies and technologies that can facilitate partnering, 
and can provide additional opportunities to educate and inform the 
American public about recreation opportunities on federal lands.
    To ensure that the production, marketing, and provisions of the new 
Pass meets the expectations of the American public and key partners, 
the Pass Working Group has hosted a total of four listening sessions. 
Three listening sessions have been conducted to allow interested 
parties to share their ideas about partnership opportunities, benefits, 
pricing, technology and other related topics and an additional 
listening session was conducted with disability advocacy groups on 
documentation requirements for the Access version of the new Pass.
    We recognize public and Congressional interest in the pricing of 
the new Pass. To better determine a price that is reasonable and fair, 
the agencies have entered into a cooperative agreement with the 
University of Wyoming to conduct pricing analysis. To date, University 
researchers have conducted six focus groups in different geographic 
locations, initiated the collection of price benchmarking information 
with State Parks, and begun developing a survey of recreationists for 
next spring. Additional analysis of the relationship between the prices 
of annual passes, site specific passes and daily fees entry fees also 
will be conducted. It is expected that a decision on pricing of the 
pass will be made in summer of 2006.
    Providing a new Pass to the American public requires that the 
agencies contract for some specific goods and service, such as design, 
production, distribution, and fulfillment. We have moved forward on the 
contracting process and have selected a contracting office and 
appointed a COTR, Project Manager. A Request for Information (RFI) was 
issued in August and a number of capability statements were received by 
a variety of organizations. An Acquisition Strategy has been drafted 
and is being finalized. A Performance Work Statement (PWS), which 
includes design, production, fulfillment, marketing, data base 
management, sales through the internet, and 1-800 number channels, is 
being developed and will be put out for competitive bid this winter. 
Review of bids and the award of the contract are planned for early 
2006.
    A draft interagency agreement has been developed that identifies 
all the roles and responsibilities of the various agencies, cost share 
agreements, start up funding agreements, and short and long term 
revenue share agreements. In addition, we have completed a draft of the 
Secretaries' Guidelines. We expect to finalize and publish these 
documents later this fall.
    Due to long lead times in pass production, we have entered into an 
agreement with Kodak and the National Park Foundation to provide the 
image for the first Pass, utilizing the winner of the 2005 Kodak 
National Parks Pass Photo Contest. Alternatives for acquiring images 
for subsequent years are still being investigated.
    Certain decisions concerning the parameters of the new Pass have 
been made including the intent to develop a pass design that can 
accommodate unstaffed areas. We also have decided to make the new Pass 
widely available to the public via sales outlets at all public land 
management sites that collect fees and through 3rd party partnership 
and vendor agreements. We anticipate that we will have many partners in 
the sale of the new Pass and look forward to establishing these 
relationships. In addition, we plan to ensure that the new Pass, where 
appropriate, continues to build on strong existing relationships with 
our public lands partners, such as the National Park Foundation.
    We also appreciate the effort and dedication brought to our public 
lands by volunteers. Consistent with REA, we plan to issue passes to 
volunteers, but we still have some technical issues to resolve. We are 
hoping to personalize the passes issued to volunteers.
    While the Departments plan to move as expeditiously as possible 
toward implementation, our primary goal is to create a high-quality, 
well-thought-out, visitor-friendly pass program that is 
enthusiastically embraced by partner organizations and the public. 
Creating a successful pass program will require us to address many 
complex issues. We plan to carefully consider our past experiences, the 
National Park Foundation's expertise in the development of the National 
Parks Pass, various studies conducted by the agencies on passes and the 
recreation fee program, and feedback from members of Congress, the 
recreation community, and the general public.
    The recreation fee program is vital to our ability to meet visitor 
demands for enhanced facilities and services on our federal lands. The 
Departments view the passage of REA as the beginning of an important 
opportunity to create a sensible, visitor friendly, efficient 
recreation fee program. We view REA as a dynamic program that responds 
to lessons learned and builds on success stories. We welcome the 
opportunity to work with you toward this end.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

    Senator Craig. Lynn, thank you very much. I will start with 
you first. We will do 5-minute rounds so that all of our 
colleagues can cover their questions, and we will go through a 
couple of rounds if necessary.
    Lynn, I believe the Federal Lands Recreation Enhancement 
Act prohibited the BLM and the U.S. Forest Service from 
charging entrance fees or for charging people to walk, drive, 
or ride through lands. Can you tell me how your Department 
concluded that the Federal Lands Recreation Enhancement Act 
permitted the creation of high-intensity recreation areas and 
how it is they seem to be willing to ignore section 803(d)(1) 
that prohibits the Department from charging for certain things?
    Ms. Scarlett. Yes, thank you, Senator, for the opportunity 
to address that. We did inventory all of our sites and looked 
at them with respect to their compliance with the provisions of 
the act. We believe that the BLM sites do so. I think there is 
also perhaps some confusion and we hope to clarify that.
    For example, there was mention of Cedar Mesa, a 400,000 
acre area. In fact, 75 percent of that area is open with fee-
free opportunities for hiking and so forth. There are, however, 
20 entrances to specific very narrow canyons where there is the 
application of fee. So it is not the entire area. It is those 
specific areas where there is a fee to ensure that that access 
is safe and that people are not on top of each other.
    Some of the fees that I think some people are referring to 
are these special recreation permits. These are permits that we 
have had for 35-some years. They are for, as I noted, primarily 
the purposes of kind of controlling the flow of people in 
narrow canyon corridors and/or for whitewater rafting and in a 
few off-highway vehicle locations.
    However, if it is brought to your attention that we have 
some fees that appear to be out of sync with the purposes of 
the act, we would be very interested in hearing where those are 
and working with you to remedy that situation.
    Mr. Rey. I might add, in the case of the high-intensity 
recreation areas the resource advisory committees, once 
established, will review the fee structure of each of the high-
intensity, high-impact recreation areas. But essentially those 
high-impact recreation areas are areas where we have groups of 
sites which together contain all of the amenity values that 
justify the charge of the basic amenity fee.
    We thought charging one fee, as opposed to trying to break 
it out into several separate fees, was a much more prudent way 
to proceed. But these are, we understand, the areas of greatest 
ambiguity, which is why I would second Lynn's offer to work 
with you on any specific area that either you or other members 
of the committee have concerns with; and second, why we have 
decided that we will be submitting those areas to the resource 
advisory committees once the committees are formed.
    Senator Craig. Lynn, when Congress authorized the Federal 
Lands Recreation Enhancement Act we included the category of 
special recreation permits to deal with a limited number of 
activities on off-highway vehicle parks and outfitter guides. 
Your guidelines seem to give authority to charge special 
recreation permit fees for just about anything. In your mind, 
what are the limits on the special recreation permit? What is 
the limit or the limits on the special recreation permit's 
authority? Is it your intention to start charging people to 
enter into a wilderness area under the Federal Lands Recreation 
Enhancement Act? I guess that is a couple of questions there.
    Ms. Scarlett. Yes, thank you, Senator. As I noted earlier, 
we have had these special recreation permits and the authority 
for them for some time and we believe the language in the new 
act is very similar, if not identical, to the past. Our 
intention would be to continue to utilize those for virtually 
the same kinds of purposes they have been used for in the past.
    As I noted, those permits are concentrated in about 22 
areas, primarily for whitewater rafting, narrow canyon trails, 
and for some off-highway vehicle areas. As new kinds of 
unanticipated recreation activities may emerge, through the 
land use planning process and the RAC process it may become 
appropriate to consider such fees for concentrated types of use 
that we do not right now have.
    But as Mark Rey noted, we would not envision introducing 
new permits of that sort without going through the land use 
planning process and in the case of under the new act the 
recreation advisory council process. We do not envision major 
changes, and we have not made any changes to date.
    I will note one point of clarification, however. As we 
inventoried our existing fee sites for BLM, we did find that 
some of our fees were actually misclassified as recreation fees 
that, in fact, were more appropriately special recreation 
permits, and so we reclassified them into that category, making 
it perhaps look like the fees were expanding. In fact, it was 
just a shift in nomenclature.
    Senator Craig. Let me turn to Senator Thomas.
    Senator Thomas. Thank you.
    Secretary Rey, it sounded sort of in your testimony that 
you are still in the study process. Have you come up with your 
final determinations and descriptions of the area and so on?
    Mr. Rey. Yes, we have completed our review of the existing 
facilities to decide which of them qualified under the new 
legislation. As I indicated in my testimony, some 435 sites 
were suspended from the collection of fees. So we are 
collecting fees on 435 fewer sites today than we were prior to 
the enactment of the legislation.
    That part of the process is now complete. The next step in 
the process is to charter the resource advisory committees, 
have them available then to look at some of the sites that we 
have reconfigured, the high impact recreation areas in 
particular, and then move forward with the resource advisory 
committees' assistance in deciding where, if in the future we 
make additional investments, any other fee sites might be 
appropriate.
    So that is where we are at this stage in the process.
    Senator Thomas. So you feel like the definition of the 
chargeable areas has been well enough defined that there is not 
going to be all kinds of changes and these advisory committees 
will not be making great decisions over all kinds of different 
things?
    Mr. Rey. I do not want to prejudge what our advisers might 
tell us, because that diminishes the value of their advice. But 
I think we have gotten to the point now where we have defined 
the scope of the existing program. What we want to do is 
charter these committees to look at a couple of areas, 
particularly the high-impact recreation areas, where we have 
done some reconfiguration, get their advice about that, and 
then their involvement going forward from there would be 
prospective in the context of where might additional 
investments in recreation justify the additional charging of 
fees.
    Senator Thomas. Well, I just--and I know it is not easy, 
but I think there ought to be a pretty clear definition of what 
these are, so that you are not going to be changing it, moving 
it, everyone is going to be testing to see if it's this area or 
that area.
    Secretary Scarlett, do you use charges for limiting use? Is 
that your intention?
    Ms. Scarlett. We welcome visitors on public lands, whether 
they be parks, whether they be the Bureau of Land Management 
lands or the Fish and Wildlife Service.
    Senator Thomas. You have indicated like on the rivers and 
so on where you think there needs to be limited use; is the 
charge the way you do that?
    Ms. Scarlett. The purpose of the charges is not so much to 
limit use. What we do is require people to obtain a permit. 
There is usually a fee to buy that permit, which oftentimes 
provides sequenced access, so that, for example, if it is a 
whitewater rafting area, you do not have everybody entering all 
at once. We also use those special recreation permits that 
provide timed access to narrow canyon trails, where it simply 
would be impossible to have everybody there all at once.
    So we require a permit and usually charge a fee. That helps 
us to create that timed access, monitor the flow, and then 
provide whatever other emergency services might be required, 
etcetera.
    Mr. Rey. Let me inject a clarification, because I do not 
want to leave a misimpression. The decision about whether to 
limit use in a wilderness area in particular is made 
independently of the decision as to whether to charge any fee 
for the subsequent administration of that wilderness area. So 
we are not setting up a system where we are saying you are only 
going to accommodate this many people and it will only be the 
ones who can pay a fee.
    The decision to limit use in a wilderness area or on a 
river is a resource-based decision associated with impacts from 
visitor use or the impacts of the visitors on----
    Senator Thomas. That is not a new criteria under this bill.
    Mr. Rey. No, not at all. We have done that before in the 
past.
    Senator Thomas. But then why do you charge now, when you 
did not before?
    Mr. Rey. Because in many of those instances we are also 
providing additional services associated with that use, in 
cases where we are flying out sewage and doing other things.
    Senator Thomas. One of the differences clearly with the 
parks is that parks have gates where people enter and that is 
not so in public lands. So it seems like the collection process 
for charging is going to be very difficult. How do you collect 
the fee? Do you have to set up gates and entries and post 
guards; is that it?
    Ms. Scarlett. I cannot speak for the Forest Service, but 
certainly for the Interior agencies, and in particular this 
would apply to the Bureau of Land Management, where we have 
these special recreation permits for concentrated use, they 
tend to be at specific access points. So, for example, launch 
places where you would put a raft into the water, or if it is 
an off-highway vehicle, it would be a concentrated area of use 
where, in fact, it is feasible to charge a fee.
    Senator Thomas. Thank you, sir.
    Senator Craig. Senator Salazar, questions?
    Senator Salazar. Thank you, Senator Craig.
    Lynn and Mark, you are in the middle of the river crossing 
to the other side as you implement this new program that was 
mandated under this law. I would ask both of you from your 
perspectives as leaders in your Departments what the long-term 
plan is relative to the financing of essentially the Park 
System and our Federal land system and amenities in those 
Federal land systems with respect to these programs that you 
are bringing on line?
    For example, I know you have not yet launched the America 
the Beautiful Pass or the other passes that you contemplate, 
but what is the vision, if you will, of both the Department of 
the Interior and USDA Forest Service with respect to the 
budget, relative to the amount of money that you are going to 
raise from these new fees that are being asserted and how those 
funds are going to be implemented in the future?
    My sense of these new changes is that what has happened, as 
Chairman Craig was telling me a little bit earlier, is that 
there is not enough money going around in the Federal 
Government to do all of these things that we want to get done 
in our public lands, so this is a way of getting the bathrooms 
and other facilities built in many of the Federal lands areas.
    What is essentially, though, the budgetary framework that 
you have envisioned as you complete the implementation of this 
act?
    Ms. Scarlett. I will take that first. I think our overall 
vision with respect to the appropriations dollars and the 
expenditures necessary to maintain our public lands is that it 
is the appropriations that provide the primary basis for 
supporting those lands. The Park Service, for example, has a 
budget of about $2.4 billion; the other two agencies, Fish and 
Wildlife Service and the Bureau of Land Management, about half 
of that.
    The amount that we raise through these fees at Interior is 
about $166 million. So it is a very small but very important 
fraction.
    What we use these fees for are those services that directly 
benefit the specific users. They also allow us to be resilient 
to rapid changes in use. I have been out to Moab, Utah, for 
example, where we have many thousands of people that come to 
that area for mountain biking, off-highway vehicle use, and 
sometimes with great unexpected numbers, and it requires a 
rapid response in terms of the expansion of the toilet 
facilities, and the cleanup of those facilities. The inability 
to wait for changes in appropriated dollars to meet that change 
in need----
    Senator Salazar. If I could interrupt you for just a 
second, Lynn. In my State I once ran the Department of Natural 
Resources for 4 years and there was a point in time in our 
history with our State park system where we provided 30 percent 
of the funding from State general fund dollars and then 70 
percent from fees. What you just said is that we currently fund 
the programs through the Department of the Interior with the 
$2.4 billion appropriation and we collect only $166 million in 
fees.
    Is it your sense that what we are doing here at the Federal 
level is trying to move in the same way that Colorado moved 
over a period of time, and that is to try to pick up the costs 
of essentially running and managing the Federal lands programs 
through fee collections as opposed to the appropriations 
process that historically has been used? Is that a policy goal 
of the Department of the Interior?
    Ms. Scarlett. That is not the policy goal of the Department 
of the Interior, Senator. We have viewed the fees as a very 
important supplement to the appropriations dollars that 
Congress provides us, but it is not our vision that those fees 
would somehow either overtake those appropriated dollars or 
would be at a level such as you describe for the State of 
Colorado.
    There are many States--in fact, we have looked at fees, 
recreation fees for parks in States. 46 States do utilize 
recreation fees, some of them entirely and some of them in some 
significant percent. I think it at least to date seems to be 
the sentiment of both the Congress and the American public that 
these lands be supported through appropriations and then these 
special activities that individuals benefit from and the 
services that they utilize be supplemented with recreation fee 
money.
    Senator Salazar. Mark, a question for you in terms of how 
the fees are actually set. Is it the resource advisory council 
working with the agency that would ultimately determine what 
level of fee would be charged for a particular site?
    Mr. Rey. The resource advisory councils will advise us both 
on the location of sites that are suitable and eligible for fee 
assessments, and I am sure they will give us their advice on 
what the fee level should be as well.
    Senator Salazar. So it is conceivable we would have 1,000 
different sets of fees for each Federal facility?
    Mr. Rey. No. One of the things we are going to have to do 
is maintain some consistency on that. So obviously we will take 
their advice, but it will have to be filtered up, because I do 
not think we can charge one fee for the same activity in one 
State versus another State. I do not think that will fly.
    But I am anticipating that many of the RACs will give us 
their advice on that. But I think their primary benefit is 
going to be to review the areas that are suitable for fee 
assessments.
    In response to your previous question----
    Senator Salazar. Let me follow up on that just a minute. I 
still do not understand exactly how the fees will be set, and 
does in your agency, with respect to the Forest Service--do you 
have a template with respect to the kinds of fees that you are 
going to be charging, for example, at national forest 
campsites? Or every campsite in America would essentially be 
charged a fee within a certain range? Or how is it that you 
intend to move forward in arriving at a fee that has some 
consistency, and what is the nexus between the fee and the 
kinds of improvements and use at each one of these facilities?
    Mr. Rey. The fees will ultimately be set by the Inter-
Agency Fee Leadership Council, so that we have not only 
consistency within the Forest Service nationwide, but 
consistency within the Federal land managing agencies 
nationwide, so that a comparable fee is charged for a 
comparable site, whether it is a BLM site or a Forest Service 
site or a Fish and Wildlife Service site, to the extent that 
the statute allows all the agencies to charge fees for the same 
functions.
    Then the question is what will the fees be used for. 85 to 
90 percent of them will go back to either improving or 
maintaining the site where they are charged. That is the 
purpose of the program, is to reinvest the fees on the land.
    Senator Salazar. So the reinvestment will go back into the 
specific site where the dollars are collected from?
    Mr. Rey. Correct.
    Senator Salazar. I would just say one thing, Mr. Chairman, 
to you as the chairman of the committee and also to our 
witnesses. I think this is such an important program, 
especially for all of us who come from States in the West where 
we have such huge ownership in Federal lands, that it is going 
to be very useful for this committee to be kept abreast of what 
is going on as you move forward with this new chapter on fee 
imposition on access to Federal lands.
    Senator Craig. Ken, thank you.
    Mark, in the State of Washington and perhaps elsewhere law 
enforcement for Federal Lands Recreation Enhancement Act is 
being performed by State police. I understand that the offense 
for which people are being cited is a criminal misdemeanor 
charge and it is different than the charge that Federal law 
enforcement officers would use. I have two questions coming out 
of that statement.
    What are the financial arrangements that your agency has 
with county sheriffs or State police for enforcement of the 
Federal Lands Recreation Enhancement Act? That would be one 
question.
    The second would be, Congress limited the maximum penalty 
for first offenders to a $100 fine. Yet Washington State law 
provides for a fine of $5,000 and 6 months imprisonment for 
those charged under the criminal code being used. I would like 
to know how this heavy-handed approach was adopted and when you 
are going to put an end to it?
    Mr. Rey. Well, I think first of all some clarification is 
in order. Federal law rather than State law governs any 
offenses in this case. Second--that is, offenses related to 
violations of the fee system.
    Second, we do have cooperative law enforcement agreements 
with local law enforcement entities throughout the country, and 
we have been encouraged to have those kinds of cooperative 
agreements by Congress on any number of occasions. What that 
means is local law enforcement will help enforce Federal 
statutes, and where they enforce a violation of this statute 
the maximum fine as provided in the statute will hold, will 
govern.
    I think, however, you are referencing an example provided 
in the testimony that your staff was kind enough to share, that 
occurred in Snohomish County, Washington. In that case, as I 
understand the case file, the local law enforcement officer 
encountered an individual who had several Northwest passes, 
Northwest forest passes, in his car, many of which had been 
modified--or counterfeited, in other words--to give him access 
on days that he did not have to pay anything for. In fact, I 
have a picture of a doctored pass here.
    So in that case what the individual was charged with was a 
State law violation involving theft of property under State 
law. He was not charged with not having a pass on that 
particular day. He was charged with having a number of 
fraudulent passes in his possession all at one time. And I can 
give you a picture of one of the doctored passes.
    Senator Craig. Yes, I would like to see it. I hope we have 
not set up the template for a rash of counterfeiting to go on 
out there in the ticket arena or the certification arena.
    Could you provide the committee with the visitation use 
numbers for the Forest Service for each of the last 10 years by 
the end of November? Can you run those for us?
    Mr. Rey. Sure.
    Senator Craig. And if you could break those numbers out 
into the following categories of use, that would be most 
helpful to us. And I do not know whether this is possible. Take 
a look at it and see whether you can: driving for pleasure, 
hunting, fishing, birdwatching, camping, hiking, picnicking, 
and other non-wilderness dispersed recreation, or wilderness 
use. Is that a doable?
    Mr. Rey. I believe so.*
---------------------------------------------------------------------------
    * The information has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Craig. Good. Thank you.
    The Federal Lands Recreation Enhancement Act stated that 
new sites could be added after going through a public comment 
process which, amongst other things, required the 
recommendation of new sites by recreation resource advisory 
committees and provided for a 6-month public comment period 
following publication of proposed site additions to the Federal 
Register.
    Please explain how under those authorities the new sites 
that were recently added actually got added?
    Mr. Rey. The only new sites that have been added since 
enactment of the legislation were campgrounds that were already 
on line and under construction and for which fees would have 
been charged under the Land and Water Conservation Fund. We 
felt justified in keeping the fee program there because the 
agreements associated with the charging of those fees, the 
cooperative agreements with some of our partners, had already 
been executed. The only question was the final ribbon-cutting 
had not occurred on the opening of the campground prior to the 
enactment of the legislation.
    Now, that having been said, I know there are many groups 
who would dispute the proposition that those are the only new 
areas where fees are being charged where fees were not charged 
prior to enactment of the legislation. The reason I know that 
is that again I read most of the testimony that was provided to 
the committee for the record.
    You know, with----
    Senator Craig. Mark, I am specifically interested in the 
example--and you may be getting to it--in California, where new 
intensity use areas were permitted and charged that did not 
exist before.
    Mr. Rey. In those cases, what we have done is created a 
high-impact recreation area, combining a number of areas where 
fees were previously charged under either Land and Water 
Conservation Fund or under the RAC fee demo authority.
    Senator Craig. So you are drawing the conclusion that they 
were once charged, therefore you have created a new entity and 
it did not need to see the public process?
    Mr. Rey. No. As I said in my testimony, we will be--because 
of the fact that these high-impact recreation areas require a 
certain amount of interpretive work, we will be submitting 
those to the resource advisory committees once they are 
chartered, to make sure that they concur that that is a 
reasonable application of the statute.
    But in every instance, these are areas where in individual 
sites linked together in a logical fashion fees were charged 
prior to the enactment of the statute.
    Senator Craig. Well, I think I understand your logic or the 
logic used. I guess I would argue, is that consistent with the 
law?
    Mr. Rey. I think the statute did provide us the authority 
to charge basic amenity fees in those kinds of instances. And 
if you look at the pictures--and they are worth a thousand 
words--that I provided for some of the high-impact recreation 
areas, I think those pictures give you a pretty dramatic 
illustration of what the fees are used for and why they are 
necessary.
    Senator Craig. Is that why you used tape over certain 
lettering?
    Mr. Rey. No, that is a temporary----
    Senator Craig. That is very temporary and very quick, yes.
    Mr. Rey. Yes. Those are temporary ways to modify----
    Senator Craig. It sounds like a rush to revenue to me.
    Mr. Rey. Those are temporary ways to modify the existing 
signs to avoid public confusion until we replace them with 
permanent signs.
    But if we are going to provide these sites to the 
recreation advisory committees, then it makes some sense not to 
sign them permanently until the advisory committees review 
them.
    Senator Craig. Lynn, could you respond to the question that 
I have just asked?
    Ms. Scarlett. Yes, Senator. It is my understanding that we 
have not created any new fee sites. We are, for the Bureau of 
Land Management, we are awaiting the utilization of the 
resource advisory councils.
    The one caveat that I mention is that when we did our 
inventory of BLM sites we had some that were characterized as 
recreation fees that we shifted to special recreation permits. 
That may have the appearance of being a new kind of fee. In 
fact, it was a renaming.
    We did put a moratorium on any new fee sites until we had 
the completion of our resource advisory council process set up. 
I will add, though, that we have adjusted some fees and there 
have been some questions about that. As Mark said, there were 
some campgrounds where through a 2-year process in which public 
participation already had been occurring we were adjusting 
through natural cost of living type increases certain 
campground fees. We have moved forward with those, where the 
planning process was well under way and we were, if you will, 
just about to implement those. But those are not new fee sites.
    Mr. Rey. Lynn makes a point that I think probably bears 
some elaboration. Both in the case of facilities that were 
coming on line as well as in areas that we have designated as 
high impact recreation areas where fees were previously 
charged, there was in almost every instance a considerable 
amount of local support for the creation of those fees to be 
able to invest in the areas that were subject to the intensity 
of recreation impact that you can see in those pictures.
    Now, that does not obviate the opposition to groups who 
still oppose fees as a matter of principle. But I think what 
you are seeing today is a lot of those groups are looking at 
some of these areas and raising issue with whether fees should 
be charged at all, not whether fees were once charged, but 
going back to the philosophical question of why should we have 
to pay fees anywhere.
    With all due respect, those groups are more interested in 
overturning enactment of the legislation than they are 
overseeing implementation of it.
    Senator Craig. Lynn, the Forest Service found that the Park 
Service of the fee program at the Sawtooth National Recreation 
Area was noncompliant with the Federal Lands Recreation 
Enhancement Act and dropped it from the fee program in June. 
For that, those who involve themselves at the SNRA are forever 
thankful. Why was this parking pass program dropped and not 
other very similar parking pass programs in other parts of the 
Nation, such as the program in the White Mountain National 
Forest in New Hampshire or the parking pass program in the 
Northwest?
    Mr. Rey. When we made the transition from rec fee demo to 
this fee authority, in those instances as we did the review the 
local units had the option of coming into compliance if that 
made sense, by adding the amenities if there was adequate 
demand for them, or not if it did not make sense. So you had 
three sorts of situations. You had situations where the 
amenities were not there, the sites did not qualify under the 
statute, and the local managers said: There is not enough 
demand to justify adding the amenities, so what we ought to do 
in fairness to everyone is eliminate the fee.
    You had other instances where there was enough demand and 
the amenities were added to make the sites compliant, so the 
fees were retained. And then of course, you had other sites 
where all the amenities were already there and the fees were 
continued, as the statutes would provide for.
    So those were local manager options, guided by what they 
thought the local public needed and wanted.
    Senator Craig. Thank you.
    Senator Thomas, do you have any other questions to ask?
    Senator Thomas. Not really, sir. Just let me say that I 
think the Departments are working at putting this into effect. 
I hope that we all understand that it was defined to be pretty 
specific for specific areas, and I must say, Mark, that I see 
pictures of all these cars on the road. Why, there is nothing 
there being done for facilities. Now, maybe you plan to build 
some facility. I do not know. But I think just because it is 
crowded does not necessarily indicate that you are doing 
anything for facilities.
    Public lands are different than parks and I think we need 
to understand that. My gosh, you know, there are millions of 
acres of public lands in Wyoming that people are going to enter 
and go on and there are no facilities there. So I think we need 
to be very careful. I think we need to be very careful about 
it. I think you are working at that, but I hope that we come up 
with a pretty clear criteria of what kinds of facilities really 
are appropriate for fees and hold to that.
    This is not a matter, as the Senator was talking about, of 
paying for public lands by fees. That is not what that is for. 
That is a totally different thing and we ought not to be 
confused about that, and I am sure you are not.
    So thank you, Mr. Chairman. I am interested in listening to 
the others.
    Senator Craig. Okay, thank you.
    Mark, Lynn, thank you very much for coming today and 
preparing for this hearing. We will continue to watch and 
monitor very closely as you transition this new program.
    Now let us invite our second panel forward. Our second 
panel is made up of Marvel Stalcup, Arizona No-Fee Coalition; 
Kitty Benzar, Western Slope No-Fee Coalition; Lance Young, 
director, World Outing Club of Seattle; and Aubrey King of King 
& Gorin, representing the Western States Tourism Policy 
Council, the Southeast Tourism Society, the National Alliance 
of Gateway Communities, and the National Association of RV 
Parks and Campgrounds.
    We want to thank all of you for being here today and 
preparing for this hearing. Marv, we will start with you, the 
Arizona No-Fee Coalition. Please pull that microphone in front 
of you, either one of them, and make sure the little pad on the 
front shows red.

   STATEMENT OF MARVEL C. STALCUP, ARIZONA NO-FEE COALITION, 
                           SEDONA, AZ

    Mr. Stalcup. Thank you. Thank you, Mr. Chairman and 
distinguished members of your subcommittee. I certainly thank 
you for inviting us here today to talk about the Federal Lands 
Recreation Act. It is something that is very important to me, 
very close to home.
    When I was preparing for this testimony, I was pacing up 
and down the living room trying to think just what I would tell 
you folks. I saw the September 2005 copy of Arizona Highways, 
and it sort of epitomizes to me the essence of the wilderness 
area. Here is this hiker sitting on a rock, communing with 
nature, doing what so many of the people in my part of the 
world do.
    I am from Sedona, Arizona, and there are several places in 
the wilderness areas around Sedona where you could take a 
picture like that. You will notice that there are no amenities 
that you can see in that image. There is no bathrooms, there is 
no parking lots. It is just nature. I think that the framers, 
the Congress, back in the Eighty-Eighth Congress, when they 
made the Wilderness Act in 1964 were thinking about somebody 
just like that. They wanted to provide a place so that in 
perpetuity people could come and commune with nature just like 
that hiker is.
    It is interesting too that the lead article in that 
magazine was about the six Arizona national parks, and it was 
entitled ``This Land Is Your Land.'' It went on to say that the 
six national parks are having their centennial this year and 
that--well, I guess that describes that image fairly well, I 
think.
    The other image that I brought with me today is a map that 
I get from the Forest Service and it is my personal map. It is 
the one I use to go around and select which hikes we are going 
to go on next. As you can see, Sedona is surrounded by 
wilderness areas. Off in the east is the Sycamore Canyon 
Wilderness Area. To the north is the Secret Mountain Wilderness 
Area, and to the--to the east, rather. And to the east is the 
Munds Mountain Wilderness Area.
    It is really beautiful land up there and I would hope that 
if you folks ever have a chance to come out to Sedona, I would 
love to show you what our area looks like and take you on some 
of the hikes that are there.
    You will notice that there are some green dots and some red 
dots. The red dots are those sites, those trailheads, that are 
not in compliance with the FLREA. I have visited a good number 
of them and most of them have a dirt parking lot and that is 
it. There is nothing else available. The Forest Service, 
however, has designated the entire area around Sedona, 
including the three wilderness areas, as an HIRA, a high-impact 
recreation area.
    If you wanted to use the bathroom or if you wanted to use 
some of the other amenities required by the REA, you could not 
find that in any of those red dot areas. You would have to go--
so it does not seem reasonable to me to have the entire area 
named an HIRA.
    We hike in a good number of those sites, as I said, and I 
notice that there was a press release by the Coconino National 
Forest designating this entire area as an HIRA and saying that 
because it was such an HIRA that it met all of the requirements 
under the present law and no changes have been made. I can 
testify that no changes have been made since the implementation 
of the FLREA. The same signs, the same fees that were in place 
under fee demo are in place today.
    I thank you for listening to me.
    [The prepared statement of Mr. Stalcup follows:]

  Prepared Statement of Marvel C. Stalcup, Arizona No-Fee Coalition, 
                               Sedona, AZ

    Mr. Chairman and distinguished members of the Subcommittee: Thank 
you for the privilege of testifying before you today concerning the 
Federal Lands Recreation Enhancement Act, P.L. 108-447. It is an act of 
great concern to me, and I feel obligated to come before you today and 
tell you why.
    I have just read a press release from the United States Forest 
Service (USFS) in Sedona Arizona dated June 15, 2005. It states that 
``The Red Rock Pass program clearly meets the conditions described as a 
High-Impact Recreation Area (HIRA)'' and thus ``No changes are 
necessary in the Red Rock Pass program under the REA authorization.'' I 
can testify from personal observation that no changes have been made to 
the Red Rock Pass program in Sedona since the Federal Lands Recreation 
Enhancement Act (FLREA) was enacted. The same signage and fees that 
were in place during the Fee Demo period are still in place today.
    It should be noted however that, in Section 803(d)(1) of the FLREA, 
language clearly and explicitly prohibits fees solely for parking or 
picnicking, for general access, for dispersed areas with low 
investment, for driving or hiking through, for camping at undeveloped 
sites and for use of overlooks. The HIRA concept does not exist in the 
FLREA and the USFS is using it to circumvent the intent of Congress as 
described above. Signs along each of the highways leading to Sedona 
state ``A Red Rock Pass is required to park on the National Forest.'' 
At all of the trail heads and scenic overlooks signs are prominently 
displayed which read ``A Red Rock Pass Required to Park.'' The vast 
majority of these signs mark parking areas that do not have the 
amenities required by FLREA.
    While thinking about my testimony today I glanced down at the 
coffee table and saw the September 2005 issue of Arizona Highways. On 
the cover is a photo of a hiker relaxing upon a rock outcrop, enjoying 
an endless vista of trees and mountains. This photograph symbolizes the 
essence of our Wilderness areas. The lead article is entitled ``This 
land is your land--Arizona's six national forests celebrate a century 
of protection and recreation.'' I am sure that Howard Zahniser, the 
author of the Wilderness Act, and the 88th Congress had this hiker in 
mind when they passed the Act in 1964. To ask this person to buy a pass 
to sit on a rock and commune with Nature would be sacrilegious.
    We have three Wilderness areas around Sedona encompassing some 
121,000 acres. Congress designated Sycamore Canyon a wilderness area in 
1972 and the Redrock Secret Mountain and Munds Mountain areas in 1984. 
Of the 72 trails listed on USFS website at www.redrockcountry.org/
recreation/trails.shtml 35 are listed as being ``in wilderness.'' 
However, the Coconino National Forest has declared the entire area 
surrounding Sedona an HIRA and is charging fees to access all of our 
local Wilderness areas.
    HIRAs are also limiting public access in other parts of Arizona. 
Just northeast of Tucson is the Pusch Ridge Wilderness area with almost 
57,000 acres that Congress designated in 1978. The Mount Lemmon Highway 
is the major access to this area and its 26 trailheads and 10 picnic 
areas. The USFS is using the HIRA to charge $5 per auto to those people 
using the road, except those stopping at any of the six vistas or those 
going to campgrounds or private property. The sign at the tollbooth 
says, ``FEE REQUIRED FOR picnicking, all camping, roadside parking, 
trailheads and restrooms.'' The fee is required to park anywhere along 
the highway, except at designated vistas and there are lots of places 
where people just pull off and park: climbers, hikers, and folks who 
just walk into the woods. The Sabino Canyon Visitor center provides the 
only access to the southern margin of the Pusch Ridge Wilderness Area 
and thus controls and charges for access to some 50 miles of hiking 
trails. It seems that the USFS has overruled Congress's intention to 
create untrammeled wilderness areas when they began charging for their 
use.
    I attended the University of Idaho under the GI bill and was 
graduated with a B.S. in Geology in 1960. I started at the Woods Hole 
Oceanographic Institution on Cape Cod Massachusetts in January 1961 and 
worked in the Physical Oceanographic Department for 31 years during 
which I spent considerable time at sea.
    They tell the story about an old salt who, when it comes time to 
retire, puts an oar on his shoulder and walks inland until someone asks 
him what that thing on his shoulder is. I got as far as Arizona before 
anyone asked me.
    I live among the Red Rocks of Sedona, which is a small enclave of 
private land surrounded by the Coconino National Forest. The privately 
owned land was originally homesteads that have been subdivided into 
house lots and is just about built out. The area has remarkable buttes, 
ridges, mountains and canyons accented by 300 million year old Redwall 
Limestone and sandstones, like those of the Grand Canyon.
    But, unlike the Grand Canyon, Sedona's Red Rocks are on a much 
smaller, more human and less awe-inspiring scale. The scenic beauty of 
Sedona prompted Congress to designate three Wilderness areas nearby to 
forever preserve its heritage. I hope that each one of you will visit 
Sedona sometime soon and permit me to show you our natural wonders. You 
Senators hold the key to maintaining unfettered access to our forest 
lands while, at the same time, preserving them for future generations.
    Sedona has a population of about 18,000, many of whom are retired 
from across the nation and throughout the world. Our natural beauty 
attracts several million visitors each year, who come to view the 
marvelous colors and extraordinary shapes of our rocks. Some merely 
stop by the side of the road to take photographs but many others hike 
and bike our trails.
    By one count we have 77 trails in Sedona, almost half of which are 
within the Wilderness areas. There are about 180 miles of trails and 
almost everyone in Sedona either hikes, bikes or rides them. We have 
two clubs dedicated to the preservation and maintenance of our trails. 
Friends of the Forest (FOF) has a membership of 325 who both staff the 
visitors' center and work on the trails. The Trails Resource Access 
Coalition (TRACS) has a membership of 30 and works with the Forest 
Service to provide trail maintenance twice a month.
    In 2004, FOF donated 906 hours of volunteer trail work which saved 
the USFS $11,968 in labor costs. They also provided funds for high-
grade native plant seed to spread on the soil to enhance the visual 
effect and reduce erosion. Their restoration work also includes 
transplanting prickly pear cactus to discourage those who try to go off 
the regular trail. Last year TRACS donated almost 600 hours of trail 
work to the Forest Service. In addition to these organized efforts, 
most people I know pick up litter during their hikes. The USFS 
estimates that local volunteers provide the equivalent of $450,000 per 
year to the Red Rock District
    As you can see our local residents value their forest lands and 
trails because they are our backyards and we use them on a regular 
basis. On October 22, 2002 the Sedona City Council voted 5-2 to pass a 
resolution asking Congress to restore proper funding for public lands 
in order to eliminate the Recreational Fee Demonstration program. One 
of the dissenting votes came from a council member calling for an even 
stronger resolution. The majority of our residents and visitors are 
opposed to paying fees to access our public lands, especially in our 
Wilderness areas.
    The trailheads at most of the trails we hike consist of a dirt 
parking lot with space for four to twenty cars and no amenities of any 
kind. These trailheads have no toilets, no trash bins, no picnic tables 
and no security services. At some of the parking lots, the USFS has 
erected a billboard with a map and signage telling hikers to stay on 
the trails. Just a few parking areas have a machine selling the Red 
Rock Pass. But in each and every one of these parking areas the USFS 
has installed a sign informing visitors that ``Parked Vehicles must 
display a Red Rock Pass.'' Along the highways leading to Sedona the 
USFS has placed signs advising visitors that a Red Rock Pass is 
required to park on the National Forest. Most of the parking areas 
along the highways and at the trailheads near Sedona do not contain the 
amenities mandated for day-use areas by FLREA. All of them control 
access to dispersed, undeveloped backcountry, for which the FLREA 
prohibits charging fees.
    Information on the internet indicates that the Department of the 
Interior and the USDA hosted a Regional Listening Session in Phoenix on 
July 14, 2005 to both distribute information and collect input relating 
to the establishment of the Recreation Advisory Committee. I have 
requested a progress report from the Department of Interior, the 
Department of Agriculture, the Bureau of Land Management and the U.S. 
Forest Service and am anxiously awaiting a reply. I sincerely hope that 
the USFS will establish such a committee in Arizona to address the 
problems associated with the public's recreational use of public lands.
    Howard Zahniser, author of the 1964 Wilderness Act, used the word 
``untrammeled'' to define Wilderness and he defined ``untrammeled'' as 
``not being subject to human controls and manipulations that hamper the 
free play of natural forces.''
    It seems to me that the authors of this legislation intended to 
protect Wilderness areas for posterity, which implies that they wanted 
us and our offspring to be able to visit them in perpetuity. I am 
certain that they never expected that the public would be made to pay 
access fees for the privilege. The untrammeled nature of our wilderness 
areas has been severely compromised when the USFS uses their HIRA 
concept to force us to buy a pass to enjoy them.
    I have included excerpts from the 1964 Wilderness Act at the end of 
this testimony for review.
    Mr. Chairman I request that both my written and oral testimony be 
made part of this hearing.*
---------------------------------------------------------------------------
    * Retained in subcommittee files.

    Senator Craig. Marv, thank you for that testimony. I have 
not trekked those wilderness areas that you talked about, but I 
have been to your beautiful area of Arizona and I can 
understand why you live there.
    Now let us turn to Lance Young, director, One World Outing 
Club. Lance, welcome before the committee.

  STATEMENT OF LANCE YOUNG, DIRECTOR, ONE WORLD OUTING CLUB, 
                          SEATTLE, WA

    Mr. Young. Thank you, Mr. Chairman.
    A brief introduction: I am director of an outing club. It 
is mostly a hiking and cross-country ski club, recreational 
activities. Also, I believe I speak for several thousand hikers 
and recreationalists from the Pacific Northwest area in what I 
say today.
    I wanted to speak just briefly to what I feel is the 
importance of this issue. I know everybody's attendance here 
speaks to their concern over these matters, but I wanted to 
emphasize that I believe this heritage is an important part of 
the identity of our country. We were started as a country of 
adventurers, people that came to a new world with no lodging, 
no home base, nothing but wilderness, and continued that 
tradition in pushing across the West, like Lewis and Clark and 
their adventures and exploration.
    I believe the forests and the parks provide for that part 
of our personality that is still there. I think probably 
everybody here today has fond memories of childhood camping 
trips or hiking trips or fishing or whatever, all of which I 
think are important to the identity of who we are and the 
strengths of our country.
    Our national parks are a gem on a planet of natural 
wonders. Yellowstone National Park, with its geysers; Grand 
Canyon, with its incredible geologic history; down in 
Australia, the Great Barrier Reef--all wonderful natural 
environments. But I believe the forests are unique, at least 
amongst developed countries, because they provide a wilderness 
area without development and with access to multiple days of 
camping and hiking and exploring without seeing any other signs 
of development or perhaps even other people.
    In Europe you cannot hike for more than a day without 
running into another town, another city, another road, 
whatever. You will climb to the top of a mountain and find that 
there is a gondola that has gone up on the other side of the 
mountain and there is a restaurant there. Great for lunch, but 
not the wilderness experience that our forests and BLM lands 
provide for our citizens. I think we are seeing more and more 
use by our foreign visitors and tourism visitation and that 
sort of thing.
    Then the access that we have in the Northwest, this is 
maybe somewhat different--and I would like to speak mostly 
about the Northwest because that is my background. A lot of the 
access points, the trailheads, are access into the wilderness 
and the back country. We have large tracts of land that have 
been preserved and set aside for the public's use and there are 
sometimes 20, 30, or 40 trailhead access points to this back 
country, all of which charge fees.
    My understanding of the new law is that this cannot be 
done, that you cannot be required to pay for parking or 
whatever if all you are doing is trying to access something 
that does not have facilities. I will not go into naming them. 
Some of that is in my written testimony and I can provide more 
if the committee would like it.
    These resources need to be maintained as free and open 
access. The benefits to the Government, to the economy, to the 
citizens of the country are indisputable. The recreation 
benefits I just spoke to. Everybody has fond memories of things 
that have formed their personality and their adult life. Mental 
relaxation; where else can you go and have to worry about 
nothing other than the wind and the water, when the sun comes 
up, when it goes down, and get away from all the other stresses 
of modern life these days? Who has not heard their doctor say 
diet and exercise will improve your condition, diet and 
exercise and something else? It is important to have these 
opportunities, not to discourage people from participating in 
them by having fees in the majority of locations where you can 
go and hike.
    The health benefits--I was just thinking about all of that 
and the financial benefit of a small incremental improvement in 
the health of the Nation just through getting a few more people 
out there, a few more people active, and making it convenient 
for them would be phenomenal, the reduction in health care 
costs and insurance and things that business is fighting 
throughout the country today.
    Also, people are being affected--I am running out of time 
here. I find that not only the lower-income people cannot 
afford the passes anymore and are not going up there, but also 
the affluent that have the means to pay for passes. The pass 
system is a confusing, complex system of authorizations and 
passes for various areas. I believe Senator Thomas spoke to 
this. National parks have an entry fee and they have amenities 
and it is fairly evident that you are getting something for 
your money. I believe users of the natural environment expect 
to pay fees for something that they see a return on. They can 
understand that. But the large majority of them cannot even 
differentiate between a park and a national forest. It is all 
government land. When they go to a trailhead and they see 
nothing there, they do not expect to have to pay or have a 
permit in their possession. And if they do not have a permit in 
their possession, the penalties are draconian under the new 
law.
    However, I think it can be worked with to make the system 
function so that it makes sense for the users and it is easy 
and convenient for them to use and can provide income for the 
development and services that are provided by the agencies.
    I will close up here to try and stay not too far over my 
time limit. I think the rural communities that depend on this 
recreation for their income and their business--this would 
include rafting companies that support local communities and 
environments, Metta Valley in Washington State. There is a 
variety of communities that depend financially on this. The 
benefits to citizens are indisputable, I think. I went over 
there.
    I would ask that the committee please make sure that this 
access is maintained as convenient, understandable to the local 
citizen, and usable by everyone in our country, which I think 
is our heritage.
    Thank you very much for letting me speak, Mr. Chairman, and 
I hope my conversation has been included in the permanent 
record.
    [The prepared statement of Mr. Young follows:]

  Prepared Statement of Lance Young, Director, One World Outing Club, 
                              Seattle, WA

    Mr. Chairman and Distinguished Members of the Subcommittee:

                            I. INTRODUCTION

    Thank you for the opportunity to speak to the Senate Energy and 
Natural Resources Committee regarding this important issue. I am both 
honored and humbled by those present in this hearing today. I have 
watched Senate debates in the past and am always inspired by the detail 
and thought that go into the speeches, and the articulate nature in 
which they are delivered on the Senate floor.

                           II. MY BACKGROUND

    I have been involved in the outdoor recreation industry since I was 
a child, both commercially through guiding, instructing, gear testing, 
and the travel industry, and recreationally.
    As Outing Club director (a not for profit outdoor recreation club), 
I have had the opportunity to cater not only to the general recreation 
population but provide outdoor opportunities for the mildly disabled 
that love to hike (but may not be able to get a drivers license because 
of eye sight, or elder skiers that can no longer drive safely in winter 
snow), and devout environmentalists that have made a decision not to 
own a personal vehicle in keeping with personal environmental beliefs. 
I have organized transportation for Senior Centers for outdoor 
recreation, I have worked with ski for all (a national disabled skiers 
program), have helped organize skyfest and numerous other outdoor 
competitions and events.
    Working through Outing Services (a commercial guide service) I have 
lead trips for North Face, run the REI winter Ski Bus, have outfitted 
trips for Microsoft and other local businesses, as well as trips and 
seminars for local Parks and Recreation programs. This includes: 
Seattle Parks, Bellevue Parks, Kent and Federal way school districts.
    I have been a Ski instructor, and ski school supervisor, life 
guard, avalanche rescue, search and rescue, Boy Scout leader, and Eagle 
Scout, a product tester for Outdoor Research and other local recreation 
clothing and equipment manufacturers. I have done equipment seminars 
and educational events for North Face, REI, White Water Sports, and 
Marmot Mountain Works.
    My activities (both commercial and private) have been primarily 
included: hiking, backpacking, bicycling, mountain biking, sea 
kayaking, canoeing, white water rafting, white water kayaking, swimming 
instruction, snow and rock climbing, cross country skiing, snow 
shoeing, downhill skiing, snow boarding, backcountry telemark skiing, 
skin diving, windsurfing, water skiing, foreign travel and tourism, and 
others.

           III. COMMERCIAL AND NON PROFIT GROUP ACCESS ISSUES

    My esteemed colleges with the Western Slope No-Fee Coalition have 
spoken eloquently regarding private recreation concerns and the 
misinterpretations and abuses of the new law as they apply to private 
usage. I have worked in the outdoor industry for several decades and 
would like to address the affects on commercial usage, and non profit 
group use of public lands as well so I will touch on this subject 
during my testimony.

                    IV. THE IMPORTANCE OF THIS ISSUE

    My bias and goal in life is to promote the active outdoor 
lifestyle, and to encourage and facilitate others to appreciate the 
beauty and benefits of this lifestyle. Whiteness the first thing most 
doctors mention to patients with almost any chronic ailment is ``Diet 
and Exercise''. The gym and lifting weights is good but boring, and 
primarily used as a training ground for rehabilitate or conditioning 
for other activities.
    During world war II the Norwegian built public swimming pools all 
over their country to keep their people fit for military service, if 
they should be needed for defense of their sovereign boarders. Our own 
citizenry need encouragement not obstacles to participate in an active 
lifestyle. Think of the savings in health care costs that a small 
incremental increase in cardiovascular health would provide to the 
citizens of our country.
    Beyond the physical there are the mental benefits which include a 
recentering, and ability to put things into perspective and forget 
about a lot of the artificial demands and stresses a modern life 
imposes on people. In the woods all that matters is when the sun comes 
up when it goes down, shelter from the elements and when the next meal 
is. Sort of where we all started, millennia ago.
    I have traveled enough to know also of the uniqueness of the 
mountains and wilderness we have here in North America. Nowhere in 
Europe are there large enough tracts of public land to allow 
backpacking or camping. The concept of spending three days hiking 
across the continental divide is foreign to Europeans. With a Cafe at 
the head of every wooded valley, and a gondola to the top of every 
mountain peak. This wilderness experience does not exist. The black 
forest in Germany is a tree farm with trees artificially planted in 
corn rows. The value of these natural resources are inestimable.
    As the tourism industry continues to grow our National Parks and 
Forest lands provide a magnet for the adventurer traveler from 
overseas. Already some of the better known areas have more German or 
Japanese tourists than U.S. citizens. Many small local communities 
thrive on the business that this provides for them. The Methow Valley 
in Eastern Washington survives on the large number of people that the 
cross country ski industry brings in every year to ski their vast 
network of trails spread out over Bureau of Land Management (BLM) 
Forest Service and private land in the valley. Sun Valley has been a 
magnet since the 50's and Mt. Saint Helens has become Washington States 
largest natural attraction. Mt. Bachelor in Oregon has thrived by 
catering to Skiers during the winter and Golfers during the summer. 
Moab Utah has canyonlands, slick rock, and Fisher Towers, which is a 
mecca for mountain bikers, hikers, and rock climbers.
    When Microsoft brings their overseas sales staff to their Redmond 
Washington Headquarters they don't treat them to dinner at the space 
needle, they take them hiking, or rafting, or hot air ballooning, to 
leave a lasting impression.

                        V. WHO WILL BE AFFECTED

    The use fees will affect people from all walks of life. The poor 
and low income who can not afford to visit the National Parks or stay 
in fancy hotels need access to public lands for camping fishing and 
recreation. Some of my favorite childhood memories were from our 
camping trips to the mountains and Pacific coast. We could not have 
spent near as much time together on family vacations if they were not 
economical. Low income people will just have to stay home, because the 
``De Listed'' no fee areas are all remote and hard to reach not, as the 
law demands, all undeveloped public lands both convenient and remote.
    Middle and upper income citizens will stay home because of 
confusion and the threat of a criminal record. The U.S. Forest Service 
web sight lists eight different types of pass: National Forest 
Recreation Day Pass, Oregon Pacific Coast Pass, Annual Northwest Forest 
Pass. Golden Eagle Pass, Golden Age Pass, Golden Access and this does 
not include the Bureau of Land Management authorizations, river 
conservation permits, hunting licenses etc. Rather than risk a $100 
fine or, if the arresting officer is in a bad mood being charged with a 
Class A or B misdemeanor upper income people will just stay away, 
rather than risk the criminal record and fines. Thousands of current 
conscientious objectors, who currently refuse to buy the passes, may be 
caught off guard by these changes. Even the best informed mountaineers 
I have surveyed are generally unaware of the severe penalties they are 
now subject to.

              VI. THE PENALTIES ARE WAY OUT OF PROPORTION

    The Penalties are draconian in nature. The $100 fine for an initial 
offense is a guideline not a mandate, and I have found in my experience 
with the Mt. Baker-Snoqualmie National Forest the forest officials not 
to be fair and just in their dealings with forest users. More on this 
later. If charged with the maximum offense a forest user might be 
facing up to six months in jail and $5,000 in fines, and for a second 
offense up to $100,000 and a year in prison. To cite a citizen with 
this kind of penalty for hiking is well beyond reasonable.
    Already a former Washington State citizen now residing in Florida 
has been cited for a violation even though he thought he had the 
correct pass properly displayed in his car. Paul Gunthorp was cited 
August 13th, and decided he wanted to fight the charges rather than 
accept the record. His trial is still being continued, currently 
scheduled for November 9th.

                  VII. MY UNDERSTANDING OF THE NEW LAW

    We are not here today to analyze the law but to review its 
implementation however it is appropriate to mention a few of the 
critical problems that may be leading to current problems with its 
implementation. The new Federal Lands Recreation Enhancement Act and to 
cut through the overly flowery and disingenuous title, the Recreation 
Access Act/Tax. If this new fee based tax on recreation is successful 
it will eventually replace the that received from the Federal 
Government. This on the surface does not seem to be a bad thing but on 
deeper analysis there are several structural problems with it. By 
sending funds directly to the agency it removes the essential 
accountability loop from the equestrian. This new taxing system will 
lead to unnecessary government duplication and additional costs. The 
BLM and U.S. Forest Service will have to develop their own tax 
collection system and methods for printing and distribution of the 
passes (tender) they provide. They will have to develop a police force 
to enforce the permit system. This would be expensive wasteful and 
require forest rangers to do work they were not trained to do.
    After reading thought the new laws it appears evident that Congress 
was trying to establish a more fair and equitable system of permit fee 
collection for the agencies. It is also clear from the text and 
statements of the Legislators that it was intended to scale back the 
current implementation of the Demonstration Fee program in several ways 
with the outcome of preventing blanket implementation of entry fees 
like the National Parks do, and should charge at their entrance gates. 
It also was clear that fees should only be charged where the public, 
that is using the resource, can see evident signs of the value they are 
receiving for the fee. This is why the stipulations were included for 
requiring certain things at all sights:

          ``Permanent Toilets, Trailhead monuments or informative signs 
        interpreting the natural wonders of the area, developed 
        parking, picnic tables, security services, and permanent 
        garbage receptacles.''

    The new law was supposed to open up much of the areas that are now 
requiring access fees to provide free public access for the primitive 
or undeveloped areas while providing an income source for the agencies 
to cover developed areas.

            VIII. TRAIL REPORT FOR OUR LOCAL FOREST SERVICE

    I will focus on the Mt. Baker-Snoqualmie National Forest (Mt. Baker 
NF) since this is what I am most familiar with but I believe the 
statistics are also representative of adjacent National Forests as 
well. The Mt. Baker NF lists about 125 trails within their boundaries 
as active hiking trails available for a variety of users from horses 
and mountain bikers to backpackers, hikers and snow-shoers. After the 
new law was passed Mt. Baker NF released a list of 18 trails that were 
being opened up for public use. This list was later revised down to 12 
sights. Of these 12 about a third are not viable decommissioned trail 
fee sights.
    1. Two of the trails listed are (at least historically) just 
different access points to the same trail, Three Fingers #641 and 
Boulder River #734.
    2. One is less than a mile long and gains more than a thousand feet 
per mile and requires a three hour drive for this one hour hike. This 
trail is hard to find at the end of road FS 74 and has never required 
fees in the past. Clearwest Peak #1178.
    3. Another one that was initially on the list to be ``de-listed'' 
Dutch Miller Gap #1040 was at the end of the longest roughest road in 
the forest system, and this road frequently washes out preventing any 
access.
    4. Huckleberry Creek #1182 Has never been signed as requiring a 
forest pass, and it goes only 0.9 miles before becoming a National Park 
system trail (where it continues for miles)
    5. Martin Gap #1178 is still listed on the Mt. Baker NF trail 
description as requiring a forest pass despite its listing on the 
official list of trails that no longer require a fee. I have not had 
time to check this out personally yet.
    6. Sunday Lake #1000 was dropped from the initial list probably 
because this trail is on private Wearhouser land and was only 
accessible after spring run off because of the washed out bridge on the 
first part of the trail.
    If these questionable trails are removed that leaves only eight to 
ten fee free trails, out of 125 total trails listed in the district. 
Further those de listed, are generally either difficult to get to or 
impractical for the general public. The new law also appears to prevent 
charging for use of unimproved or primitive areas however the Mt. Baker 
NF seems to have gotten around this by inventing a High Impact 
Recreational Area HIRA which claims vast tracts of land into one 
``Area'' with only a few of the required amenities available in the 
entire zone.
    A good example of what the law seems to suggest as an appropriate 
fee area is Mt. Saint Helens where significant investment has been made 
in developing information centers, informative talks, museums and 
educational centers. Another great example is the Ice Caves trail or 
Big Four where permanent toilets are installed, the parking lot is 
paved, there are the remnants of a historical Inn to view and a nice 
trail up to the base of Big Four mountain, with well maintained bridges 
and boardwalks.
    The vast majority of the trails listed as requiring trail passes in 
the Mt. Baker NF have at best one or two of the required amenities. A 
good of the abuse of the too loosely defined ``Area'' designation in 
the new law is Bare Mountain which was initially on the list to be free 
use. The trail head has room for only six cars to pull off to the side 
of the road, and brush free only because of somewhat regular use not 
due to maintenance. The trail has a hiker registration box but non of 
the other requirements. The nearest toilet is in North Bend perhaps an 
hours drive back down the dirt access road, this is also probably the 
closest garbage can. and there is no security, you leave your car at 
your own risk.

                    IX. MISINTERPRETATION OF THE LAW

    Local agencies are either significantly misinterpreting the new 
Federal Lands Recreation Enhancement Act or are ignoring the letter and 
intent of the law to maintain control and income from the federal lands 
they administer. The intent of the law seems clear both from the 
statements of the Congressmen that worked on it and from the text of 
the law itself.

          ``H.R. 3283 would limit the recreation fee authorization on 
        the land management agencies.'' and ``No fees may be charged 
        for areas with low or no investments''
                --Representative Ralph Regula, Sponsor, H.R. 3283, 2004 
                press release

          ``The secretary shall not charge (C) For dispersed areas with 
        low or no investment''
                --Federal Lands Enhancement Act, section (3)(d)(1)(C)

          ``The secretary may charge a standard amenity recreation fee 
        for (4) An Area (D) that contains all of the following 
        amenities (i) Designated developed parking. (ii) A permanent 
        toilet facility. (iii) A permanent trash receptacle. (iv) 
        Interpretive sign, exhibit, or kiosk. (v) Picnic tables. (vi) 
        Security services.''
                --Federal Lands Enhancement Act, section (3)(f)(4)(D)

    The text of the law seems quite clear, and that is to limiting the 
ability to charge use fees to those areas where significant enhancement 
and financial investment has been made. This would be consistent with 
the fees charged at most National Parks and Monuments where entry fees 
are charged at the gate and many visible amenities are provided for the 
public paying the entry fees including education centers, information 
centers, bathrooms, ranger walks, et cetera. The majority of the road 
systems and trails in our area have only a few (on none) of the listed 
required amenities. Thus there should be no permit required. Yet the 
vast majority are still listed as requiring a permit for their use.
    This is not the first time the U.S. Forest Service has 
``misinterpreted'' the law to their financial gain. When the 
Demonstration Fee program was passed to allow the agency to experiment 
with fee collection at a few sights. The law allowed the demonstration 
to be run at no more than 100 sights. This limit was ignored and 
Demonstration Fee or Northwest Forest Passes were required at the 
majority of trails in the forest. When the Sierra Club legal council 
took them to court on the mater and won. The forest service then 
redefined how they labeled the trails and instead of designating 
individual sights they designated entire road systems and regions as 
one demonstration fee sight.
  x. commercial problems with over broad interpretation of regulations
    Our Washington State hiking and cross country skiing group has had 
similar difficulties with the Mt. Baker FS with the issuance of 
commercial permitting and fees. In the process of dealing with the 
forest supervisor John Phipps and Winter recreation specialist Larry 
Donavan to try and obtain a commercial use permit to allow us to teach 
classes we witnessed a fluid and ever changing set of permit 
requirements several of which were clearly against their own 
regulations and guidelines. This included requiring permits for day use 
cross country skiing on forest roads where CFR 251.50 (d) specifically 
excluded road use as requiring a permit for commercial or non 
commercial users. Their own guidelines encouraged issuance of 
commercial authorizations

          ``Many are capable of total self-sufficiency, but those 
        selecting an outfitter want and need help. They can't do it on 
        their own, or want an introduction to such experiences to help 
        them get started.'' ``But the public lands belong to them just 
        as much as they belong to the residents living at the mouths of 
        canyons.''
                --Forest Service Outfitter Guide Handbook, February 
                1997, page I-2

    In navigating the gauntlet of requirements that were required of us 
over a four year period we submitted over 8 separate permit 
applications trying to satisfy the escalating demands. The last of 
which was 98 pages in length several times the length required for 
other similar groups (typically 12pages). We were promised permits on 
three separate occasions only to submit the required information and 
have more requirements added. We were never issued any of the promised 
permits and finally were cited for commercial operations on federal 
land without a permit. We won the case because the law specifically and 
wisely does not require a permit for road use. Preventing the agency 
from having to issue a permit where there is minimal impact to the 
land, and no encampments or structure involved. Senator Patty Murray 
stepped in to help with our cause and was intentionally mislead by the 
Forest Service who were struggling to justify their case.
    Following the loss of this case rather than appeal to the superior 
court where precedent might be set John Phipps was called back to the 
DC office and shortly after this the laws were revised for the entire 
country requiring permits for commercial road use. This revision was 
ostensibly based on a re-engineering study they commissioned in April 
of 1997. Surprisingly according to the Federal Register this study 
contradicts the argument for requiring permits for road use.

          ``In April 1997, the Forest Service completed a reengineering 
        study of its special uses program that recommended managing 
        special uses in a more businesslike and customer service 
        oriented manner. The study found that many special use 
        authorizations are issued for (1) minor uses of National Forest 
        System lands that have nominal effects.''
                --Federal Register, Vol. 68, No. 14, Proposed Rules 
                section

    Instead of requiring fewer permits for these ``nominal'' impact 
uses the Forest Service misinterpreted the study to support their 
desire to require more permits.
    The Forest Service through the Code of Federal Regulations has set 
up a system where a large part of the discretionary authority rests 
with the ``Authorizing Officer''. This agent would typically be the 
local ranger or perhaps as senior as a district ranger. The whole 
system seems to be a bottom up management method rather than a top down 
structure. In other words the senior members of the USFS appear to 
support the junior staff ``Authorizing Officers'' even in situations 
where it is clearly against policy even regulations to do so.

              X. NOT FOR PROFIT GROUPS ARE BEING AFFECTED

    The old laws did not require any permitting for non commercial 
activities for less than 75 people with the logical rational that these 
smaller groups would not have significant impact on the resource. 
Providing the freedom to organize a small rally or religious service, 
or family or club event. The new Forest Service interpretation does 
away with this limitation. For instance the new Federal Lands 
Recreation Enhancement Act specifically excludes charging for things 
like foot races on federal lands. The Forest Service recently issued 
guidelines include such activities under special use permits. This 
would force for instance the Cascade Bicycle Club to request a permit 
to bike ride over the old Blewett Pass road (paved), or else face 
bicycling with the cars on the adjacent Highway.

          ``The secretary shall not charge (D) for persons who are 
        driving through, walking through, boating through, horseback 
        riding through, or hiking through Federal recreation lands and 
        waters without using the facilities and services.''
                --Federal Lands Enhancement Act (d)(1)(F)

               XI. RAMIFICATIONS OF THE NEW FEE STRUCTURE

    Uniformly across the state of Washington City parks and recreation 
departments have frequently been denied access to public lands, under 
USFS control, for outdoor opportunities that they would like to make 
available to their residents. The commercial Outfitters and Guides in 
private conversation invariable have stories of difficulties with 
agencies.
    Enforcement has caused a change in the relationship between 
backcountry rangers and the recreational public. In only one decade the 
Demonstration Fee program has turned forest and park rangers into 
people to be avoided, not a friendly encounter in the woods and someone 
to approached regarding weather or other natural concerns. This 
adversarial relationship requires the agency to do all their own 
policing rather than depend on users to cooperate and share information 
on incidents with wildlife, washouts, or other matters. Over the past 
several years I have even witnessed a change among hikers themselves.
    Commercial use is more and more difficult to sustain. Many small 
communities in rural Washington depend on income from the recreational 
travel trade, including horse packers, fishing guides, river rafting 
companies, Nordic skiing trail networks, even outdoor equipment 
retailers like REI. These communities are loosing their source of 
livelihood not because of environmental impact but because of red tape. 
A lot of our ski groups travel is now into Canada just across the 
boarder because they are much more receptive to commercial recreation 
needs.
    The benefits to proper access to public land are enormous and 
critical to the citizens of the United States. Access to recreation for 
physical and mental health improve the longevity and health of the 
general population. Convenient and welcome accommodation of commercial 
and group use of the natural resources provides a source of commerce 
and income for rural communities, and a reason for the higher income 
Urban residents to travel into and support the surrounding communities.

                              XII. CLOSING

    Thank you for the opportunity to speak. Please include both my 
written and oral testimony as part of this hearings official record.

    Senator Craig. We will not fine you for overage. Lance, 
thank you very much.
    Now let us turn to Kitty Benzar, Western Slope No-Fee 
Coalition, from Durango, as discussed earlier, a Durangoite. 
Welcome, Kitty.

  STATEMENT OF KITTY BENZAR, WESTERN SLOPE NO-FEE COALITION, 
                          NORWOOD, CO

    Ms. Benzar. Thank you, Mr. Chairman, Senator Thomas, and I 
will thank Senator Salazar in absentia.
    Senator Craig. He sends his apologies. He had to step out 
for another hearing. Thank you.
    Ms. Benzar. Thank you.
    I am Kitty Benzar. I am a co-founder of the Western Slope 
No-Fee Coalition. Thank you for inviting me here today.
    Early this year, shortly after enactment of the FLREA, our 
coalition launched a grassroots survey nationwide asking people 
to go around and look at the public lands near them and tell us 
what they saw in terms of how this law was being implemented. 
We now have some pretty good results from that and we have 
published at least a preliminary report and analysis, which we 
have provided copies to the subcommittee.
    Senator Craig. We have copies of that, thank you.
    Ms. Benzar. In that survey we identified three primary 
areas of noncompliance with this new law by the BLM and by the 
Forest Service. The first, which has already been identified 
here, is the High-Impact Recreation Area, or HIRA. Those words 
do not appear anywhere in the FLREA. The door to them was 
opened by a sentence that says a standard amenity fee can be 
charged for an area that contains certain minimal amenities. 
The size of that area was not defined or prescribed in any way, 
and that is the hole through which these high-impact recreation 
areas are coming to us.
    Through the guise of HIRA's, fees are being charged, 
defense facto entrance fees essentially, for huge tracts of 
land, for driving scenic byways, State highways, county roads, 
dispersed back country, multiple sites with low or no Federal 
investment, all because they are in a HIRA. In my home State 
Colorado, the Arapaho-Roosevelt National Forest has described 
two HIRA's. One is Mount Evans, which is a State highway, 14 
miles of State highway that drives to the top of a high 
mountain peak. There are virtually no amenities along the way. 
There is a Forest Service toll booth at the bottom of it, which 
is pictured in our report. That road is essentially a toll road 
today and there is an entrance fee, call it what you will, 
being charged to go into that area.
    The other HIRA in Colorado is the 36,000-acre Arapaho 
National Recreation Area, which is also on the Arapaho National 
Forest. Entrance fees must be paid to access six trailheads, 
five picnic areas, and five boat launches, and I have provided 
photographs of the signage in that area, where it used to say 
an entrance fee was required, and tape has been used to just 
cross off the word ``entrance'' and either black it out or call 
it a use fee instead. But nothing about the implementation has 
changed in that area between fee demo and the FLREA.
    The second area of noncompliance we identified is the 
special recreation permit. Under this new law, special 
recreation permits are being used for activities as 
unspecialized as just going on a hike, going for a walk in the 
woods, a family trip, a mountain bike trip, an OHV ride on an 
open OHV trail. These are very non-special kinds of activities. 
These are routine, everyday activities on our public lands.
    Unlike standard amenity and expanded amenity fees, which 
are authorized for the use of sites, special recreation permit 
fees are being charged for particular uses, types of use. So 
everyone who does a type of use is being charged and required 
to have an SRP. Everyone who would rock climb or river raft or 
hike in a certain area is required to have and to purchase an 
SRP.
    Not far from my home is the Cedar Mesa area in Utah, which 
is managed by the BLM out of the Monticello field office. In 
that area there is 400,000 acres with seven remote canyons, 
eleven trailheads, managed for primitive recreational values by 
management policy, receiving less than 10,000 visitors a year. 
But everyone who hikes below the rims of those canyons is 
required to buy and to have a special recreation permit. There 
are many other examples.
    The third category of noncompliant sites that we identified 
is trailhead fees. This is where thousands of trailheads around 
the country are requiring people to have a pass on their car to 
park at that trailhead and go for a hike Whether there is any 
amenities there or not is really beside the point. The law says 
that we may not be charged for the use of dispersed, 
undeveloped back country. If you hike on a trail into an area 
that has nothing, then you are entering dispersed, undeveloped 
back country, and where you left your car is not the issue. 
What surrounds it, whether there is a toilet and a picnic table 
there, they are not what you came for. You came for the back 
country.
    There are examples of that as well in our report. The basic 
conclusion on fee trailheads is that whether they are developed 
or not, whether they have those six amenities or not, they 
still constitute a charge for accessing dispersed undeveloped 
back country, which we see as noncompliant with the FLREA.
    Two more concerns that we have besides those areas of 
noncompliance are a Forest Service policy called the Recreation 
Site Facilities Master Planning, RSFMP, or the complementary 
policy in the BLM which is called cost recovery. At a public 
meeting in Heeney, Colorado, last month, a Forest Service 
official was quoted in the paper as saying: ``In our 
development sites, we have been told they need to pay for 
themselves or we need to get rid of them.'' That pretty much 
sums up RSFMP and cost recovery.
    These are policies, completely unvetted by Congress, within 
the agencies whereby they have determined that recreation sites 
will either pay their own way or they will be closed. They go 
on to say that it is the FLREA that is making them do that. 
However, I do not find that language in the FLREA. I find that 
language only in agency policy documents and memos.
    The implication of those two policies is that most, if not 
all, recreational sites and uses must be profitable or they 
will be closed, and they leave the agencies' very ability to 
comply with this law in question.
    Finally--and thank you for giving me a little extra time, 
Mr. Chairman--our concern regarding the recreation resource 
advisory committees that are called for in the RAC. These are 
groups that membership is specified in the law and that 
membership represents almost exclusively groups and individuals 
that have a need for access to the public lands in order to 
conduct their particular activity. Their ability to honestly 
advise the agencies I question. They have too much at stake 
and, between the fact that they have vested interests in access 
to these lands and the fact that these policies of RSFMP and 
cost recovery are being implemented as we speak, I think vastly 
limits their recommendations. It pretty much boils their 
recommendation down to two things, either allow a fee area to 
be implemented or the area will be closed. That is the choice 
they are being confronted with through agency policy.
    Further narrowing their ability to make honest 
recommendations is the movement to establish either one 
nationwide recreation RAC or maybe one for a huge region, one 
for the East part of the United States and one for the West 
part of the United States, instead of the law's requirement of 
one per State or to use existing RACs in place of the ones that 
are specified in the law. We feel that either of those options 
would limit the input of users and local people.
    Like fee demo before it, we feel that the FLREA is creating 
incentives within the agencies to push the boundaries not only 
of what is allowed in the law, but also of what is in the 
public interest. We urge you to take decisive action to remedy 
these excesses that we have documented and that we see 
happening.
    I would ask that you put both my written and my oral 
statement into the record, Mr. Chairman. Thank you very much.
    [The prepared statement of Ms. Benzar follows:]

            Prepared Statement of Kitty Benzar, Co-Founder, 
                     Western Slope No-Fee Coalition

    Mr. Chairman and distinguished members of the Subcommittee: Thank 
you for the privilege of testifying before you today concerning 
implementation of the Federal Lands Recreation Enhancement Act by the 
USDA Forest Service and the Bureau of Land Management.
    I am Kitty Benzar, co-founder of the Western Slope No-Fee 
Coalition, a coalition that has come to represent hundreds of 
organizations and millions of Americans nationwide in advocating for 
the continued tradition of public ownership and access to public lands.
    Resolutions of opposition to fee-based access under the previous 
Fee Demo program were sent to Congress by the state legislatures of 
Colorado, Oregon, California, and New Hampshire. Thirteen counties in 
western Colorado alone, and dozens of counties, cities and towns across 
the nation as well as hundreds of organized groups had passed similar 
resolutions. State and local governments continue to oppose fee-based 
access to public lands under the FLREA. Since the FLREA became law on 
December 8, 2004, resolutions opposing it have been passed in the 
legislatures of Colorado, Oregon, Montana, and the Alaska House, by 
numerous counties, and are pending in several other states.
    The WSNFC opposed passage of the FLREA and testified against it in 
the U.S. House Resources Committee because we believe that fee-based 
access constitutes a new tax, harms communities located near or 
surrounded by federal lands, unfairly limits public access, and 
subjects citizens to extreme criminal penalties. Prior to passage of 
the FLREA, we were actively working with committee staff in the House 
to find common ground on the issues surrounding public lands fees. The 
final language of the FLREA contains many loopholes and ambiguities 
that we believe open the door to implementation of fees outside of 
developed areas and place undue constraints on public access to public 
lands.
    In a press release issued at the time the FLREA was passed, its 
sponsor, U.S. Representative Ralph Regula, expressed his intent:

          ``As passed by Congress, H.R. 3283 would limit the recreation 
        fee authorization on the land management agencies. No fees may 
        be charged for the following: solely for parking, picnicking, 
        horseback riding through, general access, dispersed areas with 
        low or no investments, for persons passing through an area, 
        camping at undeveloped sites, overlooks, public roads or 
        highways, private roads, hunting or fishing, and official 
        business. Additionally, no entrance fees will be charged for 
        any recreational activities on BLM, USFS, or BOR lands. This is 
        a significant change from the original language. The language 
        included by the Resources Committee is much more restrictive 
        and specific on where fees can and cannot be charged.'' 
        [emphasis in original]

    At the time of its passage we predicted that the Forest Service and 
BLM.would use the weaknesses in the law to perpetuate and expand the 
broad fee programs that they had implemented under the Fee Demo 
authority. The agencies are pushing the limitations written into the 
law because of the perverse incentives the FLREA creates to maximize 
revenues at the public expense regardless of the limitations on fee 
implementation written into it.
    The FLREA contains a number of provisions designed to protect free 
access. There are prohibitions on charging Standard Amenity or Expanded 
Amenity fees ``(A) Solely for parking, undesignated parking, or 
picnicking along roads or trailsides. (B) For general access . . . (C) 
For dispersed areas with low or no investment . . . (D) For persons who 
are driving through, walking through, boating through, horseback riding 
through, or hiking through Federal recreational lands and waters 
without using the facilities and services. (E) For camping at 
undeveloped sites that do not provide a minimum number of facilities 
and services . . . (F) For use of overlooks or scenic pullouts. (G) For 
travel by private, noncommercial vehicle over any national parkway or 
any road or highway established as a part of the Federal-aid system . . 
.'' [Section 803(d)(1)]. It also states in Section 803(e)(2) ``The 
Secretary shall not charge an entrance fee for Federal recreational 
lands and waters managed by the Bureau of Land Management, the Bureau 
of Reclamation, or the Forest Service. Section 803(f)(4) says that fee 
day-use ``areas'' must contain six minimum amenities: Designated 
developed parking, a permanent toilet facility, a permanent trash 
receptacle, interpretive sign or kiosk, picnic tables, and security 
services.
    Early this year we launched a nationwide grassroots survey of 
Forest Service and BLM fee sites. We asked our members and supporters 
to visit fee areas near their homes, observe whether they comply with 
the provisions in the new law, and report to us those that are not in 
compliance. We then undertook to compile this information into a list 
of fee sites that are not in compliance with the FLREA. That list is 
now over 300 sites, and more survey reports continue to come in as part 
of this ongoing effort. We have provided a copy of our survey report 
for each Member of this Subcommittee.
    The survey results to date reveal a pattern of excesses in 
implementation of the law by the Bureau of Land Management and the 
Forest Service. The agencies have created a category of fees that was 
not authorized by Congress called ``High Impact Recreation Areas.'' 
They are charging fees at thousands of trailheads that provide access 
to dispersed undeveloped backcountry, and they are stretching the 
Special Recreation Permit authority to cover virtually any type of 
recreational activity. De facto entrance fees are controlling access to 
huge tracts of public land.
    Our survey has found that non-compliant fee programs fall into 
three broad categories:

          1) ``High Impact Recreation Areas'' (HIRAs)
          The Forest Service and BLM are using a category called a HIRA 
        that does not appear anywhere in the law. A H1RA is a group of 
        individual sites with little or no federal investment that are 
        collected together for the purpose of charging fees to access 
        any of them. Under the guise of HIRAs, Standard Amenity fees 
        are being charged for driving scenic byways, state highways, 
        and county roads, for entrance to huge tracts of land, for 
        access to dispersed backcountry, and for multiple sites with 
        low or no federal investment. The language in the FLREA stating 
        that a fee can be charged for an ``area'' with certain 
        amenities but failing to define how large the ``area'' can be 
        opened the door to HIRAs.
          In Southern California, 31 HIRAs comprising almost 400,000 
        acres have been established on four National Forests.
          At Mt. Lemmon, on the Coronado National Forest in Arizona, 
        virtually the entire 256,000-acre Santa Catalina Ranger 
        District has been declared a HIRA and fees are being charged 
        for picnicking, dispersed undeveloped camping, roadside 
        parking, trailheads, and restrooms.
          In my home state of Colorado, the Arapaho-Roosevelt National 
        Forest has declared two HIRAs. The first is at Mt. Evans, where 
        Colorado State Highway 5 has become a toll road and entrance 
        fees must be paid to the Forest Service in order to enjoy a 
        scenic overlook, hike into a Wilderness Area, or simply drive 
        on a state highway. The other is the 36,000-acre Arapaho 
        National Recreation Area where entrance fees are Charged for 
        access to six trailheads, five picnic areas, and five boat 
        launches.
          Other examples of HIRAs are shown in our survey report. These 
        ``High Impact Recreation Areas'' are not defined or authorized 
        anywhere in the new law.
          2) Special Recreation Permits
          The FLREA authorized fees for Special Recreation Permits for 
        ``specialized recreation uses of Federal recreational lands and 
        waters, such as group activities, recreation events, motorized 
        recreational vehicle use.'' Under previous law, Special Use 
        Permits were limited to large organized events, commercial 
        activities on public lands, and guides/outfitters. Now, the 
        Forest Service and BLM are stretching the term ``specialized'' 
        to require Special Recreation Permits for a wide array of 
        private, non-commercial activities. These SRPs are being issued 
        for activities as unspecialized as a simple family hiking trip, 
        an individual ride on an OHV or mountain bike trail, or access 
        to wilderness areas by foot or horseback.
          Unlike Standard Amenity and Expanded Amenity fees, which are 
        authorized for use of sites, SRP fees are applied to particular 
        uses, i.e. hiking, OHVs, climbing, or river rafting. The 
        protections in the FLREA restricting the application of 
        Standard and Expanded Amenity fees do not apply to SRPs.
          Examples of excesses under the SRP authority include the 
        Wayne National Forest in Ohio, where fees apply to more than 
        280 miles of OHV, mountain bike, and horse trails.
          At Cedar Mesa in Utah, just a few miles west of my home, the 
        BLM requires a fee for all hiking in 400,000 acres that 
        includes 7 remote canyons and 11 trailheads. This is a 
        completely undeveloped area that receives less than 10,000 
        visitors a year and has no maintenance backlog.
          Both the Forest Service and BLM are requiring SRPs and 
        charging fees for entry to designated Wilderness Areas that are 
        completely primitive by definition. Examples include Boundary 
        Waters Wilderness, MN (USFS), Aravaipa Canyon, AZ (BLM), Hoover 
        Wilderness, CA (USFS), Paria Canyon Wilderness, UT/AZ (BLM), 
        Alpine Lakes Wilderness, WA (USFS), and Mt. Shasta Wilderness, 
        CA (USFS).
          SRPs are being used to bypass the provisions in the FLREA 
        against charging for access to backcountry and dispersed 
        undeveloped camping, for use of roads and trails, and for 
        passing through without use of facilities.
          3) Trailhead Fees
          At thousands of sites nationwide, citizens are being charged 
        a fee to park their vehicle at a trailhead or simple staging 
        area and go for a hike, horseback ride, or to use an OHV trail. 
        The law prohibits charging a fee solely for parking, or for 
        passing through a fee area without using the facilities, and 
        many trail users simply park their vehicle and hit the trail 
        without using whatever amenities may be present.
          Examples of trailhead-fee areas include the White Mountain 
        National Forest in New Hampshire, where a ``Parking Pass'' is 
        required at 44 trailheads and river access sites. These fees 
        control access to most of the Forest's backcountry.
          In the Pacific Northwest, a pass is required at over 500 day-
        use sites, mostly trailheads, on twelve National Forests. On 
        the Mt. Baker-Snoqualmie National Forest alone, there are more 
        than 100 fee trailheads.
          In Colorado, winter recreationists at Vail Pass must purchase 
        a pass before accessing 55,000 acres of backcountry by 
        snowmobile, snowshoe, or cross-country ski, even though the 
        parking area and toilet facilities are provided by the Colorado 
        Department of Transportation as a rest area for travelers on 
        Interstate 70.
          Fee trailheads, whether developed or not, are being used to 
        prevent free access to dispersed backcountry and undeveloped 
        camping, and to charge for general access, all in violation of 
        the FLREA.

    The Forest Service and BLM are out of compliance in other ways as 
well. They have instigated new fees and permits at many sites and areas 
without establishing the mandatory Regional Recreation Advisory 
Committees called for in the FLREA. The agencies are also spending over 
the 15% limit on costs of collection through agreements with non-agency 
enforcement services. In some cases up to 30% of fee revenue goes for 
enforcement alone. GAO reports on the previous Fee Demo program 
revealed that the Forest Service was using millions in appropriated 
funding to administer fee programs, resulting in overhead costs 
exceeding 50% of fee revenue. In the BLM, administrative overhead comes 
from state and Washington office appropriated funding, minimizing any 
net gain from fees. High overhead costs continue under the FLREA, in 
spite of the 15% limit mandated in the law.
    These documented excesses under their fee authority by the Forest 
Service and BLM cause special concern when viewed in the context of the 
severe criminal penalties for failure to pay FLREA fees. The law allows 
the agencies to charge either a Class A or Class B misdemeanor and 
specifies prima facie guilt for the driver, owner, and all occupants of 
a vehicle failing to display a required pass. Although first offenses 
are capped at a $100 fine, they still create a criminal record, and 
subsequent offenses are subject to penalties up to $100,000 and/or 1 
year in jail. Despite the fact that many fees do not meet the 
requirements of the FLREA, a citizen who fails to pay a $5 fee to hike 
into a Wilderness Area or ride on an OHV trail, or who does pay but 
fails to display the pass correctly, or who loans their vehicle to a 
friend or family member who fails to pay, risks a permanent criminal 
record and potential jail time.
    The sponsor of the FLREA said that it would provide stronger 
protections for public access to public land than the Fee Demo program 
did, and compliance with the provisions of the FLREA was mandatory as 
of December 8, 2004. By now, the Forest Service and BLM should have 
dropped fees at thousands of Fee Demo sites. Instead, they continue to 
charge non-compliant fees nationwide. The BLM has not dropped a single 
one of their 97 fee programs, and in fact recently announced plans to 
add 38 new fee sites in six states, without following the requirements 
for public participation specified in the FLREA.
    In a June 2005 press release the Forest Service said, ``All Forest 
Service units that charged recreation fees under the old fee demo 
program reviewed their current fee sites and determined whether or not 
their sites meet requirements as outlined under [the new law]. As a 
result approximately 500 day-use sites will be removed this year . . 
.'' At that time we obtained the list of 480 sites referred to, and 
compared it to the list of over 4,500 Fee Demo sites the Forest Service 
had reported as in effect on December 8, 2004. Their claim that 480 
sites were being dropped because of the new law turned out to be 
unsupportable because more than half of those sites either were never 
listed as Fee Demo sites, were already closed, are within HIRAs that 
continue to charge fees to enter the larger area, will have fees 
reinstated as soon as planned improvements are completed, or for some 
other reason.
    For example, the Rio Grande National Forest in Colorado listed 
eleven sites where fees were being dropped, but all are campgrounds 
that had been charging under Land and Water Conservation Fund Act 
authority, not Fee Demo. Six sites along the Paint Creek Corridor on 
the Cherokee National Forest in Tennessee had already been closed due 
to flood damage. Four sites on the Humboldt-Toiyabe National Forest in 
Nevada dropped their shoulder-season fees but retained fees during 
prime season when concessionaires operate them. The Squire Creek 
trailhead on the Mt. Baker-Snoqualmie Forest in Washington had already 
been closed because its access road is washed out. For the Justrite 
Campground on Idaho's Payette National Forest, the Forest Service 
comments state, ``Fees were authorized for this site under RFD, with 
the intention of charging fees when improvements were made. They were 
not made, so fees were never charged. Site is being dropped from fee 
program for now.'' So it never did charge fees, but there are plans for 
it to become a fee site in the future. On the Bridger-Teton Forest in 
Wyoming, the Bridge and Lynx Creek Campgrounds were listed as dropped 
sites with the comment, ``We stopped charging a fee here several years 
ago.'' Yet all of these were included in the 480 sites that the Forest 
Service claimed were Fee Demo sites that did not meet the new criteria. 
It is hard not to conclude that the Forest Service was deliberately 
misleading the public and the Congress with this list.
    In Colorado, the Forest Service is citing the FLREA as an excuse to 
reduce services while implementing more fees. In Heeney, Colorado, 80% 
of the town turned out for a contentious meeting on September 11, 2005, 
at which White River National Forest officials announced that they are 
increasing entry fees at Green Mountain Reservoir while adding 
restrictions on OHV use and removing some toilet facilities and 
campfire pits. Campers will be required to bring their own portable 
toilets, carry out their human waste, and provide their own metal fire 
pans ($100). In the Summit Daily News, White River National Forest 
Recreation Program Manager Rich Doak is quoted as saying, ``In our 
development sites we've been told they need to pay for themselves, or 
we need to get rid of them.'' The article goes on to say, ``Doak 
attributed the cuts to decisions made in Washington. `Last December, 
Congress passed fee legislation in the Federal Land Recreation 
Enhancement Act,' he said, adding that the local district rangers were 
simply following federal orders.'They're being forced to do a lot of 
what they're doing here,' he said. `As for doing nothing, we can't 
legally do that. So there's no easy answer.'
    Mr. Doak's remark that ``In our development sites we've been told 
they need to pay for themselves, or we need to get rid of them,'' 
reflects the fact that decisions on whether or not to charge fees are 
being driven by two similar agency policies, the Recreational Site-
Facility Master Planning process (RS-FMP) within the Forest Service and 
the Cost Recovery doctrine in the BLM. These policies both call for 
recreational areas to be ``sustainable'' (i.e. profitable) and to have 
a marketable ``Niche.''
    Under the Forest Service's RS-FMP, recreational sites, trails, 
campgrounds and roads are being graded as to their sustainability and 
Niche. Those that are not profitable (including unprofitable fee sites) 
will be closed to public use or in the case of a trail be allowed to 
grow back to their natural state. The BLM's Cost Recovery policy calls 
for much the same thing.
    These doctrines are currently being incorporated into Forest Travel 
Plans and Forest Management Plans and into the Resource Management 
Planning process in the BLM. While Congress has vetted neither of these 
policies, they are being applied nationally with enormous implications 
for how the FLREA will be implemented and for the overall availability 
of diverse recreational opportunities on our public lands.
    RS-FMP and Cost Recovery will certainly have a negative impact on 
local tourist economies as recreational opportunities disappear. They 
will definitely restrict public access to public land despite the fact 
that the agencies receive a vast majority of their funding from the 
taxpayer through Congressional appropriations. The implication is that 
most, if not all, recreational sites, areas, and uses must be 
profitable, through fees and permits, or they will be closed.
    These policies conflict with the language in the FLREA protecting 
the public's right to access dispersed areas of public land and to use 
minimally developed sites without the burden of fees. The doctrine of 
``fee or close'' represented by the RS-FMP and Cost Recovery leaves the 
agencies' ability to comply with the FLREA in question.
    The Western Slope No-Fee Coalition also has great concern regarding 
the establishment and the effectiveness of the Recreation Resource 
Advisory Committees (RRACs) as called for in the FLREA. These RRACs are 
composed of 11 members mainly from various public land user groups and 
the outfitter/guide community. Their purpose is to advise the 
Secretaries of Interior and Agriculture on implementation, expansion or 
elimination of Standard Amenity and Expanded Amenity fee sites.
    Whether or not it is appropriate for the agencies to implement a 
fee area should be guided by clear, concise legislation that spells out 
exactly what is allowed and what is not. Public representation through 
the RRACs should be limited to recommendations regarding amounts of 
fees and how those revenues might be best spent, not making 
recommendations or judgments as to what the law allows. The ambiguous 
and self-contradictory language in the FLREA as written has already led 
to excessive fees on public land.
    While the groups represented on the RRACs come from diverse 
interests, almost all are dependent on the agencies involved to 
continue with their particular activity on public land. These groups 
will have little leeway in weighing various proposals concerning fee 
implementation, and the agencies will have undue influence over the 
RRAC's recommendations. Over-riding Forest Service and BLM policies, 
such as Cost Recovery and RS-FMP, leave RRACs and RRAC members largely 
with only two choices for recommendations: to implement a fee program 
at any given site or have it closed to public use.
    Further narrowing the RRACs' ability to make open recommendations 
to the Secretaries is the effort underway to limit the number of RRACs 
to be established nationwide in spite of language in the FLREA 
requiring one RRAC per state. In fact the Forest Service and BLM have 
spent much time and have held numerous ``lessoning sessions'' to try 
and limit the number of RRACs to one or two nationwide. That would 
severely limit local input on implementing access fees. Another 
approach being considered by the agencies is to have existing RACs 
serve as the RRACs called for in the new law, or to create recreation 
subcommittees of existing RACs. In either case, recreational interests 
and user/local input would be minimized.
    The Federal Lands Recreation Enhancement Act never received a vote 
on the floor of the U.S. House of Representatives and was never 
introduced in or considered by the U.S. Senate. This major change in 
public land policy was enacted without public participation. Like Fee 
Demo before it, the FLREA creates incentives within the agencies to 
push the boundaries on not only what is allowed under the law, but also 
what is appropriate in tern's of public interest.
    We urge the distinguished Members of this Subcommittee to take 
decisive action to remedy the excesses and abuses in implementation 
that are occurring on our public lands and repeal the provisions of the 
FLREA that relate to the Forest Service, Bureau of Land Management, 
Bureau of Reclamation, and Fish and Wildlife Service.
    Thank you for the opportunity to present these facts and 
observations about implementation of this law by these two agencies. I 
am available for any questions you may have.

    Senator Craig. Kitty, thank you very much, and let me thank 
you for your organization's due diligence. I think that is 
extremely important, that the public be fully engaged in this 
and that we hear from you in that effort. Your statement will 
be a part of the record.
    Now let us turn to Aubrey King, King & Gorin, representing 
Western States Tourism Policy Council, Southeastern Tourism 
Society, National Alliance of Gateway Communities, and National 
Association of RV Parks and Campgrounds. Aubrey, welcome before 
the committee again.

STATEMENT OF AUBREY C. KING, KING & GORIN, REPRESENTING WESTERN 
   STATES TOURISM POLICY COUNCIL, SOUTHEAST TOURISM SOCIETY, 
    NATIONAL ALLIANCE OF GATEWAY COMMUNITIES, AND NATIONAL 
       ASSOCIATION OF RV PARKS AND CAMPGROUNDS, BOWIE, MD

    Mr. King. Good afternoon, Mr. Chairman, Senator Thomas. I 
am Aubrey King and it is indeed a pleasure to appear before you 
to discuss what certainly I think we can all agree is a very 
significant topic. I request that my full written comments, as 
mentioned earlier, be included in the record of the hearing.
    I might add, by the way, that it is a pleasure for me to be 
associated with the panel here and to really commend these 
folks for their obviously heartfelt love of the public lands 
and love of recreation on those public lands. I think that is 
certainly a love that we all share and I hope we all are 
heading in the same direction in terms of trying to develop a 
program and a scheme that will maximize the right of the public 
to enjoy those public lands.
    I also applaud the subcommittee for its efforts to hold the 
agencies to very strict standards in terms of implementing what 
is a novel, innovative, perhaps in some instances a disturbing, 
program. I think we have certainly heard from testimony today 
and from your comments, Mr. Chairman, and Senator Thomas's 
comments many of the really hard questions that we really need 
to raise about the implementation of the recreation fee 
program.
    The four organizations that I represent here supported the 
recreation fee demonstration program as an equitable means of 
generating needed revenue from the Federal lands by collecting 
fees from those who receive the greatest benefit from those 
lands, the visitors and the users. It was realized that the fee 
demo program was flawed, that unjustified fees were charged in 
too many places, too frequently, that it suffered from a lack 
of inter-agency and inter-governmental coordination, and that 
local input into the program was minimal.
    With the enactment of the Federal Lands Recreation 
Enhancement Act last December, Congress had the vision to 
correct many of those flaws in fee demo and move forward with a 
promising 10-year program. It is noteworthy, for example, that 
following the act the Forest Service promptly eliminated 435 
sites that were relatively undeveloped.
    Now, while it has only been a little more than 11 months 
since the FLREA was passed, we do have some preliminary 
thoughts and suggestions about the program. While the five 
agencies involved have worked diligently to develop plans and 
guidelines, the rate of implementation progress we believe has 
been frustratingly slow. We recognize that the agencies have to 
answer administratively to the Office of Management and Budget 
and politically to determined critics of any fee program. But 
we are concerned that it looks like it is going to take 2 years 
for this 10-year program to be fully operational.
    This is especially important, I might add, with regard to 
the recreation resource advisory committees. As we have heard 
reflected several times today, we are all looking to those 
advisory committees to perhaps perform miracles for us in terms 
of determining what fees are fair and appropriate and which are 
not. But yet the fact of the matter is that now, again coming 
onto a year after passage of the act, there is not a single 
recreation resource advisory committee out there, and we would 
like to urge the agencies and Congress to do everything 
possible to expedite their establishment so that they can 
perform this very necessary role.
    It is regrettable, we think, that the agencies have been 
unable to better utilize the experience and expertise of some 
very fine private companies, such as the Disney Corporation or 
Universal Studios or American Express and other credit card 
companies and banks that have had vast experience for many 
decades running complex fee operations serving large and 
diverse publics. Surely, we think, some means can be found for 
connecting the agencies to those sources of practical advice.
    In turning to the Recreation Resource Advisory Committees, 
or RRACs, which we applaud their establishment certainly by 
Congress in the act, we are concerned, however, about the 
suggestion that there are apparently now to be created 
subcommittees of existing BLM State RACs, with new State and 
regional RRACs created where there are no BLM resource advisory 
committees.
    Now, while we understand that this process may save money 
and avoid duplication of advisory committees that perhaps are 
doing very similar work, there would seem to be some potential 
for conflict and confusion here as well between the BLM RACs 
and the recreation fee RACs, which again are to be set up 
apparently as subcommittees. Now, will the decisions or 
recommendations of the RRACs have to be reviewed or cleared by 
the full RACs, and exactly what will those relationships be? We 
obviously think this needs much clarification.
    We also urge that RRACs be used to consider other 
recreation issues beyond the fee program. Frankly, you are 
going to be getting together some folks with substantial 
experience and expertise, knowledge of local recreation needs 
and problems, and we think it would be highly desirable to have 
them open their agenda and include other recreational issues. 
It is possible--in fact, we are glad to see that the agencies 
are apparently heading in that same direction, as was reflected 
in the testimony earlier.
    Furthermore, we recommend that, with regard to the RRACs, 
some provision for local gateway business interests--and we are 
talking about businesses here that are not operating directly 
on the Federal lands--that they should have a role as part of 
this advisory process as well. For example, in many instances 
there might be concern over the use of fee revenue to fund 
activities, perhaps campground expansions, perhaps other 
programs, that are already being met in that local community 
and would, in fact, be detrimental to the economic interests of 
businesses already functioning there.
    Finally, in conclusion, we have several quick 
recommendations for you. One is that I think none of us want to 
see the fee program looked upon as simply a means of generating 
revenue. It should be regarded instead as a part of a new, more 
innovative and flexible way of managing the Federal public 
lands.
    The program should encourage closer partnerships between 
the Federal land agencies, State park agencies, State tourism 
offices, and other agencies, the private sector, and gateway 
communities. The program should be regarded as a means of 
focusing greater attention by the land agencies on visitor 
services and management. For example, as a means of better 
managing seasonal visitor fluctuations, coordinating inter-
governmental fees and encouraging use of underutilized Federal 
lands.
    The bottom line we believe is that we all want to provide 
the highest quality recreation experience for the greatest 
number of people on the Federal lands. We think that the fee 
program, the recreation fee program, is a tool, a means to 
accomplish that goal, and we commend it for your further study.
    [The prepared statement of Mr. King follows:]

  Prepared Statement of Aubrey King, King & Gorin, Government Affairs 
 Consultants, Representing the Western States Tourism Policy Council, 
  the Southeast Tourism Society, the National Association of RV Parks 
  and Campgrounds, and the National Alliance of Gateway Communities, 
                               Bowie, MD

                       ORGANIZATIONS REPRESENTED

    This testimony is presented on behalf of the following four 
organizations, all of which very much appreciate this opportunity to 
present their views regarding implementation of the Federal Lands 
Recreation Enhancement Act (REA), signed into law by President Bush 
last December as P.L. 108-447:
The Western States Tourism Policy Council
    The WSTPC is a consortium of thirteen western state tourism 
offices, including Alaska, Arizona, California, Colorado, Hawaii, 
Idaho, Montana, Nevada, New Mexico, Oregon, Utah, Washington and 
Wyoming. The mission of the WSTPC is to support public policies that 
enable tourism and recreation to have a positive impact on states and 
communities in the West.
The Southeast Tourism Society
    The STS represents public and private tourism and recreation 
interests in eleven southeastern states, including Alabama, Florida, 
Georgia, Kentucky, Louisiana, Mississippi, North Carolina, South 
Carolina, Tennessee, Virginia and West Virginia. Thorough its 
affiliate, the Southeast Tourism Policy Council, the STS supports 
public policies that enhance the positive contributions of tourism and 
recreation in the Southeast.
The National Association of RV Parks & Campgrounds
    ARVC is the national trade association that represents the 
interests of the commercial RV park and campground industry in the 
United States. More than 3400 RV parks and campgrounds are member of 
ARVC.

The National Alliance of Gateway Communities
    The NAGC represents the communities that serve as gateways for 
millions of domestic and international visitors to our national parks, 
forests and other Federal public lands.

                               BACKGROUND

    Each of these four organizations were longstanding supporters of 
the recreation fee demonstration program that was the predecessor for 
the ten-year fee program enacted as REA.
    They first supported fee demo as a means of providing additional 
revenue sorely needed by the National Park Service, USDA Forest 
Service, Bureau of Land Management and U.S. Fish & Wildlife Service and 
ensuring that most of that revenue would be spent on facilities and 
programs on the local land site where it was collected. But the fee 
demo program came to be seen as potentially much more than another 
source of revenue. In particular, it came to receive support from the 
tourism and recreation industries because of its potential for focusing 
more attention on visitor services, encouraging more innovative 
marketing approaches for the Federal lands and fostering greater 
intergovernmental and interagency cooperation and collaboration, as 
well as closer cooperation between the Federal agencies and the private 
sector and local communities.
    While sensitive to the arguments that the Federal lands have always 
been owned by the public and their management and maintenance is funded 
already through taxes on the public, fee demo supporters believed it 
was equitable to require those receiving more enjoyment and benefits 
from their use of the Federal lands to assume more of the burden of 
their use.
    As the same time, shortcomings in the fee demo program were 
apparent. Too often fees were charged for areas and activities that did 
not provide commensurate value to visitors. Too often fees were levied 
without being part of management or business plans and without 
resulting in improved visitor services. While there were some 
encouraging attempts to develop coordinated interagency fee projects, 
they were too few and too limited.
    With the 2004 enactment of REA, Congress took important steps to 
extend the fee demo program for ten years and to correct many of its 
most egregious flaws. Fees were prohibited on certain activities or 
services and for certain persons or places and allowable fees were more 
clearly delineated. The opportunity for public participation in the fee 
implementation process was provided, including the establishment of 
Recreation Resource Advisory Committees. A national interagency pass, 
the ``America the Beautiful Pass'' and regional multi-entity passes 
were authorized. The Bureau of Reclamation was included in the program. 
Gateway communities were especially pleased that REA authorizes 
cooperative agreements with governmental and nongovernmental entities 
in gateway communities for fee collection and processing services while 
retaining a percentage of revenues collected, as well as allowing 
cooperative agreements for provision of emergency medical and law 
enforcement purposes.

                           REA IMPLEMENTATION

    It has been nearly eleven months since REA was signed into law on 
December 8, 2004. During that time all five agencies have worked 
diligently to develop plans and guidelines for implementing the 
program.
    Progress. The Forest Service, which was probably more criticized 
than any other agency for its implementation of the fee demo program, 
responded quickly to the tighter fee requirements of REA by eliminating 
480 relatively undeveloped sites, while retaining fees at 4,024 sites. 
Of course, this action suggests that those sites should probably have 
never been included as fee sites under fee demo. Apparently, the Forest 
Service took too literally the concept of fee demo as an experimental 
program.
    The interagency task forces created to develop guidelines for 
implementation of the new fee program have reached out to the public 
through no fewer than fifteen ``listening sessions'' around the 
country. Eleven listening sessions have been devoted to the structure 
of the RRACs, particularly as to whether there should be state, 
regional or national RRACs. Four other listening sessions were devoted 
to the development of the ATB Pass. Having participated personally in 
three of these listening sessions, I can attest that they have been 
open and productive, with multiple agency staff joined by a dozen or 
more representatives from the public, the recreation industry and 
universities.
    It is understandable that the implementation process has been 
slowed administratively by the necessity of complying with an array of 
requirements pertaining to the Federal contracting process and 
mandatory reviews by the Office of Management and Budget of all agency 
efforts to collect information from the public. Pricing analyses to set 
fee levels have used six different focus groups develop benchmarks with 
comparable fees charged by similar entities such as State parks.
    The most tangible progress to date has been issuance of final 
public involvement guidelines, Notice of Guidelines for Public 
Involvement in Establishing Recreation Fee Areas and for Demonstrating 
How the Public Was Informed on the Use of Recreation Fee Revenues, 
published in the Federal Register, Vol. 70, No. 187 (September 28, 
2005). In addition, the agencies have decided to create new recreation 
``subcommittees'' of existing state BLM Recreation Advisory Committees 
as RRACs, supplemented by new RRACs in states or regions without BLM 
RACs. A general interagency recreation fee agreement has also been 
finally drafted and is now being circulated for review.
    Agreement has also apparently been reached on the distribution of 
revenue from the ATB Pass. The agencies hope to be able to issue a 
Request for Proposal for administration of the ATB Pass within the next 
30-60 days.
    Concerns. Clearly, the agencies are taking great pains to be 
judicious and thorough, especially when they are dealing with a program 
that has been as politically controversial as the recreation fee 
program. Nonetheless, we are concerned that nearly a year after 
enactment of the new recreation fee program the agencies are still in 
the process of developing their plans and guidelines. No one has yet 
been appointed to a single RRAC and by the agencies' own estimate, the 
ATB Pass will not be in place until early 2007. It is unfortunate that 
a ten-year program requires more than two years to be fully functional, 
especially when it could build upon the experience of nearly a decade 
of the fee demo program.
    Expertise Missed. It is also regrettable that the agencies have not 
been better able to utilize the experience and expertise of companies 
with vast experience successfully designing and implementing large fee 
programs, such as the Disney Corporation, Universal Studios, American 
Express and other credit card companies and banks. After decades 
running complex fee operations dealing with large and diverse publics, 
such companies could provide invaluable insights and advice. But, 
apparently for reasons both legal and political, they have not been 
directly consulted.
    RRACs. A major justification for using existing BLM State RACs is 
that this will minimize the costs of establishing and administering new 
RRACs. We would like to have clarification, however, of how these 
``subcommittee'' RRACs will relate to the existing BLM RACs. Will these 
RRAC subcommittee decisions and recommendations have to be reviewed and 
endorsed by the full RAC?
    We also have two recommendations regarding future RRACs. One is 
that the local gateway community businesses that do not conduct 
business directly on the Federal lands should have representation on 
the RRACs. Pricing decisions made concerning recreation fees can have a 
significant impact on those local businesses, which often must compete 
with recreational facilities, such as campgrounds, located on the 
Federal lands. Similarly, local businesses can be dramatically affected 
by decisions as what projects or facilities will be funded by 
recreation fee revenue. If facilities already in competition with 
private businesses are able to modernize, upgrade or expand their 
operations using fee revenue, those local businesses might suffer 
economic loss.
    Our second recommendation is that the jurisdiction of RRACs should 
be expanded beyond the recreation fee program. There are many other 
recreation issues that would benefit from review and consideration by 
such a representative advisory body, including programs and projects 
and visitor services not related to recreation fee revenue.
    Beyond the Recreation Fee Program. We have two recommendations for 
future consideration by Congress. One is that the U.S. Army Corps of 
Engineers be included in the recreation fee program. As arguably the 
provider of more recreation than any other Federal agency, it should 
have the same authority to collect recreation fees as the five agencies 
now included. This would also avoid the confusion that now results when 
different agencies that manage adjacent sites, such as a Corps Lake 
surrounded by a National Forest, have different fee policies.
    Our second recommendation is based on the belief that a fundamental 
justification for the recreation fee program is that revenue collected 
from user fees should be retained where it is collected to benefit 
those users. We believe this same fee retention principle should be 
applied to other user fees, such as those paid by ski areas and forest 
homeowners.

                              CONCLUSIONS

    The Western States Tourism Policy, the Southeast Tourism Society, 
the National Association of RV Parks and Campgrounds and the National 
Alliance of Gateway Communities support the recreation fee program. We 
support its implementation as intended by Congress. While the five 
Federal agencies included in the program have worked carefully to 
develop implementation plans and guidelines, we urge that its 
implementation be expedited as much as the law and administrative 
practice allow.
    We further urge that as the recreation fee program is implemented, 
the following principles should be followed:

  <bullet> The program should never be viewed simply as means of 
        generating revenue for the Federal land agencies.
  <bullet> The program should instead be regarded as part of a new, 
        more innovative and flexible way of managing the Federal public 
        lands for the benefit of our nation.
  <bullet> The program should be regarded as encouraging closer 
        partnerships between the Federal land agencies, State Park 
        Agencies, State Tourism Offices and other agencies, the private 
        sector and gateway communities.
  <bullet> The program should be regarded as a means of focusing 
        greater attention by the Federal land agencies on visitor 
        services and management, for example, as means of managing 
        seasonal visitor fluctuations, coordinating intergovernmental 
        fees and encouraging use of underutilized Federal lands.

    Senator Craig. Aubrey, thank you.
    Now let me turn to some questions of you, because I 
appreciate all of your testimony. I will ask this question of 
Mr. Stalcup, Mr. Young, Ms. Benzar. I would like each of you to 
take a shot at answering the following question. Maybe, Kitty, 
you could start. On June 9 the Forest Service stated that they 
had reviewed all of their fee sites and claimed to have dropped 
480 sites that were not in compliance with the FLREA. What can 
you tell me about how this affected fee implementation in your 
areas?
    Ms. Benzar. Thank you, Mr. Chairman. We got that list. 
There were 480 sites on the initial list. It was subsequently 
revised down to 435. We compared that side by side with the 
list of 4,500 fee demo sites that were in effect as of the date 
of enactment. What we found is that more than half of the sites 
that were supposedly dropped did not meet the definition of a 
previous fee demo site that was being dropped because it did 
not meet the requirements of the new act.
    There were a variety of those categories. Some of them had 
already been closed. Some of them never had been listed as fee 
demo sites to begin with. Some of them, they were planning to 
add a few amenities and then reopen them again as fee sites, so 
that they were not really being dropped. I have some examples 
that I had in my notes that I ran out of time for. On the Rio 
Grande National Forest in Colorado, they listed 11 sites where 
fees were being dropped, but all of those had been charging 
under the Granger Act authority and they had not ever been fee 
demo sites.
    There were six sites on the Cherokee National Forest in 
Tennessee that had been closed due to flood damage. On the 
Humboldt-Toyabe National Forest in Nevada, they dropped sites 
from some campgrounds, but they only dropped them in the 
shoulder season. During the prime season when most people 
visit, those are operated by concessionaires and continue to be 
fee sites.
    On the Mount Baker-Snoqualmie Forest in Washington, there 
was a trailhead that was already closed because its road was 
washed out. In Idaho's Payette National Forest, the Justrite 
Campground, they had been authorized to charge fees, but they 
had never made any of the upgrades they planned to do, so they 
never had charged a fee there. In Wyoming, the Bridge and Links 
Creek Campgrounds were listed as having had fees dropped years 
before, and that is a direct quote. The comments were there. It 
said ``We stopped charging a fee here several years ago.''
    So none of those that I just mentioned and many other 
examples--more than half the sites on the list, in fact, did 
not meet that criteria. And more importantly, that list did not 
even begin to touch the areas that we have been primarily 
concerned about and that all three of us have testified about 
here today, such as the Red Rocks Pass, Mount Evans, Arapaho 
National Recreation Area, the Adventure Pass in southwestern 
California, the Northwest Forest Pass, the entire White 
Mountain National Forest in New Hampshire.
    These are huge areas where essentially either the entire 
forest or darn near the entire forest is a fee area, and that 
dropped site list did not address any of those.
    Senator Craig. Well, thank you. It sounds like latent 
housekeeping instead of response to the implementation of the 
law.
    Ms. Benzar. More than half of it would fit that 
description, Mr. Chairman.
    Senator Craig. Mr. Young, would you wish to comment?
    Mr. Young. Yes, Mr. Chairman. Thank you. I did some field 
work also in our area, mostly the Mount Baker-Snoqualmie 
National Forest, and, as I testified earlier, I found that the 
vast majority of trails were out of compliance with the law, 
not the 18 that were on the list, the initial dropped list, nor 
the 12 on the revised drop list.
    But I did do some special investigation on those on the 
dropped list and found that about a third of those were 
actually not previously charging for fees or for other reasons 
realistically were not dropped from the list. So I find the 
Secretary's statement that the law has changed the way that 
they have enforced fees in our area not to be true. I find that 
by and large, with very few exceptions, the fees under the new 
law are identical to the demo fee program prior to this 
enactment.
    A few specific examples would be Huckleberry Creek, which 
was officially dropped from the list. As it turns out, 
Huckleberry Creek is .9 miles long, but of course once you go 
that .9 miles you hit national park land and it goes for 
another 12, 15 miles. So effectively they are giving away a 
national park trail.
    Boulder River has never had a sign or charged fees. 
Similar, a short trail. Another trail that they listed, Clear 
West Peak; it takes about 20 miles of rough dirt road to get to 
this and it is the end of a forest road, strewn glass, 
whatever, no trailhead signs, no development whatsoever. It 
would be probably a 3-hour round trip hike for a hike--or a 
round trip drive, for a hike that is maybe 45 minutes. This is 
one that they decided to drop.
    So I find that there is very little evidence of their 
taking the new laws to heart. If I might expand on that just a 
little bit, I did want to mention the special recreation permit 
fee. I find this disturbing in the way that it is being applied 
to several uses in our area, and I believe Senator Thomas spoke 
to this. It allows a lot of leeway in requiring permits of 
people that should not be required--this is my opinion--should 
not be required to have fees.
    Typically, historically the special use permit was required 
of commercial use, and that everybody understands. If it is a 
commercial use, you should have to have it permitted. However, 
to generalize the special recreation permit requirement to 
noncommercial or ORV use or horseback riding or a family picnic 
I think is dangerous without further refinements of the law.
    Thank you, Mr. Chairman.
    Senator Craig. Thank you.
    Mr. Stalcup.
    Mr. Stalcup. Thank you, Senator. As I mentioned before, on 
my map I have shown that around Sedona none of the fee demo 
sites have changed--the same fees, the same signage. In the 
Push Ridge Wilderness Area down near Tucson and up the road, 
the Lemon Mountain Highway, the only thing that they have 
dropped there are charges for pulling out at some of the scenic 
areas. Everything else there is as it was during the fee demo 
program. So there has been very little change in Arizona as far 
as I can see.
    Thank you, Mr. Chairman.
    Senator Craig. I think we would get great public reaction 
if we found out they were charging for a view. Maybe they felt 
the same way.
    Mr. Stalcup, let me stay with you with the next question. 
In your testimony you say that Howard--how do we pronounce 
that? I think it is ``ZANN-ei-zer''?
    Mr. Stalcup. I am sorry?
    Senator Craig. The author of the 1964 Wilderness Act.
    Mr. Stalcup. Yes, sir. I do not know how to pronounce it 
either.
    Senator Craig. I think I am close. But anyway, the words 
were used, his words, ``untrammelled,'' to define wilderness, 
and he defined ``untrammeled'' as ``not being subject to human 
controls and manipulations that hamper the free play of natural 
forces.''
    I wonder how you feel, would feel if the agency limited 
entry into wilderness areas because their monitoring data 
suggested overuse by the public?
    Mr. Stalcup. Well, first of all I would like to comment on 
that definition of ``untrammeled.'' It reads like poetry, and I 
think it is true.
    Senator Craig. We all agree.
    Mr. Stalcup. Around Sedona, we are surrounded by wilderness 
areas, and right now we are paying to use our wilderness areas 
and it is not right. It is not fair to the people that come 
from around the United States and from around the world. They 
come to Sedona to hike our mountains, and it is not fair to 
charge for that service.
    The lady, the hiker, whether it is a boy or a girl, the 
hiker in that image there, can you imagine anyone wanting to 
charge that person for doing exactly what he is doing? He is 
enjoying what God put here for us to enjoy. So it is not if the 
Forest Service is charging. They are charging us. That person, 
if that site is anywhere near Sedona, paid to do what he is 
doing today if he followed the law.
    I am afraid I have been a scofflaw. I have not bought a Red 
Rock pass, and I was waiting to get caught. But the other day I 
was at a trailhead and I saw a small sign on the trailhead. It 
is the only place in Sedona I have seen this sign, and it says 
if you have a Golden Age Passport, which I do, then you do not 
have to pay the fee to park on Forest Service land.
    So although I thought I was a scofflaw, under the new law I 
am not. But it is not fair even then to make--to give me better 
privileges than the rest of the people who are younger than I 
in this room, to do the same thing that person is doing.
    Thank you.
    Senator Craig. Mr. Young, after reading your testimony I 
think you have made some extremely good points and I would urge 
the agencies to consider. But I am troubled by your apparent 
concern about outfitters and guides and the recreation 
industry, like REI, being asked to pay to take clients on 
Federal lands. Here is why. I have long been concerned by 
companies like REI and others who make literally millions of 
dollars off selling the image of recreating on national forests 
and in our national parks, but contribute almost nothing to the 
operation of those programs on those lands. It is kind of--it 
is clearly profiting from a public resource. I do not think 
there is any question about it, and you speak most eloquently 
of that public resource.
    I have long been frustrated by many of these companies, 
like REI or the Sierra Club or Patagonia, who lobby to end 
commodity extraction on Federal lands, yet seem to want to 
complain about being asked to help pay for the upkeep of these 
lands. Ultimately, somebody is going to pay for the management 
of these lands.
    Having generally succeeded in ending the commodity 
programs--and I think that is generally true, and I lump all of 
these groups together as having been a phenomenally effective 
lobby over the years in passing given public policy that has 
changed the character of the use of our public lands--I am 
wondering why you think these companies and groups should not 
have to pay for managing the resource that they are benefiting 
from and in some instances clearly profiting from?
    Mr. Young. A very insightful question, and this brings to 
mind my impression of the Senate over the years as a very 
deliberative body and a very impressive ability to get to the 
heart of matters. Good question, and I will try to restate to 
make sure that I understood the question correctly. Specific 
example REI, who sells recreation gear and makes a profit off 
of that gear for people that can only use public land or 
perhaps some small private land locations. Yet their profits go 
into their company and not into the maintenance of the public 
land that is required for the use of that gear. Is that sort of 
the question?
    Senator Craig. Or I could say it another way.
    Mr. Young. Okay.
    Senator Craig. If the public lands did not exist, would REI 
exist?
    Mr. Young. Probably not, and that is----
    Senator Craig. Not in their size or not in their 
profitability. That is for sure.
    Mr. Young. Yes. Actually, that is a very good matter to 
pursue. I would have to agree with you on that. I think there 
is an imbalance, and to take the other end of the spectrum, an 
oil company that goes into a wilderness area are taxed and pay 
for the developments that they do on that land.
    Senator Craig. Let us restate that. Oil companies no longer 
go into wilderness areas. They cannot by law.
    Mr. Young. Fortunately, although I understand ANWR is on 
the board again.
    Senator Craig. It is not a wilderness area.
    Mr. Young. Oh, it is not? Oh, okay.
    Senator Craig. By definition or at least by law. Some may 
view it as that, but it is not.
    Mr. Young. So I would have to say I am not really qualified 
to suggest how this could be done. But I understand and I 
agree. I do believe that commercial entities operating on 
public land need a permit, need supervision, and need to pay 
for that right. That is only appropriate.
    I would like to differentiate that from charging for 
nonprofit groups or private people or family groups, where they 
are not profiting and they are there purely for recreation.
    Senator Craig. So do I. I agree with you.
    That is my frustration. I guess I have not been the 
harbinger of doom over a good many years here, but I have 
cautioned, and loudly and publicly, certain groups for 
advocating one thing when the consequence of that advocacy, if 
successful--and in many instances it has been--would cost 
somewhere else. We are now in a phenomenal budget bind with our 
public land resource agencies because they no longer pay for 
themselves. They used to in large part. Some arguably, if you 
look at total resource value, extractive resource value, they 
may still do so. That may be arguably so with the BLM. 
Certainly not with the Forest Service today.
    As a result of that, this Congress has not yet come up to 
speed on funding adequately the needs of these management 
entities to meet resource needs, and we are begging and 
borrowing from one and stealing from another. It is frustrating 
to me when I see resources maybe ineffectively managed or 
trammeled and the resource, the public resource, is not there 
to effectively meet those management challenges because the 
revenue flow is gone from what was historically the case, and 
we have not been able to effectively replenish it.
    I have also cautioned the public very clearly over the 
years to be careful of fees. It is a way of replenishing a lost 
resource, a revenue. That is why we were very careful in trying 
to craft--although I opposed the rec fee situation that is now 
before us, I was not successful. That is why I want to make 
sure that there is a full compliance under the prescription 
that is set forth in the law.
    But I guess in looking at other resources that is my 
frustration. There are clearly those who do not operate by 
definition on public lands, but they profit mightily from 
public land access by those who seek their services or what 
they provide. I am also one that does not like to levy taxes, 
but we have done that uniquely so over the years for certain 
maintenance levels.
    Anyway, that was my question. That is the thrust of where I 
think this Congress is going to look and explore over the years 
as it relates to how do we sustain effectively financed 
management agencies for the purpose of monitoring, controlling, 
and managing these very valuable resources.
    Aubrey, let me get to you with one last question. In 
several places in your testimony you have called for Congress 
to make changes in law. Are you completely certain that you 
really want Congress to reopen the law? I mean, if we reopen it 
I have to believe that there is a high probability that 
Congress could decide to scrap many of the provisions that your 
clients have supported in the past. I am always, as I should 
say, cautious about dealing with myself. Are you willing to 
take that risk when you speak to Congress addressing it?
    Mr. King. Mr. Chairman, you are perceptive as always. That 
is indeed a difficult question to answer. You put difficult 
questions I think to all of us. I think the bottom line is we 
do not want to see dramatic wholesale changes in the Federal 
Lands Recreation Enhancement Act. If that is the price that 
modifications would require, I do not think we would be 
supportive of that at this point in time.
    We would hope that some of the major recommendations that 
we had made, for example expediting the process, getting those 
recreation resource advisory committees set up and in place, 
expediting the establishment of the America the Beautiful Pass, 
we think those can certainly be done administratively. I think 
certainly one of our recommendations, with regard to the 
recreation resource advisory committee, to provide 
representation for local gateway businesses that perhaps are 
not involved directly on the lands--we recognize that it would 
require a change in the law and perhaps it is inappropriate to 
move that at this particular time.
    We would nonetheless like to call attention to the problem 
that underlies that suggestion, the problem being that we 
clearly want to avoid instances where expenditures, as a result 
of recreation fee revenue, are used in a manner that competes 
unfairly with local businesses--campgrounds, other operations 
in the communities, certainly.
    Senator Craig. Well, I think those are wise and just 
observations. In fact, when Lynn Scarlett was testifying 
earlier and she mentioned the building of a facility that had 
showers--or maybe, did you, Marv, mention that?
    Mr. Stalcup. No.
    Senator Craig. No, I guess it was--I leaned over to my 
colleague here and said: Why showers? Are there not private 
showers? That is the kind of thing that concerns me, that we 
begin to create duplicative resources or services that can in 
effect, adjoining these properties, be done by the private 
sector, whereas the public resource could be used for other 
purposes.
    Mr. King. Absolutely. Frankly, we think that the first rule 
should always be to look to the community, look to the 
businesses outside the park, and see if they are capable and 
interested in providing that service or that needed function, 
and if so let them do it.
    That also is beneficial to the lands. It avoids other 
construction, other activities on the lands that are perhaps 
unnecessary.
    Senator Craig. Well, to all of you, thank you very much for 
your due diligence and your constant diligence as it relates to 
our public resources. As we monitor and observe and shape what 
the administrative agencies are going to do with this new 
public policy, we will do our diligence and watch it very, very 
closely. I do believe that advisory groups are important, that 
there is appropriate representation of stakeholders. I think 
these are extremely valuable templates for assisting these 
agencies in making decisions. I have got one opinion, they have 
got another. I am going to probably give a little bit as it 
relates to combining entities together for the sake of economy 
as long as it does not disrupt effective representation into 
the right kind of input as to the implementation of this new 
law.
    Thank you all very much for being with us. We appreciate 
it. The committee will stand adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                 Washington, DC, November 17, 2005.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on Public Lands and Forests 
on the implementation of the Federal Lands Recreation Enhancement Act, 
P.L. 108-447.
    Thank you for giving us the opportunity to respond to you on this 
matter. Sincerely,
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]

             Responses of Assistant Secretary Lynn Scarlett

    Question 1.
    A) Please provide for the Committee a spreadsheet that lists each 
of the High Impact Recreation Areas and the following information for 
each of these Areas:

    (1) Name of the HIRA;
    (2) Number of acres within the HIRA;
    (3) Number and type of amenities, such as permanent outhouses, 
campground, day-use areas, trailheads that meet the requirements of 
Section 803(f)(4)(d), and trailheads that do not meet the requirements 
of Section (f)(4)(d), boat docks or boat launches; (3) Estimated annual 
use (total visits) within the area,
    (4) Number of miles of paved roads within the HIRA;
    (5) Number of miles of unpaved Forest Service system roads within 
the HIRA;
    (6) Number of scenic overlooks or developed\1\ pullouts within the 
HIRA;
---------------------------------------------------------------------------
    \1\ Having facilities (bathrooms) and/or picnic tables, and/or 
paving with true interpretive signs (not just signs saying this is a 
rec. fee site) or a majority of these amenities.
---------------------------------------------------------------------------
    (7) Number of undeveloped pullouts or scenic overlooks within the 
HIRA;
    (8) Number of undeveloped dispersed camping areas, or picnic areas 
within the HIRA;
    (9) Number of undeveloped (those without amenities) trailheads in 
the HIRA.

    B) We would also like for each HIRA a written description of: a) 
the significant opportunities for recreation found in the area; b) the 
amount of investment in the area since 1995.
    Answer. The Bureau of Land Management (BLM) does not have ``High 
Impact Recreation Areas;'' this is a term used by the Forest Service. 
All of BLM's standard amenity recreation fee sites meet the 
requirements of the Recreation Enhancement Act (REA) and contain the 
requisite amenities. As mentioned in our testimony, we also issue 
individual Special Recreation Permits (SRPs) at 22 recreation areas. In 
FY 2004, BLM issued approximately 105,200 individual SRPs and charged 
an associated SRP fee in 21 recreation areas, located in 5 States (AZ, 
CA, NV, UT, NM), and approximately 500 SRPs, without associated fees, 
in one additional recreation area in the State of Idaho. Ten of these 
areas are river segments, four are canyon trails, and eight are off 
highway vehicle (OHV) areas. BLM has been issuing such SRPs for 35 
years through a public planning process. The authority provided in REA 
is substantially similar to BLM's previous authority for SRPs, and 
thus, we do not expect changes in our implementation of the SRP 
program.
    Question 2. In your testimony you mentioned flying sewage out of 
Wilderness Areas. Please provide the specific instances of this and 
certify that these flights were either allowed under the Wilderness Act 
(because it was a non-conforming use that was practiced in the area 
prior to the 1964 Wilderness Act) or that these flights were approved 
under the emergency provisions that allow for helicopter flights into 
the Wilderness Area. For all flights approved under the emergency 
provisions, please provide copies of the signed decision notices that 
authorized the flights.
    Answer. Testimony submitted by the Forest Service, not the 
Department of the Interior, included a discussion about flying sewage 
out of Wilderness Areas. We, therefore, defer to the Forest Service for 
an appropriate response.
    Question 3. It is the Committees' observation that the federal 
Lands Recreation Enhancement Act (born as a rider to an appropriations 
bill) began life on very shaky ground. The Committee believes that 
implementation must be transparent and beyond reproach.
    It is the Bureau of Land Management willing to quickly have each of 
its HIRA sites which were carried over from the Recreation Fee 
Demonstration programs to FLREA status reviewed by a panel of non-
recreation employees? The panel will decide whether the HIRA's were 
converted from the Recreation Fee Demonstration program to the Federal 
Land Recreation Enhancement Act within the spirit of the law. It will 
also make recommendations to the Forests.
    We would suggest that you not allow personnel from the Forest or 
region where the site is located to serve on the review team for that 
Forest or district. We also expect those recommendations to be reviewed 
by the Recreation Resource Advisory Committees once the HIRAs have been 
configured.
    Answer. As mentioned above, BLM does not have ``High Impact 
Recreation Areas.''
    We do agree that implementation should be transparent with 
opportunities for public participation, and we are committed to an open 
process. In this spirit, the Fee Council recently clarified the 
Departments' view of the duties of the Recreation Resource Advisory 
Committees (Recreation RACs). The Council agreed that the Recreation 
RACs should be encouraged to discuss, in an advisory capacity, BLM and 
the Forest Service's recreation fee programs, including standard 
amenity recreation fees as well as individual Special Recreation Permit 
fees.

                                ------                                

                 Responses of Under Secretary Mark Rey

    Question 1a. Please provide for the Committee a spreadsheet that 
lists each of the High Impact Recreation Areas (HIRA) and the following 
information for each of these areas:

    (1) Name of the HIRA;
    (2) Number of acres within the HIRA;
    (3) Number and type of amenities, such as permanent outhouses, 
campground, day-use areas, trailheads that meet the requirements of 
Section 803(f)(4)(d), and trailheads that do not meet the requirements 
of Section (f)(4)(d), boat docks or boat launches;
    (4) Estimated annual use (total visits) within the area;
    (5) Number of miles of paved roads within the HIRA;
    (6) Number of miles of unpaved Forest Service system roads within 
the HIRA;
    (7) Number of scenic overlooks or developed) pullouts within the 
HIRA;
    (8) Number of undeveloped pullouts or scenic overlooks within the 
HIRA;
    (9) Number of undeveloped dispersed camping areas, or picnic areas 
within the HIRA;
    (10) Number of undeveloped (those without amenities) trailheads in 
the HIRA.

    Answer. Please see Attachment A for response to Question 1a.\1\
---------------------------------------------------------------------------
    \1\ All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    Question 1A3--we provided a list of all developed recreation sites 
that are located within each HIRA boundary and listed in INFRA, the 
Forest Service's corporate developed recreation site database. In 
addition, we also included the amenities located at each specific 
developed recreation site. The collection of these developed recreation 
sites and additional services constitutes the HIRA.
    Question 1A4--We are not able to provide visitation data 
specifically for each HIRA. The Forest Service does not collect 
specific site visitation in a coordinated, statistically valid method. 
The National Visitor Use Monitoring (NVUM) project is the official 
method of measuring visitor use on National Forest System lands. This 
information is collected in a statistically valid and consistent manner 
across all national forests and grasslands in the nation. We have 
provided the NVUM visitation number for each national forest that has a 
HIRA.
    Questions 1A8, 1A9, and 1A10--The table provided in Attachment A 
describes the developed facilities that are inventoried and tracked in 
the Forest Service INFRA database. Undeveloped facilities described in 
A8-10 are not tracked in any database.
    Question 1b. We would also like for each HIRA a written description 
of: a) the significant opportunities for recreation found in the area; 
b) the amount of investment in the area since 1995.
    Answer. Please see Attachment B for a brief description of the 
significant recreation opportunities for each HIRA. Available records 
or corporate databases do not track historical expenditures of 
investments for a specific area. As a result, we are unable to provide 
how much has been invested in each HIRA since 1995.
    Question 2. During the hearing we asked you about the relationship 
between local or state law enforcement departments and the Forest 
Service as it relates to enforcement of the Federal Lands Recreation 
Enhancement Act. We need you to more completely develop your answer to 
that question. What are the variety of agreements and responsibilities 
for the Forest Service enforcement officers and for the state or local 
officers? Please provide a more complete listing of what enforcement 
actions may be taken by each of the parties when they find a violation 
of the FLREA.
    Answer. Violation of REA involves nonpayment of a fee owed the 
federal government. Therefore, enforcement of collection of this fee is 
the responsibility of federal law enforcement officers. Enforcement 
actions by Federal law enforcement officers for fee violations of REA 
range from patrolling and informing individuals of the requirements to 
pay a fee to issuing violation notices. A first offense of nonpayment 
of a recreation fee under REA is punishable by a fine of up to $100 and 
is not subject to a prison term. The fine of up to $100 for a first 
offense of nonpayment provided for in REA is considerably lower than 
the penalties that would otherwise apply under federal law for a Class 
B misdemeanor (up to a $5000 fine and up to 6 months imprisonment). REA 
explicitly precludes application of these stiffer penalties to a first 
offense of nonpayment, (18 U.S.C. 3571(e)). Only subsequent offenses of 
nonpayment are punishable as a Class A or Class B misdemeanor.
    The Forest Service has separate authority from REA to reimburse 
state and local law enforcement agencies on National Forest System 
lands (16 U.S.C. 5.51a). The Forest Service provides approximately $5 
million dollars of its appropriated law enforcement funds each year for 
that purpose to county sheriffs. In addition, the Forest Service uses 
REA fee revenues to reimburse state and local law enforcement agencies 
for costs they incur in enforcing state law and in increasing patrol 
presence in recreation fee areas.
    Question 3. In your testimony you mentioned flying sewage out of 
Wilderness Areas. Please provide the specific instances of this and 
certify that these flights were either allowed under the Wilderness Act 
(because it was a non-conforming use that was practiced in the area 
prior to the 1964 Wilderness Act) or that these flights were approved 
under the emergency provisions that allow for helicopter flights into 
the Wilderness Area. For all flights approved under the emergency 
provisions, please provide copies of the signed decision notices that 
authorized the flights.
    Answer. Please see Attachment C for a description of helicopter use 
for removal and servicing of human waste in wilderness areas.
    Question 4. On page one of the pictures you provided to the 
Committee at the hearing you have two pictures of cars parked along a 
road in Utah. Please provide us a list of the specific amenities that 
those recreationists have been provided (from the list of required 
amenities under the standard amenity fee authorization) and the 
proximity of those amenities to the parked vehicles (within \1/4\ mile 
or over \1/4\ mile is sufficient).
    Answer. See tables below for description of amenities and proximity 
of those amenities.

     Table 1.--FIGURE 1 DESCRIPTION, AMERICAN FORK CANYON, UINTA NF
------------------------------------------------------------------------
                                                         Distance from
                                                      Photo Point  (> \1/
            Figure 1                Amenity (List)     4\ mile; < \1/4\
                                                             mile)
------------------------------------------------------------------------
                                  Designated          Less than \1/4\
                                   Developed Parking.  mile
                                  Permanent Toilet    Less than \1/4\
                                   Facility.           mile
                                  Permanent Trash     Less than \1/4\
                                   Receptacle.         mile
                                  Picnic Tables.....  Less than \1/4\
                                                       mile
                                  Security Services.  Less than \1/4\
                                                       mile
                                  Interpretive Signs  Less than \1/4\
                                   (Planning Stage).   mile
------------------------------------------------------------------------


     Table 2.--FIGURE 2 DESCRIPTION, AMERICAN FORK CANYON, UINTA NF
------------------------------------------------------------------------
                                                         Distance from
                                                      Photo Point  (> \1/
            Figure 2                Amenity (List)     4\ mile; < \1/4\
                                                             mile)
------------------------------------------------------------------------
                                  Designated          Less than \1/4\
                                   Developed Parking.  mile
                                  Permanent Toilet    Less than \1/4\
                                   Facility.           mile
                                  Permanent Trash     Less than \1/4\
                                   Receptacle.         mile
                                  Picnic Tables.....  Less than \1/4\
                                                       mile
                                  Security Services.  Less than \1/4\
                                                       mile
                                  Interpretive Signs  Less than \1/4\
                                   (Planning Stage).   mile
------------------------------------------------------------------------

    Question 5. On page two of the pictures you provided to the 
Committee at the hearing you have a picture of cars parked along a road 
in Utah. Please provide us a list of the specific amenities that those 
recreationists have been provided (from the list of required amenities 
under the standard amenity fee authorization) and the proximity of 
those amenities to the parked vehicles (within \1/4\ mile or over \1/4\ 
mile is sufficient).
    Answer. Please send table below with list of amenities and 
proximity of amenities.

     Table 3.--FIGURE 3 DESCRIPTION, AMERICAN FORK CANYON, UINTA NF
------------------------------------------------------------------------
                                                         Distance from
                                                      Photo Point  (> \1/
            Figure 3                Amenity (List)     4\ mile; < \1/4\
                                                             mile)
------------------------------------------------------------------------
                                  Designated          On site
                                   Developed Parking.
                                  Permanent Toilet    On site
                                   Facility.
                                  Permanent Trash     On site
                                   Receptacle.
                                  Picnic Tables.....  On site
                                  Security Services.  On site
                                  Interpretive Signs  On site
                                   (Planning Stage).
------------------------------------------------------------------------

    Question 6. In reference to Figure 4, page two of the pictures you 
provided, please provide us an explanation of why the collection of 
trash from the picnic grounds has anything to do with the 
implementation of the Federal Lands Recreation Enhancement Act. Under 
the Act picnic grounds do not qualify as areas for which the agency can 
charge; why did you send us pictures about the collection of trash from 
picnic grounds? Why should we be concerned about the cost of collection 
of trash from picnic grounds that aren't part of the FLREA authority?
    Answer. Picnic grounds may qualify for a recreation fee under REA 
if they meet the requirements of the standard amenity fee. Nothing in 
REA prohibits charging at picnic grounds that meet standard amenity fee 
criteria. Trash management, including providing the permanent trash 
receptacles and removal of trash required for charging a standard 
amenity recreation fee, is a large expenditure for almost all 
recreation fee sites, regardless of their recreation fee category. The 
photographs of trash collection and removal were included to illustrate 
that those tasks are a dominant issue at all recreation fee sites and 
that recreation fees are used to address this issue within HIRAs as 
well as at other recreation fee sites. In addition, when asked in 
visitor surveys how they want their fees spent, most people rank toilet 
cleaning, trash collection, and health and safety the highest.
    Question 7. Figure 5, page 3 is a picture of trash outside an 
outhouse in American Fork Canyon. Please provide the Committee with a 
full description of the area. We are unable to understand whether this 
is a standard amenity fee site or expanded amenity fee site.
    Answer. This picture (Figure 5) was taken at Tibble Fork Reservoir. 
The purpose of this picture was to show some of the use that occurs on 
a daily basis during the summertime. A standard amenity fee of $3 for 
three days is charged for this area. The amenities offered on site are 
designated developed parking, permanent toilet facilities, permanent 
trash receptacles, picnic tables, and security services. Interpretive 
signs are located less than a quarter mile away from this site.
    Question 8. On pages four through six you have provided pictures of 
vehicles either parked or camping on the Wasatch-Cache National Forest. 
What physical amenities or services are being provided in the immediate 
area (within 1/4 of a mile) that justify the Wasatch-Cache National 
Forest in believing this area qualifies as a standard amenity fee site 
under provision 803(f)(4)(a)?
    Answer. Please see Attachment D.
    Question 9a. Figure 16 on page nine of the pictures you provided 
shows medical support personnel on the San Bernardino National Forest. 
Are those Forest Service personnel? If so, how are they funded? Are 
they funded out of fire suppression or out of Recreation Fee receipts?
    Answer. One of the people shown in the photograph (Figure 16) is a 
Forest Service Adventure Pass patrol officer, paid for from recreation 
fee receipts. All the other responders are San Bernardino County 
employees. The Forest Service employee was first on the scene and 
called the emergency responders.
    Question 9b. Please provide the Committee with detailed information 
on the following:

    (1) Number of employees (both direct and indirect) on each forest 
that are funded with the receipts of the FLREA.
    (2) What are the total costs for those employees?
    (3) How much total FLREA receipts were collected on each forest in 
FY 2005?

    Answer. Please see Attachment E. The Forest Service is able to 
provide the total amount of salaries paid out of recreation fee 
receipts in fiscal year 2005. We also provided the permanent full-time 
equivalent (FTE) positions that the salaries support on each 
administrative unit. Please note that the FTE number does not equal the 
actual number of employees paid out of recreation fee receipts. Forests 
employ seasonal and term (non-permanent, full-time employees) to work 
on recreation fee projects. The salaries for these non-permanent 
positions, which were paid out of recreation fee funds, are included 
within the total FTEs reported in Attachment E.
    Question 10. For each picture on pages ten through twelve, please 
provide me with a list of the physical amenities and services provided 
in the immediate area (within \1/4\ of a mile) that justify the White 
Mountain and Coconino National Forests in believing these areas qualify 
as standard amenity fee areas under provision 803(f)(4)(a).
    Answer. Table of Amenities and Proximity of Amenities--White 
Mountain and Coconino National Forests.

              Table 9.--FIGURE 18 DESCRIPTION, COCONINO NF
------------------------------------------------------------------------
                                                         Distance from
                                                       Photo Point  (\1/
            Figure 18               Amenity (List)      4\ mile; <\1/4\
                                                             mile)
------------------------------------------------------------------------
Bell Rock Trailhead, Red Rocks    Parking Lot.......  < \1/4\ mile
 Project, Arizona.                                     (located on site)
                                  Toilet............  > \1/4\ mile
                                  Trash Disposal....  > \1/4\ mile
                                  Kiosk.............  < \1/4\ mile
                                                       (located on site)
                                  Picnic Tables.....  > \1/4\ mile
                                  Security..........  < \1/4\ mile
                                                       (located on site)
------------------------------------------------------------------------


              Table 10.--FIGURE 19 DESCRIPTION, COCONINO NF
------------------------------------------------------------------------
                                                         Distance from
                                                       Photo Point  (\1/
            Figure 19               Amenity (List)      4\ mile; <\1/4\
                                                             mile)
------------------------------------------------------------------------
Midgely Bridge, Red Rocks         Parking Lot.......  < \1/4\ mile
 Project, Arizona.                                     (located on site)
                                  Toilet............  > \1/4\ mile
                                  Trash Disposal....  > \1/4\ mile
                                  Kiosk.............  < \1/4\ mile
                                                       (located on site)
                                  Picnic Tables.....  < \1/4\ mile
                                                       (located on site)
                                  Security..........  < \1/4\ mile
                                                       (located on site)
------------------------------------------------------------------------


              Table 11.--FIGURE 20 DESCRIPTION, COCONINO NF
------------------------------------------------------------------------
                                                         Distance from
                                                       Photo Point  (\1/
            Figure 20               Amenity (List)      4\ mile; <\1/4\
                                                             mile)
------------------------------------------------------------------------
Traffic jam heading south out of  Parking Lot.......  < \1/4\ mile
 Oak Creek Canyon, Red Rocks
 Project, Arizona.
                                  Toilet............  > \1/4\ mile
                                  Trash Disposal....  > \1/4\ mile
                                  Kiosk.............  < \1/4\ mile
                                  Picnic Tables.....  < \1/4\ mile
                                  Security..........  < \1/4\ mile
------------------------------------------------------------------------


              Table 12.--FIGURE 21 DESCRIPTION, COCONINO NF
------------------------------------------------------------------------
                                                         Distance from
                                                       Photo Point  (\1/
            Figure 21               Amenity (List)      4\ mile; <\1/4\
                                                             mile)
------------------------------------------------------------------------
Typical weekend at West Fork      Parking Lot.......  < \1/4\ mile
 Picnic Area, Red Rocks Project,                       (located on site)
 Arizona.
                                  Toilet............  < \1/4\ mile
                                                       (located on site)
                                  Trash Disposal....  < \1/4\ mile
                                                       (located on site)
                                  Kiosk.............  < \1/4\ mile
                                                       (located on site)
                                  Picnic Tables.....  < \1/4\ mile
                                                       (located on site)
                                  Security..........  < \1/4\ mile
                                                       (located on site)
------------------------------------------------------------------------


  Table 13.--FIGURE 22, WHITE MOUNTAIN NF, LOWER FALLS RECREATION AREA
------------------------------------------------------------------------
                                                         Distance from
                                                       Photo Point  (\1/
            Figure 23               Amenity (List)      4\ mile; <\1/4\
                                                             mile)
------------------------------------------------------------------------
Lower Falls Recreation Area.....  Picnic Tables.....  < \1/4\ mile
                                  Permanent           < \1/4\ mile
                                   (Vaulted) Public
                                   Toilets.
                                  Designated Paved    < \1/4\ mile
                                   Parking.
                                  Interpretive        < \1/4\ mile
                                   Panels--Geology.
                                  Permanent Trash     < \1/4\ mile
                                   Receptacles.
                                  On-site Staffing    < \1/4\ mile
                                   and Security
                                   Patrols.
                                  Well Water Supply.  < \1/4\ mile
                                  Grates and Grills.  < \1/4\ mile
                                  Pavillion.........  < \1/4\ mile
------------------------------------------------------------------------

    Question 11. Please have the White Mountain National Forest provide 
a written description of the amenities that are provided at the Lower 
Falls Day-Use Site as pictured in Figure 23, page twelve of the 
pictures you provided. Additionally, since day-use sites do not qualify 
under FLREA, please explain why you have included this picture in the 
material for the FLREA implementation hearing.
    Answer. The White Mountain National Forest provides these amenities 
at Lower Falls:

    1. Picnic tables (4)
    2. Permanently affixed steel trash receptacles
    3. Vaulted public restroom
    4. White Mountain National Forest staffing (7 days/week) (funded 
from REA receipts)
    5. Drilled well public water supply
    6. Steel cooking grates (5)
    7. Public security and rescue patrols (WMNF staff) funded with REA 
receipts
    8. Designated paved parking area
    9. Safety and rescue support (WMNF staff funded with REA receipts)
    10. Constructed picnic pavilion

    This picture was included to illustrate the level of use at this 
recreation site that is included within the Kancamangus Scenic Byway 
High Impact Recreation Area. The amenities listed above are all within 
a short walk from the river, although they are not visible in the 
picture provided.
    Question 12. Figure 24 on page thirteen of the pictures that were 
provided is a picture of what appears to be a local fire and rescue 
squad on the White Mountain National Forest. Are these federal 
employees and are they paid with FLREA receipts? If they are not 
federal employees why does the Forest Service feel this is an amenity 
that they are providing the recreationists who use that area?
    Answer. The photograph shows members of the Carroll County, New 
Hampshire, Fire and Rescue Squad and a White Mountain National Forest 
(WMNF) employee carrying an injured Forest visitor from the Lower Falls 
swimming area. The Carroll County Rescue Squad assists the WMNF on 
rescue calls and often responds to accidents at this popular site.
    This cooperative work done by Forest Service employees and agency 
cooperators serves to fulfill the requirement that security services be 
available in areas where a standard amenity fee is charged. This work 
is part of a larger effort that includes WMNF staff on site at this 
location seven days a week during the peak season. These employees are 
funded from REA receipts and serve as first responders assisting with 
immediate needs, coordinating rescues, and assisting with litter 
carries. Forest employees also educate and warn visitors about the 
hazards of the area, are on site to answer questions, provide 
interpretive information to the public, monitor security, and clean up 
litter.
    Question 13. For each picture of trash that you have provided 
please provide the law enforcement log for the areas in the pictures 
for the last year tracking how many tickets were given for littering 
versus how many tickets were given for failure to have a recreation 
pass.
    Answer. The Forest Service database of law enforcement incidents 
does not allow the Agency to narrow searches to one specific site on a 
national forest.
    White Mountain National Forest--The fiscal year 2005 statistics for 
the Saco Ranger District (which includes Lower Falls) show 3 citations 
issued for littering and 0 citations for failure to display a parking 
pass. Forest-wide, the Agency issued 14 citations for littering and 1 
for failure to display a parking pass in fiscal year 2005.
    San Bernardino National Forest--The fiscal year 2005 statistics for 
the San Gabriel River Ranger District shows the following violations:

          Failure to pay a recreation fee:
                  Notice of noncompliance--8,477
                  Violation Notice--4
          Sanitation:
                  Incident report--3 (used when violator is not known)
                  Warning Notice--4 (not a ticket, but a warning)

    Uinta National Forest--The fiscal year 2005 statistics for the 
Pleasant Fork Ranger District shows that 6 tickets were issued for 
failure to pay a recreation pass and 0 tickets were issued for 
littering.
    Coronado National Forest--The fiscal year 2005 statistics for the 
Santa Catalina Ranger District shows the following violations:

          Failure to pay a recreation fee:
                  Notice of noncompliance--2,700
                  Violation Notice--10
          Sanitation:
                  Incident report--136
                  Violation Notice--11

    Question 14. On the lower left-hand corner of page three of the 
pictures Ms. Kitty Benzar submitted (which were provided to you prior 
to the hearing) there is a picture of a sign at Grand Lake saying a fee 
is required to boat into Shadow Reservoir. Under Sec. 803(d)(1)(D) of 
the law it prohibits the Secretary from charging a fee ``For persons 
who are driving through, walking through, boating through, horseback 
riding through, or hiking through Federal recreational lands and waters 
without using the facilities and services.'' How do you square the 
language in the bill with what they are charging for on the Arapaho 
Roosevelt at Grand Lake and Shadow Mountain Reservoir?
    Answer. As opposed to Grand Lake and most other bodies of water on 
National Forests, The waters of Shadow Mountain Reservoir are under the 
jurisdiction of the Forest Service. We have multiple responsibilities 
for public safety and amenities for boaters using the area, including 
safety/courtesy boat patrol, underwater hazard marking by buoy 
placement, channel depth marking between Shadow Mountain Lake and Grand 
Lake, water rescue to stranded and overturned boaters, boating 
regulation enforcement in coordination with the county sheriff and 
state parks boating enforcement crew, boat ramp extensions, courtesy 
docks, a gin pole for sailboat mast raising, shoreline cleanup, and 
sanitary regulation enforcement. There are several developed recreation 
sites along the shoreline of the Shadow Mountain Reservoir as well. We 
will continue to review specific fee determinations at Shadow Mountain 
Reservoir to insure that they meet REA requirements and will make 
adjustments if necessary. We look forward to working with the public on 
this issue as well.
    Question 15. I know that many of the collection facilities on the 
Arapaho Roosevelt National Forest were bought and paid for with 
revenues from the Recreation Fee Demonstration program, but how do 
those facilities enhance a recreationist's visit to that area?
    Answer. The Recreation Fee Demonstration Program authority and REA 
allow federal agencies to use a portion of fee revenue to pay for 
collection facilities. These facilities may be paid for through a 
mixture of fee revenue and appropriated funds. Centralized information 
stations, which may also be used to collect recreation fees, provide a 
convenience for visitors, one stop instead of two to obtain information 
and paying a fee. There are other payment options available to the 
visitor besides the information station.
    Question 16. It is the Committees' observation that the Federal 
Lands Recreation Enhancement Act, (born as a rider to an appropriations 
bill) began life on very shaky ground. The Committee believes that 
implementation must be transparent and beyond reproach.
    Is the Forest Service willing to quickly have each of its HIRA 
sites which were carried over from the Recreation Fee Demonstration 
programs to FLREA status reviewed by a panel of non-recreation 
employees? The panel will decide whether the HIRA's were converted from 
the Recreation Fee Demonstration program to the Federal Lands 
Recreation Enhancement Act within the spirit of the law. It will also 
make recommendations to the Forests.
    We would suggest that you not allow personnel from the Forest or 
region where the site is located to serve on the review team for that 
Forest or district. We also expect those recommendations to be reviewed 
by the Recreation Resource Advisory Committees once the HIRAs have been 
reconfigured.
    Answer. All recreation fee sites have been reviewed by regional 
recreation fee boards, which include non-recreation employees such, as 
foresters, engineers, and District Rangers, as well as recreation 
employees. Although these employees are from the same region as the 
sites they are reviewing, they conduct an independent assessment of the 
fees charged at site and have recommended adjustments to recreation 
fees, including HIRAs.
    The Forest Service plans to have every HIRA presented to the 
Recreation Resource Advisory Committees for their review and 
recommendations. This direction was stated in the Forest Service REA 
Interim Implementation Guidelines, issued on April 22, 2005.
    Question 17. (Asked During Hearing) Could you provide the committee 
with the visitation use numbers for the Forest Service for each of the 
last 10 years by the end of November? If you could break those numbers 
out into the following categories of use, that would be most helpful to 
us. And I do not know whether this is possible. Take a look at it and 
see whether you can: driving for pleasure, hunting, fishing, 
birdwatching, camping, hiking, picnicking, and other non-wilderness 
dispersed recreation, or wilderness use.
    Answer. In the past, estimates of visitor use on National Forest 
System lands have been unreliable and not statistically accurate. 
Because of this, describing recreation trends for the past ten years is 
not possible. Beginning in 2000, the Forest Service implemented the 
National Visitor Use Monitoring (NVUM) program to provide for the best-
available scientific methods in data collection, analysis, and 
reporting.
    In addition to serving the needs of USDA Forest Service managers, 
NVUM results and data are used by the public and other governmental 
entities, including states, private industry, and academia. The 
information provided by the NVUM program will also be useful for 
Congressional reporting, resource monitoring, and strategic planning 
analyses. The data provide managers with valuable information about the 
people they serve.
    By knowing how many people recreate on a national forest, their 
activities they engage in, how long they stay, how much they spend, and 
how satisfied they are with the facilities and services provided, 
managers can make more informed and responsive decisions.
    The first full cycle of the NVUM program occurred from January 2000 
through September 2003. During each of these 4 years, 25 percent of the 
national forests were surveyed. Since October 2004, ongoing sampling 
has occurred on approximately 20 percent of the national forests each 
year. The available data cover the four year period when all national 
forests were sampled.
    The following table shows the number of visits on National Forest 
System Lands for specific activities during the four-year survey 
period.

------------------------------------------------------------------------
                                                               Number of
                      Primary Activity                          Visits
                                                              (millions)
------------------------------------------------------------------------
Hunting.....................................................       15.3
Fishing.....................................................       15.0
Viewing Wildlife............................................        5.7
Driving For Pleasure........................................        8.1
Winter Activities...........................................       33.8
Camping/Hiking/Picnicking...................................       38.9
All Other Activities........................................       80.7
                                                             -----------
    Total...................................................      197.5
------------------------------------------------------------------------

    We have also included Attachment F, which displays the number of 
site visit and national forest visits for all national forests. A 
national forest visit consists of 1 or more site visits. A person may 
visit a campground and visitor center (2 site visits) in one national 
forest visit.


</pre></body></html>
